January – March 2012
                 Message From the Deputy Inspector General


The U.S. Agency for International Development (USAID) Office of Inspector General (OIG) is
responsible for providing oversight of USAID programs and activities. Our work promotes the
integrity of USAID programs and activities and the efficiency and effectiveness of its assistance
efforts around the world. Provided limited oversight resources, OIG takes a targeted approach
to executing its mission, prioritizing oversight activities in high-risk
settings of particular interest to Congress and the administration.

USAID programs and activities in Afghanistan and Pakistan are
undertaken in a challenging operating environment that exposes
them to increased risks of fraud, waste, and abuse. Because the
large-scale programs in these countries support U.S. national
security interests as well as reconstruction, stabilization, and
development goals, oversight of them is the top priority for OIG.

OIG has been providing oversight of USAID activities in Afghanistan and Pakistan since the
Agency reopened its missions in these countries in 2002. Our oversight there covers the full
spectrum of USAID programs and helps ensure that taxpayer dollars are being spent wisely.

We publish the following report quarterly to increase transparency about our work and
observations regarding assistance programs in these countries. This edition of the report
describes OIG’s oversight program in Afghanistan and Pakistan and highlights our activities
from January to March 2012.




                                           Michael G. Carroll
                                           Deputy Inspector General
                                                Table of Contents

USAID Office of Inspector General Oversight ................................................................................. 1

Afghanistan Oversight Program and Activities ............................................................................. 9

Pakistan Oversight Program and Activities ..................................................................................17

Appendixes...................................................................................................................................................29

            Appendix 1 – Suspension and Debarment Exclusions Resulting From
            OIG Investigations .......................................................................................................................29

            Appendix 2 – Recommendations Pending Management Decisions ......................30

            Appendix 3 – Recommendations Pending Final Action After 6 Months .............33

            Appendix 4 – Audited Amounts, Questioned Costs, and
            Funds Recommended to Be Put to Better Use................................................................38

            Appendix 5 – Completed Audit Reports ............................................................................53

            Appendix 6 – Summaries of Performance Audit and Review
            Findings, FYs 2010-2012 .........................................................................................................66

Abbreviations..............................................................................................................................................94
USAID Office of Inspector General Oversight
Established pursuant to the Inspector General Act, Public Law 95-452 (October 12, 1978), the
Office of Inspector General (OIG) is an independent oversight organization within USAID.
Responsible for oversight of approximately $31 billion in foreign assistance funds, OIG received
$51 million in fiscal year (FY) 2012 appropriations.
                                                         Inspector General Act of 1978
OIG executes its mission to protect and enhance the      The Inspector General Act establishes
integrity of the U.S. Government’s foreign assistance    Offices of Inspector General as independ-
programs through audit and investigative efforts. OIG    ent, objective units responsible for con-
maintains a staff of approximately 195 direct-hire em-   ducting and supervising audits and inves-
ployees and 38 other personnel that includes auditors,   tigations of agency programs and activi-
certified public accountants, investigators, and pro-    ties. It directs OIGs to provide leadership
                                                         and coordination and recommend poli-
gram analysts, as well as specialists in management,
                                                         cies to promote economy, efficiency, and
budget, information technology, and personnel opera-
                                                         effectiveness and prevent and detect
tions.                                                   fraud and abuse. The act also requires
                                                            Inspectors General to keep Congress and
Approximately 70 direct-hire OIG positions are based        the head of the agency fully and currently
overseas, and the remaining workforce is stationed in       informed about related problems and
Washington, D.C. OIG has overseas offices in Baghdad,       deficiencies and the need for and pro-
Cairo, Dakar, Kabul, Islamabad, Manila, Port-au-Prince,     gress of corrective actions.
Pretoria, San Salvador, and Tel Aviv.
                                                            The Inspector General Act gives the
                                                            Inspector General the authority to:
Some of OIG’s work is mandated by statute or regula-
tion. Other work is performed at OIG’s discretion after         Make investigations and reports the
considering risks associated with program activities            Inspector General deems necessary
and assessing potential internal control vulnerabilities.       or desirable.
OIG places a high priority on oversight of foreign assis-       Access all records and other materi-
tance efforts in Afghanistan and Pakistan and balances          als related to programs and opera-
these critical oversight requirements with other im-            tions under the Inspector General’s
portant oversight responsibilities around the world.            purview.

                                                                Require production of information
In both countries, we have adjusted our approach to             and documentary evidence by sub-
ensure the maximum possible oversight of the in-                poena.
creasing levels of assistance provided to local nongov-
                                                                Request information or assistance
ernmental organizations and host governments in the
                                                                from any federal, state, or local unit
form of project assistance and direct budget support.           of government.

                                                                Administer oaths and take affidavits.



USAID OIG Afghanistan and Pakistan Oversight Report                                                      1
        Financial Returns on OIG Work in        OIG’s considered approach to oversight in these
    Afghanistan and Pakistan, FYs 2003-2012     settings has produced dividends for taxpayers.
                                                Whereas we have expended $24.6 million on
                                                oversight activities in Afghanistan and Pakistan
                                                since FY 2003, our audit and investigative work
                                                has yielded $324.7 million in returns to the Gov-
                                                ernment in the form of audit and investigative
                  USAID OIG
                                                savings and recoveries. This amounts to a
            Savings and Recoveries
                    $13.21                      $13.21 return on each dollar spent on USAID OIG
                                                oversight in these countries. In addition to these
                                                direct savings and recoveries for the
                                                Government, USAID OIG prevents a significant
              OIG
                                                amount of waste, fraud, and abuse, and
             Costs
                                                contributes to future economies and efficiencies
              $1
                                                through investigative and audit work.



Audit Program
USAID OIG is responsible for conducting and supervising audits involving USAID programs and
operations. OIG auditors, certified public accountants, and program analysts design and conduct
audits and reviews to determine whether Agency programs and operations are working as
envisioned. Audit activities include performance audits of programs, financial statement audits,
audits related to financial accountability of grantees and contractors, and audits of information
technology systems.

Performance Audits and Reviews
OIG performance audits and reviews provide an independent assessment of the performance and
management of USAID systems, programs, activities, and functions against objective criteria, best
practices, and other information. Performance audits and reviews address a wide variety of
objectives, including those related to assessing program effectiveness and results; economy and
efficiency; internal controls; and adherence to legal and other requirements and standards.

When OIG auditors find areas for improvement, they make recommendations to the corresponding
organizational unit within USAID. When Agency officials agree with an OIG recommendation and
present a plan of action with milestones that would fully address a recommendation, OIG
determines that a “management decision” has been reached. When the Agency confirms that
corrective actions have been implemented, we consider that USAID has taken “final action” in
response to the recommendation.




2                                             USAID OIG Afghanistan and Pakistan Oversight Report
USAID managers have an opportunity to review and comment on OIG findings and
recommendations before they are published. USAID management comments on draft performance
audits and reviews are included in their entirety in an appendix of the final report.

OIG engages in an extensive planning process to
                                                           Enhanced Personnel Authorities
determine where to focus performance audit and review
work. This planning process accounts for program risks     A key ingredient in OIG’s success in con-
                                                           flict and postcrisis settings has been the
and is intended to identify topics of interest to OIG
                                                           organization’s temporarily enhanced
customers and stakeholders. OIG’s annual plan, which
                                                           hiring authority. The Supplemental Ap-
represents the culmination of the yearly planning cycle,   propriations Act of 2010, Public Law 111-
provides information on audits and reviews scheduled       212 (July 29, 2010), gave OIG the author-
for the ensuing fiscal year. OIG adjusts these plans       ity to waive compensation restrictions for
throughout the year as circumstances warrant.              reemployed annuitants so that they can
                                                           earn pay for their services while receiv-
OIG provides particularly intensive oversight of pro-      ing retirement benefits.
grams in high-risk settings such as Afghanistan and
Pakistan, where program success or failure can have        This authority has enabled us to hire
                                                           experienced personnel with the spe-
national security implications. OIG’s performance audit
                                                           cialized skills we require to respond to
program in Afghanistan and Pakistan is particularly
                                                           emerging oversight needs. OIG has used
robust as a result.
                                                           this authority in both Afghanistan and
                                                           Pakistan.
Financial Audits
USAID OIG uses different approaches to audit USAID         Unfortunately, this OIG authority is set to
                                                           expire in the coming months. Unless
funds expended by different types of organizations.
                                                           Congress acts to extend this enhanced
                                                           hiring authority, OIG will not be able to
USAID requires foreign nonprofit organizations that        retain reemployed annuitants on a con-
expend $300,000 per year or more in USAID funds to         tinuing basis after the end of FY 2012.
undergo an annual financial audit. These audits focus
specifically on USAID funds and follow the rules and
procedures contained in USAID’s Guidelines for Financial Audits Contracted by Foreign Recipients.
For routine audits, the recipient awards the audit contract using a standard statement of work
developed by OIG. The audits are performed by public accounting firms vetted by OIG. OIG
reviews final audit reports and transmits them to USAID for action. For a subset of these audits,
OIG also visits the audit firms, examines audit documentation, and interviews the auditors
responsible for the work. These audits are called recipient-contracted audits.

USAID may also award audit contracts directly. For agency-contracted audits, OIG is involved in
the audit from the outset, approving the audit program, attending entrance and exit briefings, and
approving draft and final audit reports. OIG is responsible for the quality of all recipient-
contracted and agency-contracted audits.




USAID OIG Afghanistan and Pakistan Oversight Report                                                      3
U.S.-based nonprofit organizations that expend $500,000 or more in federal awards annually are
required to be audited under the provisions of the Single Audit Act, Public Law 98-502 (October 19,
1984), as amended, and Office of Management and Budget (OMB) Circular A-133. These A-133
audits cover a sample of expenditures under federal awards.

For-profit entities are also subject to financial audit. USAID conducts annual risk assessments of
for-profit entities to decide when a for-profit entity should be audited. Financial audits of for-profit
organizations examine the direct and indirect costs incurred under the awards to determine the
allowable direct costs and recommend indirect cost rates. These audits are performed by the
Defense Contract Audit Agency (DCAA) or by public accounting firms.

                                                   Audits often identify questioned costs and sometimes
    Fraud Reporting
                                                   recommend that funds be put to better use. Auditors
    USAID implementing partners have an            question as ineligible any costs that are not reasona-
    obligation to report allegations of fraud
                                                   ble, allowable under the terms of the underlying con-
    related to USAID projects under the
                                                   tract or grant, or allocable to the program they were
    Federal Acquisition Regulation and
                                                   charged to. They question as unsupported any costs
    USAID requirements.
                                                   that lack evidence, such as bidding documents, in-
    USAID award recipients can use this form       voices, or receiving reports, that the auditors would
    on USAID OIG’s Web site to satisfy the         need to examine to determine whether the costs are
    requirement that they notify OIG               reasonable, allowable, and allocable. USAID contract-
    whenever they have credible evidence           ing or agreement officers make final determinations
    that a principal, employee, agent, or          on questioned costs and seek reimbursement for any
    subcontractor of USAID has committed a         sustained questioned costs. Funds recommended to
    violation of the Civil False Claims Act or a   be put to better use are funds that could be used more
    violation of federal criminal law involving
                                                   efficiently if managers take action to implement OIG
    fraud, conflict of interest, bribery, or
                                                   recommendations. Unnecessary expenditures that can
    gratuity violations in connection with a
    federal award or the performance or            be avoided in the future and costs that will not be in-
    closeout of a contract or any related          curred if operational changes are made in response to
    subcontract.                                   OIG recommendations are examples of funds put to
                                                   better use.
    Members of the public, USAID employees,
    and employees of USAID contractors and         Investigations
    grantees are encouraged to use the OIG
    hotline to report fraud, waste, or abuse in    OIG conducts investigations into possible violations of
    USAID programs or activities:                  federal laws, rules, and regulations to preserve and
                                                   protect the integrity of the programs and activities we
        E-mail: IG.Hotline@usaid.gov               oversee. OIG investigations of criminal, civil, and ad-
        Phone: 1-800-230-6539 or                   ministrative violations cover all facets of USAID pro-
        202-712-1023                               grams and operations.
        Web form: transition.usaid.gov/oig/
        hotline/hotline.htm



4                                                     USAID OIG Afghanistan and Pakistan Oversight Report
Most OIG investigations are conducted in response to reported allegations of wrongdoing on the
part of Agency personnel or implementing partners. However, OIG also conducts proactive
investigations into programs and activities vulnerable to fraud.

Complaints regarding USAID programs and activities may be made through the OIG hotline or in
person to OIG personnel. OIG protects the confidentiality of complainants’ identity pursuant to
Section 7(b) of the Inspector General Act. This provision prohibits OIG from disclosing the identity
of an employee who reports an allegation without first obtaining the employee’s consent, unless
OIG determines that disclosure is unavoidable during the course of the investigation.

Whistleblower protections are available to Federal employees and applicants who report
information that is reasonably believed to provide evidence of violations of law, rule, or regulation;
gross mismanagement; gross waste of funds; abuse of authority; or a substantial and specific
danger to public health or safety (unless disclosure of such information is specifically prohibited by
law and such information is specifically required by executive order to be kept secret in the
interest of national defense or the conduct of foreign affairs). Retaliation against an employee or
applicant for making a protected disclosure is prohibited by law. Managers are strictly prohibited
from taking, failing to take, or threatening to take or not take a personnel action on an employee or
applicant because of the employee’s or applicant’s disclosure of covered information.




           A billboard advertises the Anti-Fraud Hotline to passersby in Pakistan’s Punjab
           Province. (Photo by OIG, 2011)


USAID OIG Afghanistan and Pakistan Oversight Report                                                 5
In order to promote fraud reporting, OIG works to establish or link to existing country-specific
hotlines in high-risk environments such as conflict and postcrisis settings. Newly established
hotlines like the Anti-Fraud Hotline in Pakistan are supported by local marketing efforts,
translation services, and top-of-the-line security controls, vetting, and analytical capabilities.

When our investigations confirm allegations of wrongdoing, OIG special agents collaborate with
U.S. and local law enforcement and prosecutors, other federal agencies and offices, and
implementing partners to put a stop to the prohibited activity. OIG special agents are sworn law
enforcement officers with the authority to carry firearms, execute search warrants, and make
arrests.

Outreach and Coordination
Outreach and coordination are important elements of the oversight process, and OIG extensively
engages in these activities. OIG investigators conduct fraud awareness briefings to alert
participants to fraudulent practices and schemes and to provide guidance on how to report fraud if
it is encountered. OIG auditors provide training to Agency personnel, host-government audit
authorities, and local audit firms on cost principles and federal audit and accountability
procedures and requirements.

USAID OIG works with other law enforcement agencies including the Federal Bureau of
Investigation’s International Contract Corruption Task Force, the National Procurement Fraud
Task Force, the Financial Crimes Enforcement Network, and U.S. embassies’ legal attaché offices to
coordinate investigative work, eliminate duplication, and maximize the efficient use of government
resources.

When OIG identifies fraud, waste, or abuse in foreign assistance programs, we seek to neutralize
this activity by any legal means at our disposal. OIG routinely works with prosecutors from the U.S.
Department of Justice to put an end to civil and criminal violations and frequently works with
other U.S.-based and foreign prosecutorial authorities to bring perpetrators to justice.
Investigative findings on administrative matters are referred to Agency management for action.
OIG also works with USAID implementing partners to resolve investigative matters with a bearing
on their activities.

OIG auditors work closely with Agency managers to address our findings and identify appropriate
corrective actions in response to our recommendations. We also routinely collaborate and consult
with other oversight organizations. We work with DCAA in conducting audits, reviews, and
preaward surveys related to foreign assistance programs. USAID OIG employees regularly meet
with representatives from the OIGs of the Departments of State and Defense to coordinate plans,
reports, and activities of mutual interest. We also work with the Government Accountability Office
(GAO) in developing our audit plans to prevent duplication and ensure effective coordination.



6                                               USAID OIG Afghanistan and Pakistan Oversight Report
OIG is also a key participant in the Southwest Asia Joint Planning Group. The group, which is led by
the Department of Defense OIG, helps coordinate oversight of U.S. Government activities in
Southwest Asia. Other members of the group include representatives from the Office of Inspector
General for the Department of State, DCAA, the Government Accountability Office, the Special
Inspector General for Afghanistan Reconstruction, and the Special Inspector General for Iraq
Reconstruction. The group issues a coordinated oversight plan for the region on an annual basis
that includes planned and ongoing oversight activities by the member organizations.

OIG has taken a leadership role in working to harmonize audit standards among international
donors, working initially with eight bilateral donors. We work extensively with supreme audit
institutions and public accounting firms overseas, and endeavor to expand and deepen those
relationships wherever they would be mutually beneficial.




USAID OIG Afghanistan and Pakistan Oversight Report                                               7
8   USAID OIG Afghanistan and Pakistan Oversight Report
Photo of flood plain cultivation with the Pamir Mountains as a backdrop in Wakhan, Afghanistan. (Photo by
John Winnie Jr., Wildlife Conservation Society-Afghanistan, 2011)




Afghanistan Oversight Program and Activities
USAID OIG provides oversight of USAID activities in Afghanistan through an intensive program of
audits, investigations, and outreach and coordination activities.

To execute this program as effectively as possible, OIG has expanded its presence in Afghanistan in
recent years. In the past, OIG provided oversight remotely using personnel based in Washington,
D.C., and our regional office in the Philippines. In 2009, we established a permanent, on-the-
ground presence in Kabul. Our Country Office in Afghanistan currently has 17 personnel.

OIG spent approximately $16.4 million to provide oversight for Afghanistan from FY 2003 through
the second quarter of FY 2012. USAID OIG oversight activities there during the same period
produced $199.2 million in returns to the U.S. Government.

The U.S. Government reopened the USAID mission in Kabul in 2002. Since FY 2002, USAID has
provided approximately $14.0 billion to increase Afghan stability, provide humanitarian
assistance, and address needs in education, health, economic growth, and governance.




USAID OIG Afghanistan and Pakistan Oversight Report                                                         9
In recent years, OIG has covered a wide array of
USAID programs in Afghanistan, including those
for relief and stabilization, reconstruction,
economic growth, education, and health care.
Since the start of FY 2003, USAID OIG has issued
97 financial audits, performance audits, and
reviews of Afghanistan-related assistance efforts.
These reports made 326 recommendations for
improvements to USAID programs and activities.

Performance Audits and Reviews

USAID OIG has issued 50 performance audits and
reviews relating to USAID programs and activities
in Afghanistan since FY 2003. Performance audits
and reviews conducted in recent years have noted Map of Afghanistan. (Central Intelligence Agency
the need for improvements in a range of World Factbook, 2011)
management and performance areas. Six in ten reports have identified contract or project
management deficiencies and noncompliance with relevant procedures or regulations. More than
a third have found internal control weaknesses, and three in ten have noted risks to project
sustainability and that security problems hampered project implementation or monitoring.

OIG completed one performance audit in Afghanistan during the quarter:

     Audit of USAID/Afghanistan’s Skills Training for Afghan Youth Project (Report No. F-306-
     12-002-P). In April 2010, USAID awarded the Education Development Center, Inc. (EDC) a
     $49.9 million, 3-year cooperative agreement to design and implement the Skills Training for
     Afghan Youth (STAY) Project. An important element of the project is providing financial and
     technical assistance to two Afghan vocational skills training centers: the Afghanistan Technical
     Vocational Institute (ATVI) and the Kunar Vocational Organization (KVO).

     By funding operational costs, the project has enabled ATVI and KVO to continue conducting
     vocational training. In addition, the project has trained staff at ATVI and KVO in financial
     management, procurement, and reporting. However, after 16 months, little evidence exists
     that the project has made progress toward strengthening the overall technical capacity of these
     institutions or empowering youth.

     The “design and build” strategy used for the project, which was incorporated in the cooperative
     agreement’s program description, allowed EDC to design and present its implementation plan
     to USAID for approval after the award. However, the description included in the cooperative
     agreement was loosely defined and largely illustrative, and there was little to demonstrate that



10                                               USAID OIG Afghanistan and Pakistan Oversight Report
   USAID and EDC agreed on key elements of the design. Further, USAID and EDC differed on
   whether the design had been approved and on what specific activities were to be implemented
   during the second phase. OIG determined that without a clearly defined program description
   outlining USAID’s expectations for results and a mutual understanding of an approved design,
   the project is less likely to implement activities that contribute to the overall goals of the
   mission.




             A carpentry student works at Kunar Vocational Organization in Shigal, Laghman
             Province. (Photo by OIG, July 2011)


   The program description also did not clearly communicate the project’s purpose, goals,
   objectives, priorities, and activities. In fact, a report by an education specialist who assessed
   the project in May 2011 noted that the mission could aid program progress by clearly
   articulating its priorities to EDC and that it should address key issues such as what deliverables
   are of critical importance, what targets are acceptable, and which program areas should be
   prioritized for implementation. These factors contributed to the lack of a clear purpose, goals,
   objectives, priorities, and activities in the project.

   OIG made four recommendations. Management decisions were made on all four, and final
   action has been taken on two.

Four additional OIG performance audits and reviews were under way on March 31, 2012:




USAID OIG Afghanistan and Pakistan Oversight Report                                               11
     Audit of Internal Controls Over the Separate Maintenance Allowance at
     USAID/Afghanistan. This audit will determine whether USAID/Afghanistan has adopted
     appropriate internal controls to prevent improper use of the separate maintenance allowance
     benefit.

     Audit of USAID/Afghanistan’s Incentives Driving Economic Alternatives for the North,
     East, and West Program. This audit will determine whether the program is increasing licit
     and commercially viable agricultural employment alternatives for rural Afghans.

     Review of USAID/Afghanistan’s Monitoring and Evaluation System. This review will
     assess whether the USAID mission in Afghanistan has a monitoring and evaluation system in
     place to manage program activities effectively.

     Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program
     (CERP) Funds for Selected Projects. The objectives of this review are to determine
     (1) whether CERP funds provided to USAID by U.S. Forces-Afghanistan for specific projects
     were used for their intended purposes and in compliance with applicable laws and regulations,
     and (2) whether costs charged to CERP-funded projects were reasonable, allowable, and
     allocable.

In addition to these performance audits and reviews, OIG has 17 others planned for FY 2012.
These planned audits and reviews will address the following topics:

     Kandahar Power Initiative
     The Regional Municipalities Program for Urban Populations for Regional Platforms
     The Regional Municipalities Program for Urban Populations—East
     The Performance-Based Governor’s Fund
     The Limited Scope Grant in Support of the District Development Program
     Sustainability in Office of Infrastructure, Engineering, and Energy programs
     Sustainability in the education program
     Financial sustainability of energy sector programs
     Gender-related activities in selected programs
     Approaches to providing technical assistance to the Government of Afghanistan
     Transition plans
     Field staff monitoring of programs
     Management controls for efficiently managing program operations
     Internal controls for payroll
     Contracts and cooperative agreements
     Use of third-country national employees
     Follow-up on selected OIG recommendations



12                                             USAID OIG Afghanistan and Pakistan Oversight Report
Financial Audits
In addition to organization-wide audits of U.S.-based firms operating in Afghanistan, OIG has
overseen 47 financial audits of Afghanistan-based programs and activities since FY 2003. These
financial audits have covered more than $1.081 billion in funds and identified approximately
$150.1 million in questioned costs. Of this total, USAID had sustained more than $2.5 million in
questioned costs by the end of the reporting period.

OIG works with private accounting firms to conduct financial audits in Afghanistan. Before using
any private accounting firms for this type of work, OIG assesses their capability to perform the
work. As of March 31, 2012, USAID OIG had a roster of 13 eligible audit firms to call on in
Afghanistan.

In addition to required audits of local recipients and U.S.-based NGOs and for-profit entities
operating in Afghanistan, USAID funds audits of all locally incurred costs to enhance the
accountability of its programs.

From January 1 to March 31, 2012, OIG issued two financial audits in Afghanistan:

   Financial Audit of Costs Incurred in Afghanistan Under USAID Contract No. 306-DOT-I-
   01-08-00033-00 With Chemonics International Inc. for the Period October 1, 2009, to
   September 30, 2010 (Report No. F-306-12-005-N). This audit covered $13,839,901 in
   USAID funds associated with the Afghanistan Stabilization Initiative. The auditors did not
   identify any questioned costs or weaknesses in internal control or material instances of
   noncompliance. However, auditors noted that their work was subject to scope limitations
   including the cancellation of planned site visits due to security conditions in Kandahar
   Province.

   Financial Audit of the Local (Non-U.S.) Costs (Costs Incurred and Paid in Afghanistan)
   Under USAID Contract No. 306-I-00-06-00517-00 With the Joint Venture Louis Berger
   Group Inc./Black & Veatch Corp., for the Period October 1, 2009, to September 30, 2010
   (Report No. F-306-12-004-N). The fourth in a series of five planned financial audits of the
   Joint Venture contract, this audit covered $10,779,112 in locally incurred costs and payments.
   The auditors identified 20 material weaknesses, 8 significant deficiencies in internal control,
   and 4 material instances of noncompliance. Auditors also found $2,196,583 in questioned
   costs.

As of March 31, 2012, eight financial audits of USAID funds were in progress in Afghanistan:

   Audit of Local Costs Incurred by International Relief and Development Inc. for the
   Strategic Provincial Road—Southern and Eastern Afghanistan Program, for the Period
   October 1, 2009, to September 30, 2010.



USAID OIG Afghanistan and Pakistan Oversight Report                                            13
     Concurrent Financial Audit of the Local Costs Under USAID Contract No. 306-I-00-06-
     00517 With the Joint Venture Louis Berger Group Inc./Black & Veatch Special Projects
     Corp. for the Period October 1, 2009, Through September 30, 2010.

     Closeout Audit of Costs Incurred and Billed by Oasis International Schools Inc. to USAID
     Under Agreement No. 306-A-00-05-00522-00, Establishment of International School of
     Kabul for the Period May 27, 2005, Through December 31, 2010.

     Audit of Local Costs Incurred by United Nations Office of Project Services for the Kabul
     Schools Construction Program for the Period October 1, 2009, Through September 30,
     2010.

     Audit of Costs Incurred in Afghanistan by the Citizen Network for Foreign Affairs,
     Afghanistan Farm Services Alliance for the Period January 1, 2010, Through September
     30, 2011.

     Closeout Financial Audit of Local Costs Incurred by Creative Associates International Inc.
     Under the Ambassador’s Small Grants Program, Cooperative Agreement No. 306-A-00-
     09-00517-00, for the Period July 2, 2009, Through January 31, 2012, and Assessment of
     Procurement Systems.

     Statement of Work Financial Audits of the Local Costs Incurred and Paid in Afghanistan
     Under Contract No. 306-EEM-I-04-07-00005 With Deloitte Consulting for the Period
     August 15, 2009, to September 30, 2010.

     Financial Audit of Local Costs Incurred by the American University of Afghanistan,
     Cooperative Agreement No. 306-A-00-08-00525-00, for the Period July 1, 2009, Through
     December 31, 2010, and Assessment of Procurement Systems.

Thirty-six other financial audits of USAID funds in Afghanistan were in the planning stage at the
end of the quarter.
                                                          Investigative Outcomes
Investigations                                            Since FY 2003, OIG investigations in
                                                          Afghanistan have resulted in:
As of March 31, 2012, USAID OIG had 67 ongoing
investigations pertaining to Afghanistan. During the         38 referrals for civil or criminal pros-
reporting period, OIG investigators opened nine cases        ecution
in Afghanistan and closed eight others. Since FY 2002,       13 arrests
OIG has initiated 182 investigations related to Af-
                                                             13 indictments
ghanistan. These investigations have been associated
with a range of different types of allegations. In most      11 convictions and pleadings
cases, underlying allegations have pertained to pro-         104 administrative actions (e.g., con-
gram fraud (38 percent) or bribery and kickbacks (23         tract and employee terminations)
percent).
                                                             $163 million in savings and recoveries


14                                             USAID OIG Afghanistan and Pakistan Oversight Report
During the January 1 through March 31, 2012, reporting period, an OIG investigation resulted in
the suspension of two employees of USAID implementing partners:

Two Contractor Employees Suspended for Sharing Sensitive Information Inappropriately.
The Louis Berger Group/Black & Veatch Special Projects Corp. subcontracts for security services as
part of its Kabul Power Plant expansion and improvement efforts on behalf of USAID in
Afghanistan. OIG investigated allegations that Louis Berger Group/Black & Veatch’s corporate
security manager illegally obtained confidential information from the firm’s security subcontractor
and shared it with a representative of a firm bidding to take over the security subcontract. The
investigation confirmed the allegation and found that the information provided to the firm bidding
on the security subcontract gave it an unfair and illegal advantage over other bidders. As a result
of the investigation, USAID has suspended both individuals involved in the illicit exchange of
information from participating in future federal contracts, grants, cooperative agreements, or
other awards.

Outreach and Coordination
OIG investigators conduct fraud awareness briefings to alert participants—employees, contractors,
grantees, and subrecipients—to fraudulent practices and schemes and to provide guidance on how
to report fraud. OIG has provided 118 fraud awareness briefings in Afghanistan to 2,293
participants since FY 2003. During the reporting period, special agents in Afghanistan delivered 22
fraud awareness briefings attended by 414 participants, including representatives of USAID
implementing partners.

OIG conducts many of its investigations in concert with other law enforcement agencies, often in
association with the International Contract Corruption Task Force, a joint law enforcement agency
task force that seeks to detect, investigate, and dismantle corruption and contract fraud resulting
from U.S. contingency operations. When cases involving Afghan nationals are declined for
prosecution by the U.S. Department of Justice, the matters are presented to the local public
prosecutor, with whom OIG has developed a successful working relationship.

OIG also has a close working relationship with USAID/Afghanistan, and investigators regularly
brief contracting personnel on fraud detection and prevention. OIG provides an orientation to all
incoming USAID staff members in Afghanistan on their role in helping promote effectiveness and
accountability in USAID projects and programs, as well as on the operating environment in
Afghanistan, fraud indicators, and the OIG’s audit and investigative programs.

OIG has also established working relationships with many implementing partners and regularly
provides fraud awareness briefings for their staff. OIG also supports implementing partners in
their efforts to identify and address allegations of fraud by quickly referring cases to USAID’s Office
of Acquisitions and Assistance (OAA) and local prosecutors when appropriate. OIG continues to


USAID OIG Afghanistan and Pakistan Oversight Report                                                 15
collaborate with OAA by referring entities for possible suspension or debarment and meeting
regularly to review referrals. As this process becomes more robust, it will become increasingly
difficult for individuals to prey on multiple USAID projects. Since FY 2011, OAA has taken
suspension or debarment actions against 40 individuals and firms based on OIG referrals related to
Afghanistan.

USAID OIG coordinates audit plans and ongoing activities with other oversight bodies through the
Inspector General Shura, a body made up of the OIGs for USAID and the Departments of State and
Defense, the Special Inspector General for Afghanistan Reconstruction, and GAO.




16                                             USAID OIG Afghanistan and Pakistan Oversight Report
Image of a field cultivated under USAID’s Agricultural Recovery Project in Khyber Pakhtunkhwa, Pakistan.
(Photo by USAID/Pakistan, March 2011)




Pakistan Oversight Program and Activities
USAID OIG provides oversight of USAID activities in Pakistan through rigorous audit and
investigative work and extensive outreach and coordination.

To execute this program as effectively as possible, the OIG has expanded its presence in Pakistan in
recent years. In the past, the OIG provided oversight remotely using personnel based in
Washington, D.C., and our regional office in the Philippines. In 2009, we established a permanent,
on-the-ground presence in Islamabad. As of March 31, 2012, OIG’s Pakistan Country Office had 14
permanent staff supplemented by a staff member on temporary duty.

OIG has spent approximately $8.2 million to provide oversight for Pakistan from FY 2003 through
the second quarter of FY 2012. USAID OIG oversight activities there during the same period have
produced $125.5 million in returns to the U.S. Government.

The U.S. Government reopened the USAID mission in Islamabad in 2002. From FY 2002 through
the second quarter of FY 2012, USAID provided more than $5.4 billion to address needs in
education, health, economic growth, and good governance and to help with reconstruction and
recovery after earthquakes, floods, and armed conflict.


USAID OIG Afghanistan and Pakistan Oversight Report                                                  17
In recent years, OIG has covered a wide array of
USAID programs in Pakistan, for relief and stabili-
zation, reconstruction, sustainable development,
education, and health care. Since the start of FY
2003, USAID OIG has issued 73 financial audits,
performance audits, and reviews of Pakistan-re-
lated assistance efforts. These reports made 128
recommendations for improvements to USAID
programs and activities.

Performance Audits and Reviews
USAID OIG has issued 19 performance audits and
reviews relating to USAID programs and activities
in Pakistan since FY 2003. Performance audits and
reviews conducted in recent years have noted the Map of Pakistan. (Central Intelligence Agency
need for improvements in a range of management World Factbook, 2011)
and performance areas. Most have identified
contract or project management deficiencies and internal control weaknesses, and more than four
in ten have found noncompliance with relevant procedures or regulations.

From January 1 to March 31, 2012, OIG completed two performance audits.

     Audit of USAID/Pakistan’s Pre-Service Teacher Education Program (Report No. F-306-
     11-003-P). To improve teacher education in Pakistan, in September 2008 USAID/Pakistan
     awarded a $37 million cooperative agreement to the Academy for Educational Development
     (AED) to implement the Pre-Service Teacher Education Program (Pre-STEP). After the
     Government of Pakistan terminated its memorandum of understanding with AED, USAID
     canceled the cooperative agreement as well and awarded the program to EDC.

     In its first 3 years, the program made progress toward achieving improved teacher education
     by developing and helping the Pakistani Government implement education policy reforms. The
     Higher Education Commission approved two new education degree programs based in part on
     Pre-STEP recommendations. These programs, introduced with USAID’s support, should
     ultimately affect teacher training colleges and universities throughout Pakistan and help
     improve the overall quality of education. In part because of Pre-STEP’s efforts, 16 Pakistani
     teaching institutions have adopted the new degree programs. Pre-STEP plans to increase the
     number of colleges and universities offering the new degrees over the next 2 years by
     supporting their implementation at target colleges and universities and expanding the number
     of students enrolled in the new degree programs.



18                                             USAID OIG Afghanistan and Pakistan Oversight Report
   Despite the progress in developing and implementing policy reforms at the provincial and
   national levels, the program did not achieve most of its targets. For example, USAID funded
   only 410 of 2,297 planned scholarships to students enrolled in the new teaching curriculum
   and distributed only 10 of 36 planned research grants with an average value of $9,000 to
   teaching institutions in 2011. These shortfalls occurred in part because key personnel hired to
   manage the program did not have the necessary management skills. Another contributing
   factor was the change in implementers. Even though the mission awarded the new agreement
   the day after terminating the AED agreement, EDC still needed time to hire additional staff, find
   new office space, develop work plans, and establish internal controls.

   In addition, the mission’s technical office had many competing priorities and lacked time to
   provide adequate oversight. During the period under review, the mission assigned one
   agreement officer’s representative to manage Pre-STEP’s $75 million agreement. This
   individual was assigned to manage three other projects whose average budget was $9 million.
   This situation contributed to the missed targets.

   OIG made two recommendations, and management decisions have been reached on both.

   Audit of USAID’s Pakistan Transition Initiative Program (Report No. G-391-12-003-P).
   Assisting the Government of Pakistan in bringing peace and security to the unstable regions of
   Pakistan—the Federally Administered Tribal Areas (FATA) and Khyber Pakhtunkhwa—is
   pivotal to U.S. foreign policy objectives and national security. To achieve this goal, USAID
   awarded a 3-year, $102 million contract in September 2009 to implement a portion of the
   Pakistan Transition Initiative in FATA and Khyber Pakhtunkhwa. USAID’s Office of Transition
   Initiatives (OTI) manages the program with a staff of seven located at USAID/Pakistan.

   OIG confirmed that the program is a quick, efficient mechanism to deliver projects that the local
   communities want—like the suspension bridge pictured on the next page—and it has allowed
   the Government of Pakistan to cultivate trust and confidence in its services. Key
   accomplishments include 48,000 meters of streets paved, 22,800 meters of drainage and
   sanitation piping constructed, and 7,000 meters of retaining walls built to withstand flooding.

   The program formed committees for each project that were made up of community
   representatives who then conducted inspections and evaluations throughout project
   implementation. For example, the audit team interviewed the community members who had
   overseen the installation of a water supply system. They explained that, after extremists
   destroyed portions of their water system, villagers had been forced to get water from a distant
   well, exposing themselves to danger along the path. After the Pakistani military cleared the
   area, the program installed a new water tank and pumps.




USAID OIG Afghanistan and Pakistan Oversight Report                                              19
     An overarching goal of the program is to improve relations between the Government of
     Pakistan and communities in FATA and Khyber Pakhtunkhwa, thereby reducing violence and
     extremism. In addition to the infrastructure projects, the program rehabilitated 92 educational
     facilities, including the Government Girls’ High School. After the school closed for several
     months to house displaced persons during military operations and sustained significant
     damage, the program rehabilitated the school and provided school supplies.




            A bridge funded by the Pakistan Transition Initiative Program allows for quick and safe
            river crossing. (Photo by OIG, October 2011)

     However, OIG found that the mission had not developed a formal written plan with clear
     criteria linking the implementation of program activities with long-term activities planned for
     FATA and Khyber Pakhtunkhwa. As a result, OTI officials agree that, if funding stops, the
     program will collapse.

     A management decision has been made on the one recommendation in this report.

As of March 31, 2012, USAID OIG had three performance audits and one review in progress.




20                                                 USAID OIG Afghanistan and Pakistan Oversight Report
   Audit of USAID/Pakistan’s Entrepreneurs Program. The objective of this audit is to
   determine whether USAID/Pakistan’s Entrepreneur Project made progress building the
   capacity of partners and expanding opportunities for owners of microenterprises.

   Audit of USAID/Pakistan’s Benazir Income Support Program. This audit will determine
   whether USAID/Pakistan’s cash transfers provided to the Benazir Income Support Program
   reached intended beneficiaries.

   Audit of USAID/Pakistan’s Reconstruction Activities in Earthquake Affected Areas. The
   objective of this audit is to determine whether USAID/Pakistan’s reconstruction activities in
   earthquake-affected areas have been implemented effectively.

   Review of USAID/Pakistan’s Cost Estimates for Shipping and Storage. The objective of this
   review is to develop a more reasonable way to estimate how much funding to obligate for the
   shipping and storage of goods for employees assigned to USAID/Pakistan.

OIG has plans to conduct four other performance audits during FY 2012. These performance
audits will assess USAID/Pakistan’s Jamshoro Thermal Power Station Repair and Maintenance
Activity, Gomal Zam Multipurpose Dam Project, Assessment and Strengthening Program for local
organizations and Government of Pakistan entities, and Monitoring and Evaluation Program.

Financial Audits
In addition to organization-wide audits of U.S.-based firms operating in Pakistan, OIG has overseen
54 financial audits of Pakistan-based programs and activities since FY 2003. These financial audits
have covered more than $829 million in funds and identified approximately $6.7 million in
questioned costs. Of this total, USAID has sustained more than $3.1 million in questioned costs to
date.

OIG has developed relationships with local institutions, such as the Auditor General of Pakistan, to
help strengthen the accountability environment. OIG’s memorandum of understanding with the
Auditor General permits that organization’s audits to be accepted as meeting the requirement for
annual audits of Pakistani Government entities implementing USAID-funded programs. Before
accepting Auditor General audits as meeting this requirement, however, OIG reviews them to
verify that they were performed in accordance with OIG guidelines. OIG recently provided a
financial audit training session with a segment on fraud awareness to the Auditor General’s staff.

OIG also uses local accounting firms to conduct financial audits in Pakistan. Before using any local
firms for this type of work, OIG assesses their capability to perform the work. As of March 31,
2012, USAID OIG had a roster of 27 eligible audit firms in Pakistan to call on. OIG has nearly
doubled the size of this roster since the start of FY 2010.



USAID OIG Afghanistan and Pakistan Oversight Report                                              21
From January 1 to March 31, 2012, USAID OIG issued six financial audits and one quality control
review:

     Financial Audit of the Aga Khan University Flood Response Program, USAID/Pakistan
     Cooperative Agreement No. 391-G-00-10-01188-00, Managed by Aga Khan University,
     for the Period August 30 to December 31, 2010 (Report No. G-391-12-003-R). This audit
     covered Aga Khan University program revenues and costs of $723,764 and $1,057,045,
     respectively. The audit firm concluded that the fund accountability statement presented fairly,
     in all material respects, program revenues and costs incurred under the agreement for the
     period audited. The audit firm did not identify any questioned costs, material internal control
     weaknesses, or material instances of noncompliance. However, the audit report identified two
     significant deficiencies in internal control over fixed assets and inventory and recommended
     that USAID/Pakistan ensure that the Aga Khan University corrects these significant
     deficiencies.

     Financial Audit of the Anti-Corruption Program in Pakistan, USAID/Pakistan
     Cooperative Agreement No. 391-A-00-09-01117-00, and Anti-Fraud Hotline Project in
     Pakistan, USAID/Pakistan Cooperative Agreement No. 391-A-00-10-01194-00, Managed
     by Transparency International-Pakistan, for the Year Ended June 30, 2011 (Report No.
     G-391-12-004-R). This audit covered Transparency International-Pakistan’s program
     revenues and costs of $450,829 and $387,825, respectively. The audit concluded that the fund
     accountability statement presented fairly, in all material respects, program revenues and costs
     incurred under the agreement for the period audited. The audit did not identify any
     questioned costs, material internal control weaknesses, or material instances of
     noncompliance, and the report did not make any recommendations.

     Financial Audit of the Merit- and Need-Based Scholarship Project, USAID/Pakistan
     Agreement No. 391-G-00-04-01023-00, Managed by the Higher Education Commission,
     for the Period July 2, 2004, to June 30, 2010 (Report No. G-391-12-005-R). This audit
     covered project revenues and costs of $6,089,134 and $6,055,675, respectively. The Auditor
     General concluded that all six fund accountability statements audited presented fairly, in all
     material respects, program revenues and costs incurred under the agreement for the period
     audited. The Auditor General did not identify any material internal control weaknesses or
     material instances of noncompliance in its audit report. However, in a separate management
     letter issued to the Higher Education Commission, the Auditor General questioned costs of
     $1,665,174. These questioned costs stemmed from a number of observations in the audit
     report involving noncompliance with the agreement and policies and procedures. The report
     made five recommendations to address these issues.

     Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement
     No. 391-012, Implementation Letter No. 1, Managed by the Economic Affairs Division of



22                                              USAID OIG Afghanistan and Pakistan Oversight Report
   the Government of Pakistan, for the Period June 8, 2009, to June 15, 2011 (Report No. G-
   391-12-006-R). This audit covered budgetary support of $44 million to the Government of
   Pakistan. The Auditor General concluded that the fund accountability statement presented
   fairly, in all material respects, program revenues and costs incurred under the agreement for
   the period audited. The Auditor General did not identify any questioned costs, material
   internal control weaknesses, or material instances of noncompliance in its audit report.
   However, in a separate management letter issued to the management of the Economic Affairs
   Division, the Auditor General highlighted a number of report observations including those
   related to issues with eligibility criteria for program beneficiaries, unclaimed funds for
   beneficiaries, and quarterly reporting to USAID. The Auditor General did not make any related
   recommendations because the program had ended.

   Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant
   Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness Support Fund,
   for the Period July 1, 2010, to June 30, 2011 (Report No. G-391-12-007-R). This audit
   covered Competitiveness Support Fund program revenues and costs of $2,318,674 and
   $2,197,622, respectively. USAID OIG reviewed the report and found that it generally met the
   requirements of U.S. Government Auditing Standards and OIG guidelines. The audit firm
   concluded that the fund accountability statement presented fairly, in all material respects,
   program revenues and costs incurred under the cooperative agreement for the period audited.
   The audit firm did not identify any questioned costs or material internal control weaknesses.
   However, the audit identified two material instances of noncompliance and made one
   recommendation to USAID/Pakistan to correct them.

   Financial Audit of USAID/Pakistan’s Rupee Trust Fund, for the Period October 1, 2009, to
   September 30, 2011 (Report No. G-391-12-001-N). This audit covered USAID/Pakistan’s
   rupee trust fund receipts of $167,886 and costs of $859,543. USAID OIG reviewed the report
   and found that the audit was performed in accordance with U.S. Government Auditing
   Standards and OIG guidelines. The audit firm concluded that the fund accountability statement
   presented fairly, in all material respects, funds received and costs incurred under the
   agreement.     The audit firm did not identify any questioned costs or make any
   recommendations.

   Quality Control Review of the Financial Audit Conducted by the Directorate General for
   Audit, Federal Government, Department of the Auditor General of Pakistan, of the Merit-
   and Need-Based Scholarship Project, USAID/Pakistan Agreement No. 391-G-00-04-
   01023-00, Managed by the Higher Education Commission, for the Period July 2, 2004, to
   June 30, 2010 (Report No. G-391-12-001-Q). OIG reviewed the audit to determine whether
   Pakistan’s Office of the Auditor General performed the subject audit in accordance with the
   auditing standards promulgated by the International Organization of Supreme Audit
   Institutions and USAID’s Guidelines for Financial Audits Contracted by Foreign Recipients. OIG



USAID OIG Afghanistan and Pakistan Oversight Report                                           23
     auditors found that the audit work generally met international standards and USAID
     requirements. However, the review noted that the Office of the Auditor General could have
     improved documentation, analytical procedures, and risk assessments.

As of March 31, 2012, USAID OIG had seven financial audits, one agreed-upon procedures
engagement, and one quality control review in progress:

     Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
     Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement, Activity
     No. 391-012-IL-03 for University and Technical Education in FATA Through the Pakistan
     Higher Education Commission, for the Period September 30, 2009, to June 30, 2010.

     Financial Audit of USAID Funds Managed by the Water and Power Development
     Authority Under Agreement No. 391-TDR-FARA-002-00 for the Year Ended June 30,
     2011.

     Financial Audit of USAID Funds Managed by the Water and Power Development
     Authority Under Agreement No. 391-PEPA-ENR-GOMAL-PIL-001 for the Year Ended
     June 30, 2011.

     Financial Audit of USAID Funds Managed by the Water and Power Development
     Authority Under Agreement No. 391-PEPA-ENR-SATPARA-PIL-001 for the Year Ended
     June 30, 2011.

     Financial Audit of USAID Funds Managed by Jamshoro Power Company Limited Under
     Agreement No. 391-JAM-FARA-003-00 for the Year Ended June 30, 2011.

     Financial Audit of USAID Funds Managed by Northern Power Generation Company
     Limited Under Agreement No. 391-MUZ-FARA-004-00 for the Year Ended June 30, 2011.

     Financial Audit of the Assessment and Strengthening Program, USAID/Pakistan
     Cooperative Agreement No. 391-A-00-11-01202-00, and Financial Audit of Merit- and
     Needs-Based Scholarship Program, Subaward Under USAID/Pakistan Cooperative
     Agreement No. 391-G-00-04-01023-00, Managed by Lahore University of Management
     Sciences, for the Year Ended June 30, 2011.

     Agreed-Upon Procedures Engagement on USAID/Pakistan Resources Managed by the Rural
     Support Programmes Network Under Agreement No. 391-A-00-11-01213-00, for the Sindh
     Agricultural Recovery Project, for the Period November 13, 2010, to July 31, 2011.




24                                            USAID OIG Afghanistan and Pakistan Oversight Report
   Quality Control Review of the Audit Report and Audit Documentation for the Financial
   Audit Conducted by Avais Hyder Liaqut Nauman for the Anti-Corruption Pakistan
   Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-09-01117-00, and Anti-
   Fraud Hotline Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-10-
   01194-00, Managed by Transparency International-Pakistan, for the Year Ended
   June 30, 2011.

Ten other financial audits of USAID funds in Pakistan were in the planning stage on March 31,
2012.

Investigations
As of March 31, 2012, USAID OIG had 26 ongoing
investigations pertaining to Pakistan. During the          Investigative Outcomes
reporting period, OIG investigators opened seven cases     Since FY 2003, OIG investigations in
in Pakistan and closed six others. Since FY 2003, OIG      Pakistan have resulted in:
has initiated 84 investigations related to Pakistan.           4 referrals for civil or criminal prose-
These investigations have been associated with a range         cution
of different types of allegations. In most cases, under-
                                                               1 civil judgment
lying allegations have pertained to program fraud
(32 percent) or bribery and kickbacks (31 percent).            33 administrative actions (e.g., con-
                                                               tract and employee terminations)
During the January 1 through March 31, 2012,                   $102 million in savings and recover-
reporting period, an OIG investigation resulted in the         ies
recovery of funds from a USAID implementing partner,
as detailed below:

Funds Collected From Implementer for Fraud and Theft in FATA Program. In April 2008,
USAID’s primary implementer for the FATA Livelihood Development Program entered into a
subcontract with Abt Associates Inc. to undertake a $6 million cash-for-work tree-planting
program in FATA with the aim of creating job opportunities for youth and unemployed individuals
in the area. Abt Associates, in turn, sought competitive bids from vendors to supply tree saplings.

As a result of allegations made to USAID OIG, the primary implementer, CHF International,
conducted an audit of the program and determined that, of the 2.2 million trees contracted to be
planted, only 1.2 million trees were documented as having been purchased. In addition, three of
the five vendors that Abt Associates had selected to procure saplings were owned and controlled
by the same family. OIG’s investigation confirmed that USAID funds were lost as a result of theft,
overpayment, fraud, and mismanagement by Abt Associates. In response to the investigative
findings, USAID collected $336,603 in reimbursements from CHF International in March 2012.




USAID OIG Afghanistan and Pakistan Oversight Report                                                       25
Outreach and Coordination
USAID OIG collaborates with the OIGs for the Departments of State and Defense to prepare a
quarterly report on the progress and oversight of the U.S. Government’s civilian assistance
program in Pakistan. Now in its ninth edition, this report provides information on developments
related to the full scope of U.S. civilian assistance programs and activities in Pakistan. The report
informs stakeholders about progress achieved to date, problems encountered during program
implementation, and actions taken to address them.

With the aim of increasing reporting on fraud, waste, and abuse in assistance programs, OIG and
USAID/Pakistan collaborated to establish an anti-fraud hotline in Pakistan. The Anti-Fraud Hotline
became fully operational in February 2011. This 5-year project is funded by a cooperative
agreement between USAID/Pakistan and Transparency International –Pakistan in partnership with
OIG.

OIG is solely responsible for handling complaints received through the hotline. During the
reporting period, USAID OIG continued to work closely with the hotline to vet and investigate
incoming complaints. This quarter, the hotline received 605 complaints.

As shown in the following graphic, the majority of complaints received during the reporting period
related to service delivery.




       Source: Transparency International-Pakistan.


Since its introduction in February 2011, the Anti-Fraud Hotline has been widely advertised on
television, radio, newspaper, and billboards. As the only one of its kind in Pakistan, the hotline has


26                                                    USAID OIG Afghanistan and Pakistan Oversight Report
received a large volume of complaints related to programs implemented by other agencies. USAID
OIG refers these complaints to the appropriate agency for further review and investigation. From
January 1 to March 31, 2012, OIG referred 314 hotline complaints to outside entities, including the
U.N. World Food Programme, UNICEF, the U.N. Development Programme, the U.N. Office for Project
Services, the U.N. Food and Agriculture Organization, the World Bank, the United Kingdom’s
Department for International Development, Pakistan’s Benazir Income Support Program (BISP),
Save the Children, Mercy Corps, and the Awaz Foundation (a Pakistani NGO).

OIG also works closely with hotline personnel to monitor and address complaints regarding viola-
tions of the Pakistan Public Procurement Rules (PPR) of 2004 in the tendering of USAID-funded
projects being carried out by the Government of Pakistan. Allegations of PPR violations received
through the hotline are handled in accordance with the procedures set forth in the PPR, which
require the tendering government agency to review and
respond to the complaint within a set period. When a       Accessing the Hotline
violation of the PPR has occurred, the tendering agency    The Anti-Fraud Hotline operates 24
is required to cancel or correct the procurement. If the   hours a day and accepts allegations in
                                                           English, Urdu, Pashto, Baloch, and
issue is not properly resolved by the tendering agency,    Punjabi.
the Pakistan Public Procurement Regulatory Agency
and the Supreme Court of Pakistan can intervene.           Complaints may be made to the hotline
                                                               via a toll-free number (0800-84700),
In February 2012, the hotline received a complaint from        online (www.anti-fraudhotline.com), by
a Pakistani firm relating to BISP, the Government of           mail or fax, or in person.
Pakistan’s program designed to set up an effective na-
tional safety net and foster the long-term development of the poor. According to the complaint,
actions by BISP staff on bids for a data-processing contract violated the PPR. The bid from one
bidder on the contract arrived shortly after the deadline for submissions, but the other bidder
consented to including the late bid in the evaluation process. BISP personnel consulted with the
Pakistan Public Procurement Regulatory Agency on what action to take in the procurement and
were advised to evaluate both bids or call for new ones. Despite this, BISP officials initially elected
to evaluate only the first bid. After hotline personnel advised BISP officials of their responsibilities
under the PPR, they reconsidered and reinvited the tendering of bids for the data-processing
contract.

OIG has established a working relationship with Pakistan’s National Accountability Bureau (NAB),
the primary law enforcement agency in Pakistan responsible for investigating white-collar crime
and public corruption and the only national law enforcement agency authorized to conduct
investigations in FATA. OIG has coordinated efforts with NAB since early 2010 and collaborates
with it on investigations.

OIG investigators also conduct fraud awareness briefings to alert participants—employees,
contractors, grantees, and subrecipients—to fraudulent practices and schemes and to provide



USAID OIG Afghanistan and Pakistan Oversight Report                                                  27
guidance on how to report fraud. OIG has provided 39 fraud awareness briefings in Pakistan to
1,055 participants since FY 2003. During the reporting period, special agents in Pakistan delivered
seven fraud awareness briefings attended by 275 participants, including representatives of USAID
implementing partners and NAB.

In late February 2012, USAID’s Acting Inspector General and the special agent in charge for the
region participated in a fraud awareness and prevention seminar in Karachi sponsored by
Transparency International–Pakistan. More than 80 people attended the seminar, including
representatives of USAID implementing partners, Government of Pakistan personnel implementing
USAID-funded projects, and staff and cooperating partners of the U.N. World Food
Programme. The seminar featured presentations by USAID OIG, the Sindh Public Procurement
Regulatory Authority, and the staff of the Anti-Fraud Hotline. USAID OIG’s presentation focused on
recent fraud trends and reporting requirements. Other presenters at the event provided an
overview of hotline work to date and discussed Pakistani public procurement rules that apply to
USAID-funded projects implemented by provincial government agencies.

OIG also provides training on standards and requirements for financial audits of U.S. Government
funds. To date, OIG has provided this training to 60 staff members at USAID/Pakistan and 26
employees from ten Pakistani provincial government ministries. In FY 2012, USAID OIG also
provided this training to 13 employees of Pakistan’s Office of the Auditor General and 55
participants from 24 local public accounting firms.




28                                             USAID OIG Afghanistan and Pakistan Oversight Report
Appendix 1 – Suspension and Debarment Exclusions
Resulting From OIG Investigations
OIG works with USAID’s OAA to prevent individuals and organizations that are not presently
responsible from receiving federal awards. OIG gives information to OAA to assist with Agency
determinations on whether to suspend or debar individuals and organizations, thereby preventing
them from receiving federal contracts, grants, cooperative agreements, and other awards.

OIG investigations in Afghanistan and Pakistan have been an important source of information for
USAID in making suspension and debarment decisions.              The following individuals and
organizations were ineligible for federal awards as of March 31, 2012, pursuant to Afghanistan-
and Pakistan-related information that was developed by our office.


                   Excluded Entity                    Action         End
                                                       Date          Date

Suspensions

   Cameron, Ian                                       02/24/12     02/24/13
   Peel, Ian                                          03/12/12     03/12/13
   Wolff, Derish                                      12/22/11     Indefinite

Debarments

   Ahsan Aman Construction Company (AACC)             08/01/11     05/24/14
   Burrows, Bryan Lee                                 06/02/11     05/27/13
   Masud, Atif                                        08/27/10     08/27/13
   McMonigle, Ryan Scott                              05/07/10     05/07/13
   Mehr, Behzad                                       12/13/11     09/27/14
   Mohammad, Raz (Roz)                                08/01/11     05/24/14
   Pellettieri, Precy                                 07/15/11     01/11/14
   Pepe, Salvatore                                    07/15/11     01/11/14
   Samimi, Mohammed Qaseem                            02/09/12     11/15/12
   Sediqi, Ahman Samim                                07/12/11     01/11/14
   SERVCOR, LLC                                       07/07/11     12/15/13




USAID OIG Afghanistan and Pakistan Oversight Report                                         29
Appendix 2 – Recommendations Pending Management
Decisions
USAID OIG establishes the basis for audit findings and recommendations to persuade Agency
officials that recommended corrective actions are warranted. Agency officials communicate their
agreement or disagreement with OIG recommendations upon review of draft OIG reports. When
Agency officials agree with an OIG recommendation and present a plan of action with milestones
that would fully address the recommendation, OIG determines that a management decision has
been reached.

The following OIG recommendations were pending management decisions as of March 31, 2012.
USAID management decisions were pending on 11 recommendations related to Agency programs
in Afghanistan and on 2 relating to Pakistan. The following table lists these recommendations by
country and by the USAID office to which the recommendation was directed.


 Report
                         Report Title*                                     Recommendation
  Date

Afghanistan

     USAID/Afghanistan

10/03/11    Financial Audit of the Partnership            1. Determine the allowability of and recover, as
            Contracts for Health Services Program            appropriate, questioned costs of $1,328,310.
            Managed by the Ministry of Public Health,
            for the Period July 20, 2008, Through
            September 22, 2010 (F-306-12-001-N)

12/20/11    Independent Audit of Black & Veatch           1.   Determine the allowability of and recover, as
            Special Projects Corporation Direct Costs          appropriate, unsupported questioned costs of
            Incurred and Billed on Contract No. 306-I-         $32,198,382.
            00-06-00517-00 From August 25, 2006, to
            September 30, 2008 (F-306-12-001-D)
12/26/11    Review of Responses to Internal Audit         1.   Determine the allowability of $748,683 in questioned
            Findings on the Local Governance and               costs related to vehicles leased without proper
            Community Development Project                      approvals and without full and open competition and
            (F-306-12-001-S)                                   recover from Development Alternatives Inc. (DAI)
                                                               any amounts determined to be unallowable.
                                                          2.   Determine the allowability of $325,500 in questioned
                                                               costs associated with lease payments for the Local
                                                               Governance and Community Development Project
                                                               office space and guesthouses disclosed in the DAI
                                                               internal audit report, and recover from DAI any
                                                               amounts determined to be unallowable.



30                                                      USAID OIG Afghanistan and Pakistan Oversight Report
 Report
                          Report Title*                                     Recommendation
  Date

                                                         3.   Determine the allowability of $2,019,036 in
                                                              questioned costs related to services procured
                                                              without full and open competition and recover from
                                                              DAI any amounts determined to be unallowable.
                                                         4.   Determine the allowability of and recover from DAI,
                                                              as appropriate, $3,424,400 in inadequately supported
                                                              fuel purchases for the Local Governance and
                                                              Community Development Project.
                                                         5.   Determine whether DAI billed USAID for $48,530 in
                                                              unliquidated and uncollectible project advances and, if
                                                              so, determine the allowability of these costs and
                                                              recover from DAI any amounts determined to be
                                                              unallowable.
02/15/12     Financial Audit of Local (non-U.S.) Costs   1.   Determine the allowability of and recover, as
             (Costs Incurred and Paid in Afghanistan)         appropriate, questioned costs of $2,196,583
             Under USAID Contract No. 306-I-00-06-            ($114,669 ineligible and $2,081,914 unsupported)
             00517-00 With the Joint Venture Louis            identified in the fund accountability statement.
             Berger Group Inc./Black & Veatch Corp.
                                                         2.   Ensure that the Joint Venture Louis Berger Group
             for the Period October 1, 2009, to
                                                              Inc./Black & Veatch Special Projects Corp. (LBGI/B&V)
             September 30, 2010 (F-306-12-004-N)
                                                              corrects the 20 material weaknesses and 8 significant
                                                              deficiencies identified in the report.
                                                         3.   Ensure that LBGI/B&V corrects the four material
                                                              instances of noncompliance identified in the report.


    Office of Transition Initiatives

10/13/11     Audit of USAID/Afghanistan’s Afghanistan    14. Determine the allowability of $6.5 million in security
             Stabilization Initiative for the Southern       costs and recover costs determined to be
             Region (F-306-12-001-P)                         unallowable.

Pakistan

    USAID/Pakistan

11/03/11     Audit of USAID/Pakistan’s Firms Project     5.   Determine the allowability of $1,359,337 in
             (G-391-12-001-P)                                 unsupported questioned costs and recover those
                                                              costs determined to be unallowable.




USAID OIG Afghanistan and Pakistan Oversight Report                                                              31
    Report
                            Report Title*                                     Recommendation
     Date

03/06/12       Financial Audit of the Pakistan              1.   Instruct the Competitiveness Support Fund to
               Competitiveness Support Fund,                     correct two material instances of noncompliance
               USAID/Pakistan Grant Agreement                    related to revenue generation and procurement
               No. 391-G-00-06-01073-00, Managed by              without competition identified in the audit report.
               the Competitiveness Support Fund, for the
               Period July 1, 2010, to June 30, 2011
               (G-391-12-007-R)


*
     Hyperlinks are provided to the OIG performance audits and reviews referenced in this table and the tables in the
     following two appendices. Hyperlinks are not provided to financial audits in these tables, however, because
     financial information in these reports may be privileged.




32                                                      USAID OIG Afghanistan and Pakistan Oversight Report
Appendix 3 – Recommendations Pending
Final Action for 6 Months
After we have agreed to the course of action USAID managers have proposed to address an OIG
recommendation, we track the implementation of the actions. When the Agency confirms these
corrective actions, we consider that USAID has taken final action on the recommendation and that
it is closed. In some cases, we conduct follow-up audits and reviews to verify that corrective
actions were taken and that they have had the intended effect of improving Agency programs and
operations.

Final action had been pending for 6 months or longer on the following recommendations as of
March 31, 2012. In particular, final action had been pending for 6 months or more on 28 recom-
mendations related to USAID programs in Afghanistan and on 4 relating to Pakistan. Target action
dates that passed without final action are indicated in red below.


Date                  Report                                      Recommendation                               Target
                                                                                                            Action Date

Afghanistan

    USAID/Afghanistan

12/20/10   Financial Audit of Fiduciary Support to 2.    Ensure that the American University of                03/21/12
           the American University of Afghanistan        Afghanistan corrects the three significant internal
           Subgrant Under the Asia Foundation            control deficiencies identified in the report.
           for the Period July 1, 2008, to June 30,
                                                    3.   Obtain evidence that the American University of       03/21/12
           2009 (F-306-11-002-R)
                                                         Afghanistan has made additional cost sharing
                                                         contributions of $688,901 as required by the
                                                         cooperative agreement.

03/27/11   Audit of USAID/Afghanistan’s             3.   Review the eligibility of the cost of the prayer      03/31/12
           Construction of Health and Education          buildings and prayer rooms included in the
           Facilities Program (F-306-11-002-P)           provincial teacher training centers and recover
                                                         any costs found to be unallowable.

                                                    9.   After preparing an analysis of the Government         02/16/12
                                                         of Afghanistan’s ability to fund maintenance for
                                                         the structures turned over under the program,
                                                         (1) determine the need for a separate operation
                                                         and maintenance program and (2) revise as
                                                         appropriate the 611(e) certification previously
                                                         prepared for the Construction of Health and
                                                         Education Facilities Program.




USAID OIG Afghanistan and Pakistan Oversight Report                                                                 33
Date                  Report                                       Recommendation                               Target
                                                                                                              Action Date

06/09/11   Review of USAID/Afghanistan’s Portion 1.       Implement a nominal charge for no-show                 04/30/12
           of the Embassy Air Program                     passengers.
           (F-306-11-004-S)
                                                 2.       Clarify the contract’s environmental                   04/30/12
                                                          requirements and obtain evidence that the
                                                          contractor is complying with them.

06/19/11   Audit of USAID/Afghanistan’s Support      5.   Prepare an implementation plan for use of the          04/30/12
           to the Electoral Process (STEP) and            $1.4 million in supplemental funding for rural
           Support for Increased Electoral                radios consistent with the goals of the program,
           Participation in Afghanistan (IEP)             or reprogram these funds for other mission
           Programs (F-306-11-003-P)                      programs.

                                                     7.   Determine the allowability of the $6,350,319           01/31/12
                                                          incurred by the International Republican
                                                          Institute for security expenses, and recover any
                                                          costs determined to be unreasonable.

07/21/11   Financial Audit of the Civilian Technical 1.   Determine the allowability of and recover, as          05/05/12
           Assistance Program,                            appropriate, ineligible questioned costs of
           USAID/Afghanistan Grant Agreement              $2,045.
           No. 306-09-CTAP-0001, Managed by
           the Ministry of Finance, for the Period
           September 30, 2009, to September 30,
           2010 (F-306-11-001-N)

08/23/11   Audit of Technologist Inc. Costs          1.   Determine the allowability of and recover, as         04/10/12
           Incurred/Billed Under USAID Task               appropriate, questioned costs of $6,563,050
           Order No. 306-O-00-04-00539-00,                detailed in the report.
           for the Afghanistan Industrial Estate
           Development Program for the Period
           May 24, 2004, Through December 31,
           2007 (F-306-11-001-D)

08/31/11   Review of USAID/Afghanistan’s             2.   Determine the allowability of and recover as          05/31/12
           Afghan Civilian Assistance Program             appropriate from the International Organization
           (F-306-11-005-S)                               for Migration the cost of stored food that is no
                                                          longer fit for human consumption, which we
                                                          estimate at up to $2,660,924.

                                                     4.   Determine the allowability of and recover, as         05/31/12
                                                          appropriate, the $1,360,800 in shelter assistance
                                                          grants in Helmand Province that could not be
                                                          verified.




34                                                        USAID OIG Afghanistan and Pakistan Oversight Report
Date                  Report                                       Recommendation                                Target
                                                                                                               Action Date

                                                     5.   Arrange for a financial audit of the Afghan             05/31/12
                                                          Civilian Assistance Program to help ensure that
                                                          the costs charged to USAID are reasonable,
                                                          allowable, and allocable.

                                                     6.   Determine the allowability of and recover, as           05/31/12
                                                          appropriate, $180,000 that was reportedly
                                                          embezzled from the program.

                                                     7.   Determine the allowability of and recover, as           05/31/12
                                                          appropriate, the $3,437,000 that the
                                                          International Organization for Migration spent
                                                          to buy used vehicles without USAID approval.

09/29/11   Audit of USAID/Afghanistan’s On-          1.   In collaboration with the Ministry of Public            05/31/12
           Budget Funding Assistance to the               Health, develop and implement a plan that
           Ministry of Public Health in Support of        (1) improves the nongovernmental organization
           the Partnership Contracts for Health           contractors’ supervision, monitoring, and
           Services Program (F-306-11-004-P)              problem solving at their health facilities and
                                                          (2) verifies the successful implementation of a
                                                          reliable quality assurance mechanism by the
                                                          nongovernmental organization contractors,
                                                          including the establishment of quality assurance
                                                          committees at each of the health facilities.

                                                     2.   Assist the Ministry of Public Health in                 05/31/12
                                                          establishing and implementing a plan to ensure
                                                          that nongovernmental organization contractors
                                                          are verifying that the requirement of second-
                                                          person verification is being effectively
                                                          implemented at health facilities.

                                                     3.   In collaboration with the Ministry of Public            05/31/12
                                                          Health, develop a plan to (1) identify a pool of
                                                          qualified civil service employees who would
                                                          benefit from capacity-building training to sustain
                                                          the ministry’s capacity for managing the
                                                          Partnership Contracts for Health Services
                                                          Program and (2) provide the training.

                                                     4.   Work with the Ministry of Public Health and the         05/31/12
                                                          Ministry of Finance to streamline the payment
                                                          process to accelerate payments to
                                                          nongovernmental organization contractors and
                                                          health workers.




USAID OIG Afghanistan and Pakistan Oversight Report                                                                    35
Date   Report                 Recommendation                               Target
                                                                         Action Date

                5.   Work with the Ministry of Public Health and the        05/31/12
                     Ministry of Finance to (1) implement written
                     policies and procedures that clearly define the
                     roles, responsibilities, and approval authorities
                     for the payment process and (2) provide further
                     training on the advance/liquidation mode of
                     payment process.

                6.   Work with the Ministry of Public Health and the        05/31/12
                     Ministry of Finance to implement procedures
                     limiting the frequency of changes made to the
                     payment process and providing sufficient
                     notification and clear instructions to
                     nongovernmental organization contractors on
                     any changes.

                7.   Review internal administrative procedures, such        05/31/12
                     as the processing of implementation letters, to
                     ensure the smooth and timely flow of the
                     payment process for on-budget assistance
                     agreements.

                8.   Issue a mission order to provide an                    05/31/12
                     organizational framework with clearly defined
                     roles and responsibilities of all mission offices
                     responsible for managing on-budget assistance
                     activities.

                9.   Provide a formal designation letter similar to an      05/31/12
                     officer's technical representative designation
                     letter to staff members monitoring
                     implementation of on-budget assistance
                     agreements.

                10. Work with the Ministry of Public Health to              05/31/12
                    prepare a performance management plan for
                    the Partnership Contracts for Health Services
                    Program.

                11. Provide the Ministry of Public Health with              05/31/12
                    clearly written definitions of Afghan Info
                    performance indicators.

                12. Implement procedures to review and verify the           05/31/12
                    accuracy of data entered into Afghan Info and
                    provide timely feedback to users.




36                   USAID OIG Afghanistan and Pakistan Oversight Report
    Date               Report                                     Recommendation                              Target
                                                                                                            Action Date

                                                   13. In collaboration with the Ministry of Public            05/31/12
                                                       Health, implement a plan to confirm and
                                                       document accurate GPS coordinates for the
                                                       ministry's health facilities.

Pakistan

      USAID/Pakistan

12/10/10   Audit of USAID/Pakistan’s Livelihood    5.    Make a management decision regarding the              04/18/12
           Development Program in the Lower              allowability of $767,841 in questioned costs
           Region of the Federally Administered          identified in the financial review and recover
           Tribal Areas (G-391-11-001-P)                 those costs determined to be unallowable.

06/20/11   Audit of USAID/Pakistan’s Road          5.    Provide implementers with copies of USAID's           05/31/12
           Rehabilitation and Reconstruction             policies on ethics and conflicts of interest and
           Activities Under the Quick Impact             with written explanations and examples of
           Projects in South Waziristan                  potential conflicts.
           (G-391-11-005-P)
                                                  8.    Develop and implement a plan to monitor and            05/31/12
                                                        document the status of branding and marking plans
                                                        of contractors working on the Quick Impact
                                                        Projects in South Waziristan, and provide training
                                                        as necessary for compliance with Automated
                                                        Directives System 320.1

                                                  9.    Provide additional details to the Federally            05/31/12
                                                        Administrated Tribal Areas Secretariat concerning
                                                        publicizing and marking USAID’s contribution to
                                                        the Quick Impact Projects in South Waziristan as
                                                        specified in the implementation letter dated
                                                        December 31, 2009.




1
 The Automated Directives System is USAID’s system for managing internal policies, procedures, and guidance.
Chapter 320 of the Automated Directives System pertains to branding and marking.




USAID OIG Afghanistan and Pakistan Oversight Report                                                                 37
 Appendix 4 – Audited Amounts, Questioned Costs, and
 Funds Recommended to Be Put to Better Use
 Financial audits examine designated funds over a given period of time. The dollar value of the
 funds audited, regardless of whether they are defined in terms of costs, expenditures, or revenues,
 is the “amount audited.”2 As shown in the following table, OIG has presided over financial audits of
 more than $1.9 billion in USAID funds since FY 2003.

 Financial audits, like performance audits and reviews, sometimes identify questioned costs and
 recommend that funds to be put to better use. Questioned costs are costs determined not to be
 allowable, allocable, or reasonable, or costs that auditors cannot determine to be allowable,
 allocable, or reasonable because documentation or other evidence to support these determinations
 is not available for their review. USAID contracting or agreement officers make final
 determinations on identified questioned costs and seek reimbursement for any “sustained”
 questioned costs. Funds recommended to be put to better use are funds that could be used more
 efficiently if managers take action to implement OIG recommendations. When Agency managers
 agree to implement OIG recommendations to put funds to better use, the Agency is regarded as
 having “concurred” that the funds could be put to better use.

 The following table provides information on dollars audited during the course of financial audits.
 It also lists all financial audits, performance audits, and reviews that identified questioned costs or
 funds recommended to be put to better use since FY 2003. This information is presented alongside
 Agency determinations regarding these funds (i.e., determinations to sustain questioned costs or
 agree that funds could be put to better use. The corresponding audit reports are listed by country
 and presented in reverse chronological order.


      Date                                     Report Title and Number

                   Amount             Questioned           Amount         Funds to Be Put        Amount
                  Audited ($)           Costs             Sustained        to Better Use        Concurred

 Afghanistan

               Financial Audit of Costs Incurred in Afghanistan Under USAID Contract No. 306-DOT-I-01-08-
03/15/12       00033-00 With Chemonics International Inc. for the Period October 1, 2009, to September 30,
               2010 (F-306-12-005-N)

                      13,839,901                 –                    –                –                     –



 2Because performance audits and reviews do not apply the same procedures as financial audits, we do not
 compute an “amount audited” for that work.



 38                                                   USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                        Report Title and Number

                 Amount               Questioned           Amount           Funds to Be Put         Amount
                Audited ($)             Costs             Sustained          to Better Use         Concurred

             Financial Audit on the Local (Non-U.S.) Costs (Costs Incurred and Paid in Afghanistan) Under
02/15/12     USAID Contract No. 306-I-00-06-00517-00 With the Joint Venture Louis Berger Group Inc./Black
             & Veatch Corp., for the Period October 1, 2009, to September 30, 2010 (F-306-12-004-N)

                   10,779,108             2,196,583                  –                   –                –

             Review of Responses to Internal Audit Findings on the Local Governance and Community
12/26/11
             Development Project (F-306-12-001-S)

                          N/A             6,570,931                  –                   –                –

             Independent Financial Audit of Black & Veatch Special Projects Corporation Direct Costs Incurred
12/20/11     and Billed on Contract No. 306-I-00-06-00517-00, From August 25, 2006, to September 30, 2008
             (F-306-12-001-D)

                   136,000,000          32,198,382                  –                     –               –

             Financial Audit on the Local (non-U.S.) Costs (Costs Incurred and Paid in Afghanistan) Under
12/19/11     USAID Contract No. 306-I-00-06-00517-00 With the Joint Venture Louis Berger Group Inc./Black
             & Veatch Corp. for the Period October 1, 2009, to September 30, 2010 (F-306-12-004-N)

                    10,779,108            2,196,583                 –                     –               –

             Audit of USAID/Afghanistan's Afghanistan Stabilization Initiative for the Southern Region
11/13/11
             (F-306-12-001-P)

                          N/A             6,512,200                 –                    –                –

             Financial Audit of the Ministry of Finance-Salary Support Program, USAID/Afghanistan Project
10/13/11     Implementation No. 306-IL-10-01, Managed by the Ministry of Finance, for the Period June 6, 2010,
             to September 30, 2010 (F-306-12-003-N)

                      1,000,000            356,469                  –                    –                –

             Local Costs' Financial Audit of the Small and Medium Sized Enterprise Development Activity
10/10/11     Managed by Development Alternatives Inc. Contract No. 306-C-00-07-00503-00, for the Period
             October 1, 2009, to September 30, 2010 (F-306-12-002-N)

                    18,631,159               88,650                 –                    –                –

             Financial Audit of the Partnership Contracts for Health Services Program, USAID/Afghanistan
10/03/11     Grant Agreement No. 306-08-IL-06-00, Managed by the Ministry of Public Health, for the Period
             From Program Inception on July 20, 2008, Through September 22, 2010 (F-306-12-001-N)

                    32,812,937            1,328,310                 –                    –                –




USAID OIG Afghanistan and Pakistan Oversight Report                                                              39
     Date                                    Report Title and Number

                Amount              Questioned           Amount            Funds to Be Put       Amount
               Audited ($)            Costs             Sustained           to Better Use       Concurred

            Financial Audit of the Policy Capacity Initiative Activity Project, USAID/Afghanistan Grant
            Agreement No. 306-IL-09-12-0004.00, Managed by the Ministry of Communication and
09/29/11
            Information Technology, for the Period From Program Inception on April 09, 2009, Through
            September 30, 2010 (F-306-11-003-N)

                      450,138             118,478                 –                   –                   –

08/31/11    Review of USAID/Afghanistan's Afghan Civilian Assistance Program (F-306-11-005-S)

                         N/A            8,379,055           5,142,039                 –                   –

            Financial Audit Report of Technologist Inc. Costs Incurred/Billed Under USAID Task Order No.
08/23/11    306-O-00-04-00539-00, for the Afghanistan Industrial Estate Development Program for the Period
            May 24, 2004, Through December 31, 2007 (F-306-11-001-D)

                   21,463,590           6,563,050            493,444                  –                   –

            Financial Audit of the Civilian Technical Assistance Program, USAID/Afghanistan Grant Agreement
07/21/11    No. 306-09-CTAP-0001, Managed by the Ministry of Finance, for the Period September 30, 2009,
            to September 30, 2010 (F-306-11-001-N)

                    5,500,000               2,045                     77              –                   –

            Financial Audit of the Regenerating Murad Khane, Restoring Refurbishing and Revitalizing the Old
            City Program, USAID/Afghanistan Cooperative Agreement No. 306-A-09-00503-00, Managed by
07/14/11
            the Turquoise Mountain Trust, for the Period From January 1, 2010, to December 31, 2010
            (F-306-11-003-R)
                    2,551,558                  –                  –                   –                   –

            Audit of USAID/Afghanistan's Support to the Electoral Process (STEP) and Support for Increased
06/19/11
            Electoral Participation In Afghanistan (IEP) Programs (F-306-11-003-P)

                         N/A            6,350,319                 –             1,400,000          1,400,000

06/09/11    Review of USAID/Afghanistan's Portion of the Embassy Air Program (F-306-11-004-S)

                         N/A              525,467              31,902           9,440,000          9,440,000

            Audit of USAID/Afghanistan's Construction of Health and Education Facilities Program
03/27/11
            (F-306-11-002-P)

                         N/A              309,011            299,811             762,153             762,153

            Financial Audit of Fiduciary Support to the American University of Afghanistan (AUAf), Subgrant
            Under Asia Foundation Award No. 306-G-00-05-00525-00, and USAID Direct Support to AUAf,
12/20/10
            Cooperative Agreement No. 306-A-00-08-00525-00, for the Period July 1, 2008, to June 30, 2009
            (F-306-11-002-R)

                    9,539,090             685,643            116,273                  –                   –




40                                                   USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                         Report Title and Number

                 Amount               Questioned            Amount          Funds to Be Put          Amount
                Audited ($)             Costs              Sustained         to Better Use          Concurred

             Financial Audit of Local Costs Incurred by the Joint Venture Louis Berger Group Inc./Black &
             Veatch Special Projects Corp., to Implement the Afghanistan Infrastructure Rehabilitation Program,
11/16/10
             USAID/Afghanistan Contract No. 306-I-00-06-00517-00, for the Period October 1, 2008 to
             September 30, 2009 (5-306-11-002-N)

                    10,773,130            2,292,891               76,046                  –                   –

             Financial Audit of the Regenerating Murad Khane, Restoring Refurbishing and Revitalizing the Old
10/26/10     City Program, USAID/Afghanistan Cooperative Agreement No. 306-A-09-00503-00, Managed by the
             Turquoise Mountain Trust, for the Period January 1, 2009 to December 31, 2009 (F-306-11-001-R)

                      2,501,824                    –                 –                    –                   –

             Financial Audit of Cost Incurred and Billed for the Human and Institutional Capacity Building for
             Afghanistan Energy and Natural Resources Sector Project, Task Order No. DOT-I-04-04-00022-00,
09/28/10
             USAID/Afghanistan Cooperative Agreement No. 306-P-00-10-00514-00, Managed by Advanced
             Engineering Associates International, for the Period July 3, 2008, to June 30, 2009 (5-306-10-002-D)

                      3,523,452              12,115               12,115                  –                  –

             Financial Audit of the Afghanistan First Loss Reserve Fund, USAID/Afghanistan Cooperative
             Agreement No. 306-A-00-05-00512-00, Managed by Deutsche Investitions und
03/30/10
             Entwicklungsgesellschaft mbh, for the Period February 4, 2005, to December 31, 2008
             (5-306-10-001-D)

                      1,281,561              56,974               1,952                   –                   –

             Financial Audit of Local Costs Incurred by the Joint Venture Louis Berger Group Inc./Black &
             Veatch Special Projects Corp., to Implement the Afghanistan Infrastructure Rehabilitation Program,
02/25/10
             USAID/Afghanistan Contract No. 306-I-00-06-00517-00, for the Period October 1, 2007, to
             September 30, 2008 (5-306-10-002-N)

                      5,594,190             46,912                 4,200                  –                   –

             Audit of USAID/Afghanistan's Power Sector Activities Under Its Afghanistan Infrastructure
11/10/09
             Rehabilitation Program (5-306-10-002-P)

                          N/A          2,078,426              2,078,426                   –                   –

             Financial Audit of the Regenerating Murad Khane, Restoring, Refurbishing and Revitalizing the Old
             City Program, USAID/Afghanistan Cooperative Agreement No. 306-A-00-09-00503-00, Managed
09/29/09
             by the Turquoise Mountain Trust, for the Period November 2, 2008, to December 31, 2008
             (5-306-09-021-R)

                      421,310               17,781               17,781                   –                   –

             Financial Audit of Costs Incurred and Billed by BearingPoint Inc. USAID/Afghanistan Contract No.
08/19/09
             306-C-00-03-00001-00, for the Period November 1, 2002, to December 15, 2005 (5-306-09-002-D)

                   95,817,000           95,817,000                    –                   –                   –



USAID OIG Afghanistan and Pakistan Oversight Report                                                                 41
     Date                                    Report Title and Number

                Amount              Questioned           Amount          Funds to Be Put         Amount
               Audited ($)            Costs             Sustained         to Better Use         Concurred

            Financial Audit of Local Costs Incurred by the Joint Venture Louis Berger Group Inc./Black &
            Veatch Special Projects Corp. to Implement the Afghanistan Infrastructure Rehabilitation Program,
06/25/09
            USAID/Afghanistan Contract No. 306-I-00-06-00517-00, for the Period August 25, 2006, to
            September 30, 2007 (5-306-09-005-N)

                   2,268,126          267,556              254,526                    –                   –

            Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
06/18/09    the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract No.
            306-C-00-02-00500-00, for the Period January 1, 2007, to May 31, 2008 (5-306-09-001-D)

                  18,579,476         3,142,521             264,651                    –                   –

09/30/08    Audit of USAID/Afghanistan's Capacity Development Program (5-306-08-012-P)

                         N/A                 –                    –          11,100,000                   –

08/08/08    Audit of USAID/Afghanistan's Accelerating Sustainable Agriculture Program (5-306-08-009-P)

                         N/A              210,006            172,433                  –                   –

            Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
05/16/08    the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract No.
            306-C-00-02-00500-00, for the Period July 1, 2006, to December 31, 2006 (5-306-08-003-D)

                   39,274,703             846,872              51,014                 –                   –

            Closeout Financial Audit of the Business Advisory Services to Small and Medium-Sized Enterprises
            in Afghanistan Project, USAID/Afghanistan Cooperative Agreement No. 306-A-00-04-00570-00,
04/25/08
            Managed by Acap Management Limited, for the Period September 30, 2004, to March 29, 2007
            (5-306-08-019-R)

                      925,459             695,374            695,374                  –                   –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
11/27/07    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period April 1, 2007, to June 30, 2007 (5-306-08-001-N)

                    1,262,209                –                    –                   –                   –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
06/27/07    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period January 1, 2007, to March 31, 2007 (5-306-07-008-N)

                    1,299,053                    –                –                   –                   –




42                                                   USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                       Report Title and Number

                 Amount              Questioned           Amount          Funds to Be Put         Amount
                Audited ($)            Costs             Sustained         to Better Use         Concurred

             Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
05/25/07     the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract No.
             306-C-00-02-00500-00, for the Period January 1, 2006, to June 30, 2006 (5-306-07-002-D)

                   53,702,753              581,418            124,108                  –                   –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
04/18/07     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period October 1, 2006, to December 31, 2006 (5-306-07-006-N)

                     1,488,612                  –                  –                   –                   –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
12/11/06     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-00500-00,
             for the Period July 1, 2006, to September 30, 2006 (5-306-07-004-N)

                     1,740,855                  –                  –                   –                   –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
10/16/06     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period April 1, 2006, to June 30, 2006 (5-306-07-001-N)

                     2,121,214                  –                  –                   –                   –

             Financial Audit of Treatment of Specified Costs Incurred by Camp, Dresser, & McKee
             Constructors Inc. Under the Afghanistan Water and Sanitation Program, USAID/Afghanistan
08/10/06
             Contract No. 306-C-00-04-00568-00, for the Period September 30, 2004, to February 25, 2006
             (5-306-06-004-D)

                       261,390             221,509              31,509                 –                   –

             Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
08/02/06     the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract No.
             306-C-00-02-00500-00, for the Period April 1, 2005, to December 31, 2005 (5-306-06-003-D)

                   181,086,841            528,239               36,248                 –                   –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
06/28/06     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period January 1, 2006, to March 31, 2006 (5-306-06-005-N)

                     3,097,361                  –                  –                   –                   –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
03/21/06     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period October 1, 2005, to December 31, 2005 (5-306-06-004-N)

                     2,144,967                  –                  –                   –                   –




USAID OIG Afghanistan and Pakistan Oversight Report                                                               43
     Date                                    Report Title and Number

                Amount              Questioned           Amount          Funds to Be Put         Amount
               Audited ($)            Costs             Sustained         to Better Use         Concurred

            Audit of Funds Earmarked by Congress to Provide Assistance for Displaced Persons in Afghanistan
12/21/05
            (9-306-06-004-P)

                         N/A                 –                    –           14,366,000          14,366,000

            Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
12/19/05    the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract No.
            306-C-00-02-00500-00, for the Period July 1, 2004, to March 31, 2005 (5-306-06-002-D)

                  125,286,559             348,122               3,399                 –                   –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
12/08/05    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period July 1, 2005, to September 30, 2005 (5-306-06-002-N)

                    2,114,250                –                    –                   –                   –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
            of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
08/29/05
            00500-00, for the Period April 1, 2005, to June 30, 2005, Including Contract Line Item No. 2
            Costs, for the Period July 1, 2004, to June 30, 2005 (5-306-05-009-N)

                    2,944,192                –                    –                   –                   –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
            of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
06/30/05
            00500-00, for the Period January 1, 2005, to March 31, 2005, Including Contract Line Item No. 2
            Costs, for the Period April 1, 2004, to June 30, 2004 (5-306-05-008-N)

                    1,606,343                –                     –                  –                   –

            Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
04/19/05    the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract No.
            306-C-00-02-00500-00, for the Period October 1, 2003, to June 30, 2004 (5-306-05-006-D)

                  185,440,813           1,049,881              98,146                 –                   –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
03/14/05    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period October 1, 2004, to December 31, 2004 (5-306-05-006-N)

                    1,525,711                –                     –                  –                   –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
            of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
12/09/04
            00500-00, for the Period July 1, 2004, to September 30, 2004
            (5-306-05-002-N)

                    1,539,697               3,056                 779                 –                   –




44                                                   USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                       Report Title and Number

                  Amount             Questioned           Amount          Funds to Be Put         Amount
                 Audited ($)           Costs             Sustained         to Better Use         Concurred

             Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
09/16/04     the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract No.
             306-C-00-02-00500-00, for the Period July 1, 2003, to September 30, 2003 (5-306-04-003-D)

                      40,486,450           109,186              91,678                 –                   –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
08/23/04     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period April 1, 2004, to June 30, 2004 (5-306-04-006-N)

                       2,039,979            14,112                 –                   –                   –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
07/09/04     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period January 1, 2004, to March 31, 2004 (5-306-04-005-N)

                       1,578,442           137,596               9,127                 –                   –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
05/17/04     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period October 1, 2003, to December 31, 2003 (5-306-04-004-N)

                        863,610            115,136              44,738                 –                   –

             Audit of the Application of Agreed-Upon Procedures on Costs Incurred in the United States by
             Louis Berger Group Inc. to Implement the Rehabilitation of Economic Facilities and Services
05/17/04
             Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period September 30,
             2002, to June 30, 2003 (5-306-04-002-D)

                      23,096,297            92,983              90,022                 –                   –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
03/26/04     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period July 1, 2003, to September 30, 2003 (5-306-04-003-N)

                        666,841            114,020              13,001                 –                   –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
01/23/04     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period September 30, 2002, to June 30, 2003 (5-306-04-001-N)

                      1,227,901            29,449               3,882                  –                   –

  Afghanistan Total

                1,072,150,052        181,013,728          10,258,701          37,068,153          25,968,153




USAID OIG Afghanistan and Pakistan Oversight Report                                                               45
      Date                                       Report Title and Number

                 Amount              Questioned           Amount         Funds to Be Put          Amount
                Audited ($)            Costs             Sustained        to Better Use          Concurred

 Pakistan

             Financial Audit of USAID/Pakistan's Rupee Trust Fund for the Period October 1, 2009, to
03/20/12
             September 30, 2011 (G-391-12-001-N)

                       859,543               –                    –                   –                   –

             Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant Agreement
 03/06/12    No. 391-G-00-06-01073-00, Managed by the Competitiveness Support Fund, for the Period July 1,
             2010, to June 30, 2011 (G-391-12-007-R)

                     2,197,662               –                    –                   –                   –

             Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement No. 391-
 02/24/12    012, Implementation Letter No. 1, Managed by the Economic Affairs Division of the Government
             of Pakistan, for the Period June 8, 2009, to June 15, 2011 (G-391-12-006-R)

                    44,000,000               –                    –                   –                   –

             Financial Audit of the Merit and Need Based Scholarship Project, USAID/Pakistan Agreement No.
 02/17/12    391-G-00-04-01023-00, for the Period July 2, 2004, to June 30, 2010, Managed by the Higher
             Education Commission (G-391-12-005-R)

                     6,055,675            428,144                 –                   –                  –

             Financial Audit of the Anti-Corruption Program Pakistan, USAID/Pakistan Cooperative Agreement
             No. 391-A-00-09-01117-00, and the Anti-Fraud Hotline Program, USAID/Pakistan Cooperative
 01/13/12
             Agreement No. 391-A-00-10-01194-00, Managed by Transparency International-Pakistan, for the
             Year Ended June 30, 2011 (G-391-12-004-R)

                       387,825               –                    –                   –                  –

             Financial Audit of Aga Khan University's Flood Response Program, USAID/Pakistan Cooperative
 01/06/12    Agreement No. 391-G-00-10-01188-00, for the Period August 30, 2010, to December 31, 2010,
             Managed by Aga Khan University (G-391-12-003-R)

                     1,057,045               –                    –                   –                  –

 11/23/11    Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program (G-391-12-002-P)

                          N/A                –                    –          20,000,000          20,000,000

 11/03/11    Audit of USAID/Pakistan's Firms Project (G-391-12-001-P)

                          N/A           1,359,337                 –                  –                    –




 46                                                   USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                          Report Title and Number

                 Amount              Questioned           Amount          Funds to Be Put        Amount
                Audited ($)            Costs             Sustained         to Better Use        Concurred

             Financial Audit of Budgetary Support to the Government of Pakistan, USAID/Pakistan Program
11/03/11     Assistance Agreement No. 391-005-ES-07, Managed by the Ministry of Finance, for the Year Ended
             June 30, 2008 (G-391-12-002-R)

                   200,000,000               –                    –                    –                  –

             Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement No. 391-
10/26/11     AAG-012-IL-02, Managed by the Benazir Income Support Program, for the Period September 30,
             2009, to March 31, 2011 (G-391-12-001-R)

                    85,000,000               –                    –                    –                    –

             Financial Audit of the Business Revitalization Program, USAID/Pakistan Cooperative Agreement
09/21/11     No. 391-A-00-10-01145-00, Managed by Khushhali Bank, for the Period February 6, 2010, to
             December 31, 2010 (G-391-11-005-R)

                     8,443,128               –                    –                    –                  –

             Closeout Financial Audit of the Forman Christian College, USAID/Pakistan Grant Agreement No.
06/23/11     391-G-00-04-01036-00, Managed by Forman Christian College, for the Period July 1, 2009, to
             March 31, 2010 (G-391-11-004-R)

                     1,974,491             122,515             90,655                  –                  –

             Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the Period October 1, 2006, to
05/26/11
             September 30, 2009 (G-391-11-001-N)

                     1,511,547                –                   –                    –                  –

             Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant Agreement
05/10/11     No. 391-G-00-06-1073-00, Managed by the Competitiveness Support Fund, for the Period July 1,
             2009, to June 30, 2010 (G-391-11-003-R)

                     2,184,844               2,822                 –                  –                     –

             Closeout Financial Audit of the Interactive Teaching and Learning Project, USAID/Pakistan
             Cooperative Agreement No. 391-A-00-06-01075-00, and the Financial Audit of Links to Learning
04/08/11     Education Support to Pakistan Program, Subaward Under USAID/Pakistan Cooperative Agreement
             No. 391-A-00-08-01100-00, Managed by Children’s Global Network Pakistan Limited, for the
             Period July 1, 2008, to February 26, 2010 (G-391-11-002-R)

                     1,315,348              12,669                 –                  –                     –

             Closeout Financial Audit of the Developing Non-Bankable Territories for Financial Services
12/30/10     Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00, Managed by
             Khushhali Bank, for the Period January 1, 2009, to September 30, 2009 (G-391-11-001-R)

                       450,607                –                   –                    –                  –




USAID OIG Afghanistan and Pakistan Oversight Report                                                             47
     Date                                   Report Title and Number

                Amount             Questioned           Amount         Funds to Be Put        Amount
               Audited ($)           Costs             Sustained        to Better Use        Concurred

            Audit of USAID/Pakistan's Livelihood Development Program in the Lower Region of the Federally
12/10/10
            Administered Tribal Area (G-391-11-001-P)

                         N/A             767,841            352,470                 –                   –

            Audit of Costs Incurred Under the School Enhancement Program Component of the Pakistan
            Education Sector Reform Assistance Program, USAID/Pakistan Cooperative Agreement No. 391-
11/08/10
            A-00-03-01000-00, Managed by RTI International, for the Period December 4, 2002, to
            December 31, 2007 (G-391-11-001-D)

                   14,432,228               –                   –                   –                   –

            Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant Agreement
08/04/10    No. 391-G-00-06-01073-00, Managed by the Competitiveness Support Fund, for the Period
            February 3, 2006, to June 30, 2009 (G-391-10-001-R)

                    5,637,011            355,471                –                  –                    –

            Financial Audit of the College Improvement Program, USAID/Pakistan Grant Agreement No. 391-
05/18/10    G-00-04-01036-00, Managed by Forman Christian College, Lahore, for the Period July 1, 2007, to
            June 30, 2009 (5-391-10-033-R)

                      394,255               –                   –                   –                   –

            Financial Audit of the Developing Non-Bankable Territories for Financial Services Program,
04/30/10    USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank,
            for the Year Ended December 31, 2008 (5-391-10-029-R)

                    1,653,377             89,934             65,652                 –                   –

            Closeout Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
            Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed
03/24/10
            by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period July 1, 2007, to
            December 31, 2007 (5-391-10-026-R)

                    2,146,908               –                   –                   –               –

            Closeout Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan
02/10/10    Cooperative Agreement No. 391-A-00-03-01003-00, for the Period January 1, 2007, to
            December 31, 2007 (5-391-10-020-R)

                    1,853,975             63,367             63,367                 –                   –

            Financial Audit of USAID Funds Managed by Children's Global Network Pakistan (Guarantee)
12/22/09
            Limited, for the Year Ended June 30, 2008 (5-391-10-012-R)

                    1,863,786            376,942                242                 –                   –




48                                                  USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                        Report Title and Number

                 Amount               Questioned           Amount          Funds to Be Put         Amount
                Audited ($)             Costs             Sustained         to Better Use         Concurred

             Financial Audit of the Budgetary Support, USAID/Pakistan Program Assistance Agreement Nos.
08/13/09     391-005-ES-05 and 391-005-ES-06, Managed by the Ministry of Finance, Government of Pakistan,
             for the Years Ended June 30, 2006, and 2007 (5-391-09-006-N)

                   400,000,000                 –                   –                    –                   –

             Financial Audit of the Developing Non-Bankable Territories for Financial Services Program,
06/25/09     USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank,
             for the Period January 1 to December 31, 2007 (5-391-09-013-R)

                     1,776,113                 –                   –                    –                   –

             Financial Audit of USAID/Pakistan's Rupee Trust Fund for Operating Expenses, for Fiscal Years
05/11/09
             Ended September 30, 2005, and 2006 (5-391-09-002-N)

                       979,028                 –                   –                    –                   –

             Financial Audit of the College Improvement Program, USAID/Pakistan Grant Agreement No. 391-
04/30/09     G-00-04-01036-00, Managed by Forman Christian College, Lahore, for the Period August 23, 2004,
             to June 30, 2007 (5-391-09-008-R)

                     2,631,254           1,163,564              56,008                  –                   –

             Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan Cooperative
04/29/09     Agreement No. 391-A-00-03-01003-00, for the Period January 1, 2006, to December 31, 2006
             (5-391-09-007-R)

                       979,040                 –                   –                    –                   –

             Financial Audit of the Interactive Teaching and Learning Program in Pakistan, USAID/Pakistan
             Cooperative Agreement No. 391-A-00-06-01075-00, Managed by Children's Resources
12/15/08
             International Pakistan (Guarantee) Limited, for the Period March 1, 2006, to June 30, 2007
             (5-391-09-006-R)

                     1,557,736             763,449                 158                  –                   –

             Financial Audit of the Improved Pakistani Family Planning and Reproductive Health Services
             Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
09/26/08
             Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period July 1, 2006, to June 30,
             2007 (5-391-08-035-R)

                    4,295,177                  –                   –                    –                   –

             Financial Audit of the Improved Pakistani Family Planning and Reproductive Health Services
             Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
09/25/08
             Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period July 1, 2005, to June 30,
             2006 (5-391-08-034-R)

                    5,399,408                  –                   –                    –                   –




USAID OIG Afghanistan and Pakistan Oversight Report                                                              49
     Date                                     Report Title and Number

                Amount               Questioned           Amount          Funds to Be Put         Amount
               Audited ($)             Costs             Sustained         to Better Use         Concurred

            Financial Audit of the Improved Pakistani Family Planning and Reproductive Health Services
            Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
09/19/08
            Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period July 1, 2004, to June 30,
            2005 (5-391-08-032-R)

                   5,707,948                  –                   –                    –                  –

            Closeout Financial Audit of the Rewarding Innovation at the District Level Program,
            USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01015-00, for the Period July 1, 2005,
08/27/08    to March 31, 2006, and the Establishing Tent Schools and Cash for Work Program, Grant
            Agreement No. 391-G-00-06-0169-00, for the Period December 9, 2005, to June 15, 2006,
            Managed by the Rural Support Programmes Network (5-391-08-030-R)

                   2,847,871             222,294             222,294                   –                  –

            Financial Audit of the Technical Assistance and Training to Improve Project and Financial
            Management of Provincial and District Health and Population Welfare Services in Pakistan Project,
08/20/08    USAID/Pakistan Limited Scope Grant Agreement No. 391-G-00-04-01020-00, Managed by Options
            Consultancy Services Limited—Technical Assistance Management Agency, for the Period January 1,
            2004, to March 31, 2006 (5-391-08-005-N)

                     697,058                  –                   –                    –                  –

            Closeout Financial Audit of the Enterprise Development Facility Program, Cooperative Agreement
08/15/08    No. 391-A-00-03-01010-00, Managed by the Pakistan Poverty Alleviation Fund, for the Period
            July 1, 2006, to September 30, 2007 (5-391-08-029-R)

                     734,597                  –                   –                    –                  –

            Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan Cooperative
07/02/08    Agreement No. 391-A-00-03-01003-00, for the Period January 1, 2005, to December 31, 2005
            (5-391-08-027-R)

                     902,755                  –                   –                    –                  –

            Financial Audit of the Developing Non-Bankable Territories for Financial Services Program,
04/15/08    USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank,
            for the Period January 1, 2005, to December 31, 2006 (5-391-08-017-R)

                    2,662,527             82,126              66,916                   –                  –

            Financial Audit of the 4-Year Bachelor's Degree Program, USAID/Pakistan Grant Agreement No.
09/28/07    391-G-00-04-01036-00, Managed by Forman Christian College, Lahore, for the Period July 1, 2005,
            to June 30, 2006 (5-391-07-024-R)

                      769,134                 –                   –                    –                  –




50                                                    USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                       Report Title and Number

                 Amount              Questioned           Amount         Funds to Be Put         Amount
                Audited ($)            Costs             Sustained        to Better Use         Concurred

             Financial Audit of the Enterprise Development Facility Program, Cooperative Agreement No. 391-
08/22/07     A-00-03-01010-00, Managed by the Pakistan Poverty Alleviation Fund, for the Period July 1, 2005,
             to June 30, 2006 (5-391-07-023-R)

                     1,160,768            951,400             921,512                 –                  –

             Financial Audit of the Improved Pakistani Family Planning and Reproductive Health Services
             Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
07/25/07
             Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period November 7, 2003, to
             June 30, 2004 (5-391-07-020-R)

                     1,805,257             34,804                 –                  –                      –

             Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan Cooperative
05/03/07     Agreement No. 391-A-00-03-01003-00, for the Period July 1, 2003, to December 31, 2004
             (5-391-07-014-R)

                       771,546                –                   –                   –                  –

             Financial Audit of the Fulbright-USAID Scholarship Program, Grant Agreement No. 391-G-00-04-
02/22/07     01035-00, Managed by the United States Educational Foundation in Pakistan, for the Period
             September 1, 2004, to August 31, 2005 (5-391-07-010-R)

                       234,757                –                   –                   –                  –

             Financial Audit of the 4-Year Bachelor's Degree Program, USAID/Pakistan Grant Agreement No.
01/12/07     391-G-00-04-01036-00, Managed by Forman Christian College, Lahore, for the Period August 23,
             2004, to June 30, 2005 (5-391-07-006-R)

                       764,472                –                   –                   –                  –

             Financial Audit of the Enterprise Development Facility Program, Cooperative Agreement No. 391-
01/12/07     A-00-03-01010-00, Managed by the Pakistan Poverty Alleviation Fund for the Period October 1,
             2003, to June 30, 2005 (5-391-07-007-R)

                     3,194,633           1,999,553          1,639,230                 –                  –

             Financial Audit of the Developing Non-Bankable Territories for Financial Services Project,
09/27/06     USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank,
             for the Period October 1, 2003, to December 31, 2004 (5-391-06-033-R)

                     1,853,591                –                   –                   –                  –

             Financial Audit of the Rural Support Programmes Network, USAID Grant Rewarding Innovations
09/26/06     at the District Level, Agreement No. 391-A-00-03-01015-00, for the Period Ended June 30, 2005
             (5-391-06-032-R)

                       997,500                –                   –                   –                  –




USAID OIG Afghanistan and Pakistan Oversight Report                                                             51
     Date                                         Report Title and Number

                     Amount              Questioned           Amount          Funds to Be Put        Amount
                    Audited ($)            Costs             Sustained         to Better Use        Concurred

                 Financial Audit of the Rural Support Programmes Network, USAID Grant Rewarding Innovations
09/13/06         at the District Level, Agreement No. 391-A-00-03-01015-00, for the 9-Month Period Ended
                 June 30, 2004 (5-391-06-031-R)

                             471,255              –                    –                   –                 –

                 Financial Audit of the Improved Pakistani Family Planning and Reproductive Health Services
                 Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
05/11/06
                 Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period November 7, 2003, to
                 June 30, 2004 (5-391-06-020-R)

                            1,805,257           830                    –                   –                 –

                 Financial Audit of USAID/Pakistan’s Rupee Trust Fund for Operating Expenses, for Fiscal Years
01/10/06
                 Ended September 30, 2002, 2003, and 2004 (5-391-06-003-N)

                             432,270              –                    –                   –                 –

           Pakistan Total

                     828,850,207            8,797,062          3,478,504        20,000,000         20,000,000




52                                                        USAID OIG Afghanistan and Pakistan Oversight Report
Appendix 5 – Completed Audit Reports
The following table provides a listing of OIG audits by the country they pertain to and fiscal year in
which they were issued. For purposes of this report, the term “financial audit” refers to both
financial audits and quality assurance reviews. As it is used in this report, the term “performance
audit and review”, in turn, refers to other audits, reviews, risk assessments, and survey reports.


  Date          Number                                                 Title

Afghanistan

    FY 2012
03/15/12      F-306-12-005-N   Financial Audit of Costs Incurred in Afghanistan Under USAID Contract No. 306-
                               DOT-I-01-08-00033-00 With Chemonics International Inc. for the Period October 1,
                               2009, to September 30, 2010
02/07/12      F-306-12-002-P   Audit of USAID/Afghanistan’s Skills Training for Afghan Youth Project
02/15/12      F-306-12-004-N   Financial Audit on the Local (Non-U.S.) Costs (Costs Incurred and Paid in
                               Afghanistan) Under USAID Contract No. 306-I-00-06-00517-00 With the Joint
                               Venture Louis Berger Group Inc./Black & Veatch Corp., for the Period October 1,
                               2009, to September 30, 2010
12/26/11      F-306-12-001-S   Review of Responses to Internal Audit Findings on the Local Governance and
                               Community Development Project
12/20/11      F-306-12-001-D   Independent Financial Audit of Black & Veatch Special Projects Corporation Direct
                               Costs Incurred and Billed on Contract No. 306-I-00-06-00517-00 From August 25,
                               2006, to September 30, 2008
12/19/11      F-306-12-004-N   Financial Audit on the Local (non-U.S.) Costs (Costs Incurred and Paid in Afghanistan)
                               Under USAID Contract No. 306-I-00-06-00517-00 With the Joint Venture Louis
                               Berger Group Inc./Black & Veatch Corp., for the Period October 1, 2009, to
                               September 30, 2010
11/13/11      F-306-12-001-P   Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative for the Southern
                               Region
10/13/11      F-306-12-003-N   Financial Audit of the Ministry of Finance Salary Support Program, USAID/Afghanistan
                               Project Implementation Number 306-IL-10-01, Managed by the Ministry of Finance,
                               for the Period June 6, 2010, to September 30, 2010
10/10/11      F-306-12-002-N   Local Costs' Financial Audit of the Small and Medium Sized Enterprise Development
                               Activity by Development Alternatives Inc. Contract No. 306-C-00-07-00503-00, for
                               the Period October 1, 2009, to September 30, 2010
10/03/11      F-306-12-001-N   Financial Audit of the Partnership Contracts for Health Services Program,
                               USAID/Afghanistan Grant Agreement No. 306-08-IL-06-00, Managed by the Ministry
                               of Public Health, for the Period From Program Inception on July 20, 2008, Through
                               September 22, 2010



USAID OIG Afghanistan and Pakistan Oversight Report                                                                 53
     FY 2011

09/29/11       F-306-11-004-P   Audit of USAID/Afghanistan’s On-Budget Funding Assistance to the Ministry of Public
                                Health in Support of the Partnership Contracts for Health Services Program
09/29/11       F-306-11-003-N   Financial Audit of the Policy Capacity Initiative Activity Project, USAID/Afghanistan
                                Grant Agreement No. 306-IL-09-12-0004.00, Managed by the Ministry of
                                Communication and Information Technology, for the Period From Program Inception
                                on April 9, 2009, Through September 30, 2010
08/31/11       F-306-11-005-S   Review of USAID/Afghanistan’s Afghan Civilian Assistance Program
08/23/11       F-306-11-001-D   Financial Audit of Technologist Inc. Costs Incurred/Billed Under USAID Task Order
                                No. 306-O-00-04-00539-00, for the Afghanistan Industrial Estate Development
                                Program for the Period May 24, 2004, Through December 31, 2007
07/21/11       F-306-11-001-N   Financial Audit of the Civilian Technical Assistance Program, USAID/Afghanistan
                                Grant Agreement No. 306-09-CTAP-0001, Managed by the Ministry of Finance, for
                                the Period September 30, 2009, to September 30, 2010
07/14/11       F-306-11-003-R   Financial Audit of the Regenerating Murad Khane, Restoring Refurbishing and
                                Revitalizing the Old City Program, USAID/Afghanistan Cooperative Agreement No.
                                306-A-09-00503-00, Managed by the Turquoise Mountain Trust, for the Period From
                                January 1, 2010, to December 31, 2010
06/19/11       F-306-11-003-P   Audit of USAID/Afghanistan’s Support to the Electoral Process (STEP) and Support
                                for Increased Electoral Participation in Afghanistan (IEP) Programs
06/09/11       F-306-11-004-S   Review of USAID/Afghanistan’s Portion of the Embassy Air Program
03/27/11       F-306-11-002-P   Audit of USAID/Afghanistan’s Construction of Health and Education Facilities
                                Program
03/16/11       F-306-11-003-S   Review of USAID/Afghanistan’s Bank Supervision Assistance Activities and the Kabul
                                Bank Crisis
03/07/11       F-306-11-002-S   Review of Cash Disbursement Practices Employed by Selected USAID/Afghanistan
                                Contractors and Grantees
02/13/11       F-306-11-001-P   Audit of USAID/Afghanistan’s Agriculture, Water, and Technology Transfer Program
12/20/10       F-306-11-002-R   Financial Audit of the Fiduciary Support to the American University of Afghanistan
                                (AUAf) Program, Subgrant Under Asia Foundation Award No. 306-G-00-05-00525-
                                00, and USAID Direct Support to AUAF, Cooperative Agreement No. 306-A-00-08-
                                00525-00, for the Period July 1, 2008, to June 30, 2009
11/16/10       5-306-11-002-N   Financial Audit of Local Costs Incurred by the Joint Venture Louis Berger Group
                                Inc./Black & Veatch Special Projects Corp. to Implement the Afghanistan
                                Infrastructure Rehabilitation Program, USAID/Afghanistan Contract No. 306-I-00-06-
                                00517-00, for the Period October 1, 2008, to September 30, 2009
11/06/10       F-306-11-001-S   Review of USAID/Afghanistan’s Ministerial Assessment Process
11/05/10       5-306-11-002-P   Audit of USAID/Afghanistan’s Support to the American University of Afghanistan
10/28/10       5-306-11-001-P   Audit of USAID/Afghanistan’s Partnership for Advancing Community-Based Education
                                in Afghanistan (PACE-A) Program



54                                                    USAID OIG Afghanistan and Pakistan Oversight Report
10/26/10      F-306-11-001-R   Financial Audit of the Regenerating Murad Khane, Restoring Refurbishing and
                               Revitalizing the Old City, Program, USAID/Afghanistan Cooperative Agreement No.
                               306-A-09-00503-00, Managed by the Turquoise Mountain Trust, for the Period
                               January 1, 2009, to December 31, 2009

    FY 2010

09/29/10      5-306-10-002-S   Review of Security Costs Charged to USAID Projects in Afghanistan
09/28/10      5-306-10-002-D   Financial Audit of Cost Incurred and Billed for the Human and Institutional Capacity
                               Building for Afghanistan Energy and Natural Resources Sector Project (Task Order
                               No. DOT-I-04-04-00022-00), USAID/Afghanistan Cooperative Agreement No. 306-P-
                               00-10-00514-00, Managed by Advanced Engineering Associates International, for the
                               Period July 3, 2008, to June 30, 2009
07/29/10      5-306-10-011-P   Audit of USAID/Afghanistan’s Alternative Development Program Expansion, South
                               West
06/24/10      5-306-10-002-O   Review of School and Health Clinic Buildings Completed Under the Schools and
                               Clinics Construction and Refurbishment Program
05/21/10      5-306-10-009-P   Audit of USAID/Afghanistan’s Oversight of Private Security Contractors in
                               Afghanistan
05/18/10      5-306-10-001-Q   Quality Control Review of the Financial Audit Conducted by KPMG Afghanistan
                               Limited of the Local Costs Incurred by the Louis Berger Group Inc./Black & Veatch
                               Special Projects Joint Venture to Implement the Afghanistan Infrastructure
                               Rehabilitation Program, USAID/Afghanistan Contract No. 306-I-00-06-00517-00, for
                               the Period October 1, 2007, to September 30, 2008
04/20/10      5-306-10-008-P   Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased Productive
                               Agriculture (AVIPA) Program
03/31/10      5-306-10-007-P   Audit of USAID/Afghanistan’s Human Resources and Logistical Support Program
                               Financial Audit of the Afghanistan First Loss Reserve Fund, USAID/Afghanistan
                               Cooperative Agreement No. 306-A-00-05-00512-00, Managed by the Deutsche
03/30/10      5-306-10-001-D
                               Investitions und Entwicklungsgesellschaft mbh, for the Period February 4, 2005, to
                               December 3, 2008
                               Financial Audit of Local Costs Incurred by the Louis Berger Group Inc./Black &
                               Veatch Special Projects Joint Venture to Implement the Afghanistan Infrastructure
02/25/10      5-306-10-002-N
                               Rehabilitation Program, USAID/Afghanistan Contract No. 306-I-00-06-00517-00, for
                               the Period October 1, 2007, to September 30, 2008
01/29/10      5-306-10-006-P   Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers
                               Project
12/15/09      5-306-10-004-P   Audit of USAID/Afghanistan’s Afghan Civilian Assistance Program
11/10/09      5-306-10-002-P   Audit of USAID/Afghanistan’s Power Sector Activities Under Its Afghanistan
                               Infrastructure Rehabilitation Program




USAID OIG Afghanistan and Pakistan Oversight Report                                                                 55
     FY 2009

09/29/09       5-306-09-021-R   Financial Audit of the Regenerating Murad Khane, Restoring, Refurbishing and
                                Revitalizing the Old City Program, USAID/Afghanistan Cooperative Agreement No.
                                306-A-00-09-00503-00, Managed by the Turquoise Mountain Trust, for the Period
                                November 2, 2008, to December 31, 2008
08/19/09       5-306-09-002-D   Financial Audit of Costs Incurred and Billed by BearingPoint Inc. USAID/Afghanistan
                                Contract No. 306-C-00-03-00001-00, for the Period November 1, 2002, to
                                December 15, 2005
06/25/09       5-306-09-005-N   Financial Audit of Local Costs Incurred by the Joint Venture Louis Berger Group
                                Inc./Black & Veatch Special Projects Corp. to Implement the Afghanistan
                                Infrastructure Rehabilitation Program, USAID/Afghanistan Contract No. 306-I-00-06-
                                00517-00, for the Period August 25, 2006, to September 30, 2007
06/18/09       5-306-09-001-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                                Implement the Rehabilitation of Economic Facilities and Services Program,
                                USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period January 1,
                                2007, to May 31, 2008
06/08/09       5-306-09-004-P   Audit of USAID/Afghanistan’s Land Titling and Economic Restructuring in Afghanistan
                                Project
05/11/09       5-306-09-003-P   Audit of USAID/Afghanistan’s Local Governance and Community Development
                                Project in Southern and Eastern Regions of Afghanistan
12/04/08       5-306-09-002-P   Audit of USAID/Afghanistan’s Higher Education Project

     FY 2008

09/30/08       5-306-08-012-P   Audit of USAID/Afghanistan’s Capacity Development Program
08/08/08       5-306-08-009-P   Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program
06/23/08       5-306-08-006-P   Audit of USAID/Afghanistan’s Small and Medium Enterprise Development Activity
05/16/08       5-306-08-003-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                                Implement the Rehabilitation of Economic Facilities and Services Program,
                                USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period July 1, 2006,
                                to December 31, 2006
04/25/08       5-306-08-019-R   Closeout Financial Audit of the Business Advisory Services to Small and Medium-
                                Sized Enterprises in Afghanistan Project, USAID/Afghanistan Cooperative Agreement
                                No. 306-A-00-04-00570-00, Managed by Acap Management Limited, for the Period
                                September 30, 2004, to March 29, 2007
03/17/08       5-306-08-003-P   Audit of USAID/Afghanistan’s Alternative Development Program–Southern Region
01/22/08       5-306-08-001-P   Audit of USAID/Afghanistan’s Agriculture, Rural Investment and Enterprise
                                Strengthening Program
11/27/07       5-306-08-001-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                                Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                                Contract No. 306-C-00-02-00500-00, for the Period April 1, 2007, to June 30, 2007




56                                                     USAID OIG Afghanistan and Pakistan Oversight Report
    FY 2007

08/31/07      5-306-07-009-P   Audit of Selected Follow-On Activities Under USAID/Afghanistan’s Economic
                               Program
06/27/07      5-306-07-008-N   Financial Audit of Local Costs incurred by Louis Berger Group Inc. to Implement the
                               Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                               Contract No. 306-C-00-02-00500-00, for the Period January 1, 2007, to March 31,
                               2007
06/07/07      5-306-07-006-P   Audit of USAID/Afghanistan’s Urban Water and Sanitation Program
05/25/07      5-306-07-002-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                               Implement the Rehabilitation of Economic Facilities and Services Program,
                               USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period January 1,
                               2006, to June 30, 2006
05/21/07      5-306-07-004-P   Audit of Critical Power Sector Activities Under USAID/Afghanistan’s Rehabilitation of
                               Economic Facilities and Services Program
04/18/07      5-306-07-006-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                               Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                               Contract No. 306-C-00-02-00500-00, for the Period October 1, 2006, to
                               December 31, 2006
02/13/07      5-306-07-002-P   Audit of USAID/Afghanistan’s Alternative Livelihoods Program-Eastern Region
12/11/06      5-306-07-004-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                               Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                               Contract No. 306-C-00-00500-00, for the Period July 1, 2006, to September 30, 2006
10/16/06      5-306-07-001-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                               Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                               Contract No. 306-C-00-02-00500-00, for the Period April 1, 2006, to June 30, 2006

    FY 2006

08/18/06      5-306-06-008-P   Audit of USAID/Afghanistan’s School and Health Clinic Reconstruction Activities
08/16/06      5-306-06-007-P   Audit of USAID/Afghanistan’s Rural Expansion of Afghanistan’s Community-Based
                               Healthcare Program
08/10/06      5-306-06-004-D   Financial Audit of Treatment of Specified Costs Incurred by Camp, Dresser & McKee
                               Constructors Inc. Under the Afghanistan Water and Sanitation Program,
                               USAID/Afghanistan Contract No. 306-C-00-04-00568-00, for the Period
                               September 30, 2004, to February 25, 2006
08/02/06      5-306-06-003-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                               Implement the Rehabilitation of Economic Facilities and Services Program,
                               USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period April 1,
                               2005, to December 31, 2005




USAID OIG Afghanistan and Pakistan Oversight Report                                                              57
06/28/06       5-306-06-005-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                                Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                                Contract No. 306-C-00-02-00500-00, for the Period January 1, 2006, to March 31,
                                2006
05/18/06       5-306-06-005-P   Audit of USAID/Afghanistan’s Reconstruction of the Kandahar-Herat Highway Under
                                the Rehabilitation of Economic Facilities and Services Program
03/28/06       5-306-06-002-P   Audit of USAID/Afghanistan’s Rebuilding Agricultural Markets Program
03/21/06       5-306-06-004-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                                Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                                Contract No. 306-C-00-02-00500-00, for the Period October 1, 2005, to
                                December 31, 2005
01/10/06       5-306-06-001-P   Audit of USAID/Afghanistan’s Cashiering Operations
12/21/05       9-306-06-004-P   Audit of Funds Earmarked by Congress to Provide Assistance for Displaced Persons
                                in Afghanistan
12/19/05       5-306-06-002-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                                Implement the Rehabilitation of Economic Facilities and Services Program,
                                USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period July 1, 2004,
                                to March 31, 2005
12/08/05       5-306-06-002-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                                Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                                Contract No. 306-C-00-02-00500-00, for the Period July 1, 2005, to September 30,
                                2005

     FY 2005

08/29/05       5-306-05-009-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                                Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                                Contract No. 306-C-00-02-00500-00, for the Period April 1, 2005, to June 30, 2005,
                                Including Contract Line Item No. 2 Costs for the Period July 1, 2004, to June 30,
                                2005
06/30/05       5-306-05-008-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                                Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                                Contract No. 306-C-00-02-00500-00, for the Period January 1, 2005, to March 31,
                                2005, Including Contract Line Item No. 2 Costs for the Period April 1, 2004, to
                                June 30, 2004
04/19/05       5-306-05-006-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                                Implement the Rehabilitation of Economic Facilities and Services Program,
                                USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period October 1,
                                2003, to June 30, 2004
04/14/05       5-306-05-005-P   Audit of USAID/Afghanistan’s Primary Education Program
03/14/05       5-306-05-003-P   Audit of USAID/Afghanistan’s School and Clinic Reconstruction Program




58                                                     USAID OIG Afghanistan and Pakistan Oversight Report
03/14/05      5-306-05-006-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                               Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                               Contract No. 306-C-00-02-00500-00, for the Period October 1, 2004, to
                               December 31, 2004
12/09/04      5-306-05-002-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                               Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                               Contract No. 306-C-00-02-00500-00, for the Period July 1, 2004, to September 30,
                               2004

    FY 2004

09/21/04      5-306-04-006-P   Audit of the Kabul to Kandahar Highway Reconstruction Activities Financed by
                               USAID/Afghanistan’s Rehabilitation of Economic Facilities and Services Program
09/16/04      5-306-04-003-D   Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                               Implement the Rehabilitation of Economic Facilities and Services Program,
                               USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period July 1, 2003,
                               to September 30, 2003
08/23/04      5-306-04-006-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                               Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                               Contract No. 306-C-00-02-00500-00, for the Period April 1, 2004, to June 30, 2004
08/17/04      5-306-04-005-P   Audit of the Sustainable Economic Policy and Institutional Reform Support Program
                               at USAID/Afghanistan
07/09/04      5-306-04-005-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                               Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                               Contract No. 306-C-00-02-00500-00, for the Period January 1, 2004, to March 31,
                               2004
05/17/04      5-306-04-004-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                               Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                               Contract No. 306-C-00-02-00500-00, for the Period October 1, 2003, to
                               December 31, 2003
05/17/04      5-306-04-002-D   Audit of the Application of Agreed-Upon Procedures on Costs Incurred in the United
                               States by Louis Berger Group Inc. to Implement the Rehabilitation of Economic
                               Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
                               00500-00, for the Period September 30, 2002, to June 30, 2003
05/11/04      5-306-04-001-F   Audit of USAID/Afghanistan’s Cashiering Operations
04/15/04      5-306-04-002-S   Risk Assessment of Major Activities Managed by USAID/Afghanistan
03/31/04      RIG Memo         Second Review of the Road Project Financed by USAID/Afghanistan's Rehabilitation of
              04-003           Economic Facilities and Services Program
03/26/04      5-306-04-003-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                               Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                               Contract No. 306-C-00-02-00500-00, for the Period July 1, 2003, to September 30,
                               2003




USAID OIG Afghanistan and Pakistan Oversight Report                                                             59
01/23/04       5-306-04-001-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                                Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                                Contract No. 306-C-00-02-00500-00, for the Period September 30, 2002, to June 30,
                                2003
11/13/03       RIG Memo         Review of the Road Project Financed by USAID/Afghanistan's Rehabilitation of
               04-002           Economic Facilities and Services Program

     FY 2003

03/11/03       5-306-03-001-S   Risk Assessment of Major Activities Managed by USAID/Afghanistan

Pakistan

     FY 2012

03/20/12       G-391-12-001-N   Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the Period October 1,
                                2009, to September 30, 2011
03/16/12       G-391-12-004-P   Audit of USAID/Pakistan’s Pre-Service Teacher Education Program
03/06/12       G-391-12-007-R   Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant
                                Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness Support
                                Fund, for the Period July 1, 2010, to June 30, 2011
02/24/12       G-391-12-006-R   Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement
                                No. 391-012, Managed by the Economic Affairs Division of the Government of
                                Pakistan, for the Period June 8, 2009, to June 15, 2011
02/03/12       G-391-12-003-P   Audit of USAID’s Pakistan Transition Initiative Program
02/17/12       G-391-12-001-Q   Quality Control Review of the Financial Audit Conducted by the Directorate General
                                Audit, Federal Government, Department of the Auditor General of Pakistan, of the
                                Merit and Need Based Scholarship Project, USAID/Pakistan Agreement No. 391-G-
                                00-04-01023-00, Managed by the Higher Education Commission, for the Period July 2,
                                2004, to June 30, 2010
02/17/12       G-391-12-005-R   Financial Audit of the Merit and Need Based Scholarship Project, USAID/Pakistan
                                Agreement No. 391-G-00-04-01023-00, Managed by the Higher Education
                                Commission, for the Period July 2, 2004, to June 30, 2010
01/13/12       G-391-12-004-R   Financial Audit of Anti-Corruption Program Pakistan, USAID/Pakistan Cooperative
                                Agreement No. 391-A-00-09-01117-00, and Anti-Fraud Hotline Pakistan,
                                USAID/Pakistan Cooperative Agreement No. 391-A-00-10-01194-00, Managed by
                                Transparency International-Pakistan, for the Year Ended June 30, 2011
01/06/12       G-391-12-003-R   Financial Audit of the Aga Khan University Flood Response Program, USAID/Pakistan
                                Cooperative Agreement No. 391-G-00-10-01188-00, for the Period August 30,
                                2010, to December 31, 2010
11/23/11       G-391-12-002-P   Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program
11/03/11       G-391-12-001-P   Audit of USAID/Pakistan’s Firms Project




60                                                    USAID OIG Afghanistan and Pakistan Oversight Report
11/03/11      G-391-12-002-R   Financial Audit of Budgetary Support to the Government of Pakistan, USAID/Pakistan
                               Program Assistance Agreement No. 391-005-ES-07, Managed by the Ministry of
                               Finance, for the Year Ended June 30, 2008

10/26/11      G-391-12-001-R   Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement
                               No. 391-AAG-012-IL -02, Managed by the Benazir Income Support Program, for the
                               Period September 30, 2009, to March 31, 2011

    FY 2011

09/21/11      G-391-11-005-R   Financial Audit of the Business Revitalization Program, USAID/Pakistan Cooperative
                               Agreement No. 391-A-00-10-01145-00, Managed by Khushhali Bank, for the Period
                               February 6, 2010, to December 31, 2010
08/29/11      G-391-11-006-P   Audit of USAID/Pakistan’s Community Rehabilitation Infrastructure Support Program
06/23/11      G-391-11-003-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                               Financial Audit Conducted by A.F. Ferguson, of the Forman Christian College,
                               USAID/Pakistan Grant Agreement No. 391-G-00-04-01036-00, Managed by Forman
                               Christian College, for the Period July 1, 2009 to March 31, 2010
06/23/11      G-391-11-004-R   Closeout Financial Audit of the Development of a 4-Year Bachelor Degree Program
                               and Strengthening Programs in Basic Science and Information Technology,
                               USAID/Pakistan Grant Agreement No. 391-G-00-04-01036-00, Managed by Forman
                               Christian College, for the Period July 1, 2009, to March 31, 2010
06/20/11      G-391-11-005-P   Audit of USAID/Pakistan’s Road Rehabilitation and Reconstruction Activities Under
                               the Quick Impact Projects in South Waziristan
05/26/11      G-391-11-001-N   Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the Period October 1,
                               2006, to September 30, 2009
05/10/11      G-391-11-002-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                               Financial Audit Conducted by Nasir Javaid Maqsood Imran of the Pakistan
                               Competitiveness Support Fund, USAID/Pakistan Grant Agreement No. 391-G-00-06-
                               10730, Managed by the Competitiveness Support Fund, for the Period from July 1,
                               2009, to June 30, 2010
05/10/11      G-391-11-003-R   Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant
                               Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness Support
                               Fund, for the Period July 1, 2009, to June 30, 2010
05/06/11      G-391-11-004-P   Audit of USAID/Pakistan’s Management of Preaward Assessments
04/08/11      G-391-11-001-Q   Quality Control Review of the Audit Report and Audit Documentation for Financial
                               Audits Conducted by Khalid Majid Rahman Sarfraz Rahim Iqbal Rafiq of the
                               Interactive Teaching and Learning Project Managed by Children’s Global Network
                               Pakistan Limited Under USAID/Pakistan Cooperative Agreement No. 391-A-00-06-
                               01075-00, for the Period July 1, 2008, to February 26, 2010




USAID OIG Afghanistan and Pakistan Oversight Report                                                             61
04/08/11       G-391-11-002-R   Closeout Financial Audit of the Interactive Teaching and Learning Project,
                                USAID/Pakistan Cooperative Agreement No. 391-A-00-06-01075-00, and Financial
                                Audit of Links to Learning Education Support to Pakistan Program, Subaward Under
                                USAID/Pakistan Cooperative Agreement No. 391-A-00-08-01100-00, Managed by
                                Children’s Global Network Pakistan Limited, for the Period July 1, 2008, to
                                February 26, 2010
01/24/11       G-391-11-003-P   Audit of USAID/Pakistan’s Flood Relief Efforts as Administered by Local
                                Nongovernmental Organizations
12/30/10       G-391-11-001-R   Closeout Financial Audit of the Developing Non-Bankable Territories for Financial
                                Services Program , USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-
                                00, Managed by Khushhali Bank Limited, for the Period January 1, 2009, to
                                September 30, 2009
12/10/10       G-391-11-002-P   Audit of USAID/Pakistan’s Livelihood Development Program for the Upper Region of
                                the Federally Administered Tribal Areas
12/10/10       G-391-11-001-P   Audit of USAID/Pakistan’s Livelihood Development Program for the Lower Region of
                                the Federally Administered Tribal Areas
11/08/10       G-391-11-001-D   Financial Audit of Costs Incurred Under the School Enhancement Program
                                Component of the Education Sector Reform Assistance Program, USAID/Pakistan
                                Cooperative Agreement No. 391-A-00-03-01000-00, Managed by RTI International,
                                for the Period December 4, 2002, to September 30, 2007

     FY 2010

08/31/10       5-391-10-012-P   Audit of USAID/Pakistan’s Family Advancement for Life and Health Program
08/04/10       G-391-10-001-R   Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant
                                Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness Support
                                Fund, for the Period February 3, 2006, to June 30, 2009
06/28/10       5-391-10-010-P   Audit of USAID/Pakistan’s Primary Healthcare Revitalization, Integration and
                                Decentralization in Earthquake-Affected Areas Project
06/28/10       5-391-10-001-S   Review of USAID’s Internally Displaced Persons Programs in Pakistan
05/18/10       5-391-10-033-R   Financial Audit of the College Improvement Program, USAID/Pakistan Grant
                                Agreement No. 391-G-00-04-01036-00, Managed by Forman Christian College,
                                Lahore, for the Period July 1, 2007, to June 30, 2009
04/30/10       5-391-10-029-R   Financial Audit of the Developing Non-Bankable Territories for Financial Services
                                Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00,
                                Managed by Khushhali Bank, for the Year Ended December 31, 2008
03/24/10       5-391-10-026-R   Closeout Financial Audit of the Improved Pakistani Family Planning and Reproductive
                                Health Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-
                                01016-00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for
                                the Period July 1, 2007, to December 31, 2007




62                                                     USAID OIG Afghanistan and Pakistan Oversight Report
02/11/10      5-391-10-020-R   Closeout Financial Audit of the Aga Khan University Examination Board,
                               USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01003-00, for the Period
                               January 1, 2007, to December 31, 2007
01/28/10      5-391-10-005-P   Audit of USAID/Pakistan’s Capacity Building for the Federally Administered Tribal
                               Areas Development Program
12/22/09      5-391-10-012-R   Financial Audit of USAID Funds Managed by Children's Global Network Pakistan
                               (Guarantee) Limited for the Year Ended June 30, 2008

    FY 2009

08/13/09      5-391-09-006-N   Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement
                               Nos. 391-005-ES-05 and 391-005-ES-06, Managed by the Ministry of Finance,
                               Government of Pakistan, for the Years Ended June 30, 2006, and 2007
06/25/09      5-391-09-013-R   Financial Audit of the Developing Non-Bankable Territories for Financial Services
                               Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00,
                               Managed by Khushhali Bank, for the Period January 1 to December 31, 2007
05/11/09      5-391-09-002-N   Financial Audit of USAID/Pakistan’s Rupee Trust Fund for Operating Expenses, for
                               Fiscal Years Ended September 30, 2005, and 2006
04/30/09      5-391-09-008-R   Financial Audit of the College Improvement Program, USAID/Pakistan Grant
                               Agreement No. 391-G-00-04-01036-00, Managed by Forman Christian College,
                               Lahore, for the Period August 23, 2004, to June 30, 2007
04/30/09      5-391-09-001-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                               Financial Audit Conducted by A.F. Ferguson & Co. of the College Improvement
                               Program, USAID/Pakistan Grant Agreement No. 391-G-00-04-01036-00, Managed by
                               Forman Christian College, Lahore, for the Period August 23, 2004, to June 30, 2007
04/29/09      5-391-09-007-R   Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan
                               Cooperative Agreement No. 391-A-00-03-01003-00, for the Period January 1, 2006,
                               to December 31, 2006
12/15/08      5-391-09-006-R   Financial Audit of the Interactive Teaching and Learning Program in Pakistan,
                               USAID/Pakistan Cooperative Agreement No. 391-A-00-06-01075-00, Managed by the
                               Children’s Resources International Pakistan (Guarantee) Limited, for the Period
                               March 1, 2006, to June 30, 2007
11/25/08      5-391-09-001-P   Audit of USAID/Pakistan’s Earthquake Reconstruction Activities

    FY 2008

09/26/08      5-391-08-035-R   Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
                               Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-
                               00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the
                               Period July 1, 2006, to June 30, 2007
09/25/08      5-391-08-034-R   Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
                               Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-
                               00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the
                               Period July 1, 2005, to June 30, 2006




USAID OIG Afghanistan and Pakistan Oversight Report                                                                63
09/19/08       5-391-08-032-R   Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
                                Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-
                                00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the
                                Period July 1, 2004, to June 30, 2005
08/27/08       5-391-08-030-R   Closeout Financial Audit of the Rewarding Innovation at the District Level Program,
                                USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01015-00, for the Period
                                July 1, 2005, to March 31, 2006, and the Establishing Tent Schools and Cash for Work
                                Program, Grant Agreement No. 391-G-00-06-0169-00, for the Period December 9,
                                2005, to June 15, 2006, Managed by Rural Support Programmes Network
08/20/08       5-391-08-005-N   Financial Audit of the Technical Assistance and Training to Improve Project and
                                Financial Management of Provincial and District Health and Population Welfare
                                Services in Pakistan Project, USAID/Pakistan Limited Scope Grant Agreement No.
                                391-G-00-04-01020-00, Managed by the Options Consultancy Services Limited–
                                Technical Assistance Management Agency, for the Period January 1, 2004, to
                                March 31, 2006
08/15/08       5-391-08-029-R   Closeout Financial Audit of the Enterprise Development Facility Program,
                                Cooperative Agreement No. 391-A-00-03-01010-00, Managed by the Pakistan
                                Poverty Alleviation Fund, for the Period July 1, 2006, to September 30, 2007
07/02/08       5-391-08-027-R   Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan
                                Cooperative Agreement No. 391-A-00-03-01003-00, for the Period January 1, 2005,
                                to December 31, 2005
04/15/08       5-391-08-017-R   Financial Audit of the Developing Non-Bankable Territories for Financial Services
                                Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00,
                                Managed by Khushhali Bank, for the Period January 1, 2005, to December 31, 2006
03/28/08       5-391-08-004-P   Audit of USAID/Pakistan’s Education Sector Reform Assistance Program

     FY 2007

09/28/07       5-391-07-024-R   Financial Audit of the 4-Year Bachelor’s Degree Program, USAID/Pakistan Grant
                                Agreement No. 391-G-00-04-01036-00, Managed by Forman Christian College,
                                Lahore, for the Period July 1, 2005, to June 30, 2006
08/22/07       5-391-07-023-R   Financial Audit of the Enterprise Development Facility Program, Cooperative
                                Agreement No. 391-A-00-03-01010-00, Managed by the Pakistan Poverty Alleviation
                                Fund, for the Period July 1, 2005, to June 30, 2006
07/25/07       5-391-07-020-R   Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
                                Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-
                                00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the
                                Period November 7, 2003, to June 30, 2004
05/23/07       5-391-07-005-P   Audit of Selected Activities Under USAID/Pakistan’s Basic Health Program

05/03/07       5-391-07-014-R   Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan
                                Cooperative Agreement No. 391-A-00-03-01003-00, for the Period July 1, 2003, to
                                December 31, 2004




64                                                    USAID OIG Afghanistan and Pakistan Oversight Report
02/22/07      5-391-07-010-R   Financial Audit of the Fulbright-USAID Scholarship Program, Grant Agreement No.
                               391-G-00-04-01035-00, Managed by the United States Educational Foundation in
                               Pakistan, for the Period September 1, 2004, to August 31, 2005
01/12/07      5-391-07-007-R   Financial Audit of the Enterprise Development Facility Program, Cooperative
                               Agreement No. 391-A-00-03-01010-00, Managed by the Pakistan Poverty Alleviation
                               Fund, for the Period October 1, 2003, to June 30, 2005
01/12/07      5-391-07-006-R   Financial Audit of the 4-Year Bachelor’s Degree Program, USAID/Pakistan Grant
                               Agreement No. 391-G-00-04-01036-00, Managed by Forman Christian College,
                               Lahore, for the Period August 23, 2004, to June 30, 2005
10/06/06      5-391-07-001-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                               Financial Audit Conducted by KPMG Taseer Hadi & Co. of the Aga Khan University
                               Examination Board, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-
                               01003-00, for the Period July 1, 2003, to December 31, 2004

    FY 2006

09/27/06      5-391-06-033-R   Financial Audit of the Developing Non-Bankable Territories for Financial Services
                               Project, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00,
                               Managed by Khushhali Bank, for the Period October 1, 2003, to December 31, 2004
09/26/06      5-391-06-003-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                               Financial Audit Conducted by Ford Rhodes Sidat Hyder & Co., Pakistan, of the
                               Improved Pakistani Family Planning and Reproductive Health Services Program,
                               USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
                               Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period
                               November 7, 2003, to June 30, 2004
09/26/06      5-391-06-032-R   Financial Audit of the Rural Support Programmes Network USAID Grant Rewarding
                               Innovations at the District Level, Agreement No. 391-A-00-03-01015-00, for the
                               Period Ended June 30, 2005
09/13/06      5-391-06-031-R   Financial Audit of the Rural Support Programmes Network USAID Grant Rewarding
                               Innovations at the District Level, Agreement No. 391-A-00-03-01015-00, for the 9-
                               Month Period Ended June 30, 2004
05/11/06      5-391-06-020-R   Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
                               Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-
                               00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the
                               Period November 7, 2003, to June 30, 2004
01/10/06      5-391-06-003-N   Financial Audit of USAID/Pakistan’s Rupee Trust Fund for Operating Expenses, for
                               Fiscal Years Ended September 30, 2002, 2003, and 2004

    FY 2004

10/30/03      5-391-04-001-S   Risk Assessment of Major Activities Managed by USAID/Pakistan

    FY 2003

01/07/03      0-000-03-001-F   Audit of USAID’s Bureau for Asia and the Near East Monitoring of the Government
                               of Pakistan’s Compliance With the Provisions of USAID Grant No. 391-K-005



USAID OIG Afghanistan and Pakistan Oversight Report                                                            65
Appendix 6 – Summaries of Performance Audit and Review
Findings, FYs 2010-2012
The following pages provide summaries of OIG performance audit and review findings from
October 1, 2009, to the end of the last reporting period, December 31, 2011. Report summaries are
presented by country with the most recent performance audits and reviews noted first.

Afghanistan

Review of Responses to Internal Audit Findings on the Local Governance and Community Develop-
ment Project (Report No. F-306-12-001-S, December 26, 2011)

Launched in October 2006, the Local Governance and Community Development Project sought to promote
stability in Afghanistan. Focused in Kandahar City and the Maywand District, Development Alternatives Inc.
(DAI) implemented the project through a contract that ended in August 2011.

The project had many successes, including the completion of more than 2,500 community stabilization
projects; generation of immediate short-term employment totaling 1.5 million employment days through
cash-for-work activities; and completion of significant and lasting improvements in rural infrastructure,
including gravel roads, footbridges, and irrigation systems. However, in March 2011, OIG received a copy of
a DAI internal audit report detailing financial and internal control problems occurring from August 2008
through August 2009. DAI had not provided this report to USAID or returned any funds related to
questioned expenditures identified in the report.

Procurements for the project, including service contracts, fuel supply, and building and vehicle leasing had
several deficiencies. For instance, analysis of payment vouchers and the associated procurement documents
revealed $2,019,036 in noncompetitive procurements. In addition, OIG’s review of leases for office space
and guesthouses, at an amount of $6.7 million over 4½ years, revealed that project personnel had entered
into several leases without the required competition, and without required approvals. In addition, some
rental payments were apparently made to the project cashier, instead of to the lessors identified in the lease
agreements. DAI staff explained that because many of the property owners did not have bank accounts,
lease payments needed to be in cash. OIG found no documentation showing that the lessors had signed for
receipt of their monthly rents.

Furthermore, OIG determined the contract files for three vehicle leasing companies lacked preaward
documents, bid solicitations, other vendors’ quotations, and approvals from DAI procurement managers. In
one incident, a bid submitted for one procurement (to provide armored and unarmored vehicles) was
copied and included as proof of competitive bidding in another procurement, and correction fluid had been
used to obscure relevant information. DAI staff members were also unable to locate the contract file,
payment vouchers, or project receipts for fuel purchases totaling $3,424,400 from Khyber Afghan
Petroleum, one of DAI’s suppliers. DAI staff had no explanation for this lack of documentation.




66                                                  USAID OIG Afghanistan and Pakistan Oversight Report
Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative for the Southern Region (Report No.
F-306-12-001-P, November 13, 2011)

In June 2009, the USAID’s OTI signed a 3-year, $159.6 million contract with Chemonics International Inc.
(Chemonics) to implement the Afghanistan Stabilization Initiative for the Southern Region (ASI-SR). ASI-SR
implemented project activities through grants in districts and municipalities in Kandahar and Helmand
Provinces.

OIG was unable to reach a conclusion about whether the program as a whole was achieving its goal because
of multiple issues with the program. Many of these problems stemmed from program implementation,
which was delayed by a lack of formal work plans, inadequate OTI oversight, staffing difficulties, and poor
quality subcontractors. In addition, Chemonics did not properly manage its budget and began running out of
funds in the first quarter of FY 2011.

Some security costs incurred for the initiative were questionable. Chemonics paid $1.2 million for personal
security details for staff members who lived on military bases and traveled exclusively in military convoys,
even though no other contractor incurred this type of cost when the contractor’s staff members resided on a
military installation.

Furthermore, Chemonics officials stated that the company had leased 13 armored vehicles because it felt the
vehicles were needed to provide sufficient security. However, Chemonics’ security personnel prohibited
expatriate staff from traveling into the field, and to maintain a low profile, local staff members were using
unarmored vehicles. In addition, vehicle leasing costs were unreasonably high.

The long-term benefits of the initiative were also undercut by a lack of planning. Although some key
districts were ready for longer-term development projects, no comprehensive plans were in place to guide
this transition. Without a comprehensive transition plan to prepare for longer-term development, key
districts may not be able to sustain gains in stability, as district governors may not have the resources to
meet the needs of their communities.

Financial controls were also problematic. For example, Chemonics used cash to make large tax payments to
the Afghan Government, increasing the risk that a payment may be stolen. In May 2011, an employee sent to
a bank in Lashkar Gah with $62,398 to pay taxes to the Ministry of Finance disappeared with the money.
Although most of the money was ultimately recovered, this incident exposed weaknesses in Chemonics’
internal controls.

Audit of USAID/Afghanistan’s On-Budget Funding Assistance to the Ministry of Public Health in
Support of the Partnership Contracts for Health Services Program (Report No. F-306-11-004-P,
September 29, 2011)

In 2008, USAID signed an implementation letter with the Government of the Islamic Republic of Afghanistan
to provide the mission’s first core-budget funding assistance to the Ministry of Public Health (MoPH) in
support of the Partnership Contracts for Health Services Program. Under this program, the mission planned
to provide MoPH with up to $236 million in budget assistance over 5 years to support the delivery of
standardized health services in more than a dozen target provinces. In 2009, MoPH awarded $80 million in



USAID OIG Afghanistan and Pakistan Oversight Report                                                       67
contracts to ten nongovernmental organizations (NGOs). These NGOs were responsible for providing
standardized health services in more than 500 health facilities and 5,500 health posts throughout the target
provinces.

OIG’s audit found that sustainability of the program was a concern. The government’s extremely low
contribution to healthcare raises questions about the long-term viability of health services. With shrinking
donor support in the foreseeable future, the Afghan Government’s ability to increase healthcare coverage to
90 percent of the population appears unlikely, while its ability to sustain the current level of coverage
remains uncertain. Unless the Afghan government is able to generate sufficient revenue to cover its
healthcare costs, the health sector’s dependency on donor support will continue.

Although the program has contributed to increasing access to and use of health services, OIG noted
deficiencies in quality at all health facilities visited. Doctors and staff at several facilities complained that the
volume of patients was up to double their capacity to handle. Patients sometimes waited up to 5 hours
before receiving medical services, and others would go home without receiving treatment. Some of the
health facilities had old equipment that needed repair or replacement. One health facility had a newly
donated anesthesia machine, but the responsible NGO ignored repeated staff requests for training on the
equipment. Several of the buildings were in poor condition, requiring repairs, renovation, and painting.

Program management also needs to be tightened. Confusion over who responds to MoPH’s technical
inquiries has led to delayed responses or inadequate feedback from USAID. In addition, the mission has
limited experience in managing on-budget assistance activities. In fact, when trying to resolve the problem
of consistently late payments to the NGOs, Ministry and USAID staff had difficulty explaining the lengthy and
complicated process, and OIG could not find anyone who could explain the process from start to finish. Staff
attempted to explain the process within their own areas of responsibility, but they contradicted one another,
and most were not sure what happened outside of their own areas.

Review of USAID/Afghanistan’s Afghanistan Civilian Assistance Program (Report No. F-306-11-005-S,
August 31, 2011)

The Afghan Civilian Assistance Program was designed to assist Afghan families and communities that have
suffered losses as a result of military operations against insurgents and the Taliban. The program is
implemented through a $76 million, 4½-year cooperative agreement with the International Organization for
Migration (IOM). Program beneficiaries are generally given in-kind assistance, often in the form of kits that
include food, household items, school supplies, or tools and equipment for agriculture or small business
activities.

IOM did not properly manage commodities under the program. Large quantities of flour, beans, rice, tomato
sauce, and cooking oil that had expired were found, some with dates as far back as 2004. Rats had gnawed
open dozens of food bags, and auditors noted feces inside and around the bags. Further, expired and
contaminated food items were not segregated from food that was fit for use. Other items, such as
wheelbarrows and shovels, were stored in disorganized piles or even kept outside.

In addition to problems with commodities, there were also difficulties with verifying beneficiaries. A report
commissioned by IOM to confirm assistance concluded that at least 34 percent of the beneficiaries in two



68                                                      USAID OIG Afghanistan and Pakistan Oversight Report
districts could not be verified, most likely because of fraud. Moreover, the report’s authors believed that
program personnel were actively working to undermine the results of their investigation. Additionally,
other funds were misspent when IOM used more than $3.6 million in program funds to purchase cars for
beneficiaries without USAID’s approval. Furthermore, OIG determined that $180,000 embezzled by field
staff had not been properly been reimbursed to USAID.

Audit of USAID/Afghanistan’s Support to the Electoral Process (STEP) and Support for Increased
Electoral Participation in Afghanistan (IEP) Programs (Report No. F-306-11-003-P, June 19, 2011)

To help strengthen Afghanistan’s electoral system, USAID/Afghanistan has provided assistance through the
STEP Program implemented under a contract with the International Foundation for Electoral Systems, and
the IEP Program implemented through a cooperative agreement with the Consortium for Election and
Political Process Strengthening.

The STEP program has achieved many short term objectives—in particular, those dealing with civic
education and outreach, training, and staffing of the Independent Election Commission and the Electoral
Complaints Commission. The program has helped to increase the capacity of both commissions to
administer elections and has contributed to the credibility of elections themselves.

The IEP program has also performed well, training tens of thousands of Afghans who participated in
elections as political party or coalition members and election observers. Furthermore, IEP implemented
civil and voter education programs that reached hundreds of thousands of people.

Despite these accomplishments, however, no persuasive evidence exists that these short-term results have
produced increased citizen awareness of the electoral process or a stronger democratic political party
system. In fact, auditors reported on a number of longer-term issues that need to be addressed to better
ensure credible elections, including legal reforms to protect the independence of the Electoral Commission
and Electoral Complaints Commission, reform of the “single nontransferable vote” system of representation
in favor of a system in which votes and electoral results have a more predictable and proportional
relationship, actions to make Afghanistan’s electoral system more sustainable, and a more reliable voter
registry.

Moreover, costs could have been reduced by consolidating consortium expenses. Specifically, each
consortium participant had its own Kabul-based home office, living quarters, and support functions such as
security, human resources, and information technology. Combining these costs would have saved the
mission a combined 15 percent to 20 percent, or $6 million to $8 million.

Review of USAID/Afghanistan’s Portion of the Embassy Air Program (Report No. F-306-11-004-S,
June 9, 2011)

On January 4, 2010, USAID awarded Aircraft Charter Solutions Inc. a 2-year, $361 million contract to supply
air transportation in Afghanistan. The contractor provided aircraft, personnel, equipment, tools, material,
maintenance, spare parts, and supervision for transportation to and from various locations in the country.
The aircraft provided by the contractor include seven 18-passenger Beechcraft 1900s, three 8-passenger
Beechcraft Super King Air 200s, two Bell 412 helicopters, and four MI-8 helicopters.



USAID OIG Afghanistan and Pakistan Oversight Report                                                     69
OIG’s review found that the USAID-funded portion of the Embassy Air program was providing safe and
reliable air service in support of provincial reconstruction teams and other U.S. Government development
assistance programs in Afghanistan; however, the review identified many opportunities for improvement.
For instance, between February 2010 and January 2011, 20 percent of passengers (almost 10,000 people)
with reservations on Embassy Air did not appear for their flights but did not cancel 24 hours in advance as
required. There was no penalty for these passengers, and with a cancellation system in place, these seats
could have been offered to others. Additionally, unapproved international travel by Aircraft Charter
Solutions personnel led to more than $525,000 in questioned costs.

Furthermore, Aircraft Charter Solutions did not provide the mission with required work plans, performance
management plans, or progress reports that would detail problems encountered or resolved, best practices,
flights or activities completed, or performance standards. Without these reports, the mission was unable to
monitor the program effectively.

OIG also noted that USAID markings were missing from all of the aircraft and that environmental
requirements for the contract were ambiguous and needed to be updated.

Audit of USAID/Afghanistan’s Construction of Health and Education Facilities Program (Report No. F-
306-11-002-P, March 27, 2011)

To help respond to unmet health and education needs in Afghanistan, USAID/Afghanistan entered into a $57
million cooperative agreement with IOM in January 2008, effective through January 2011, to implement the
Construction of Health and Education Facilities Program. The agreement was subsequently extended
through June 2012.

The objective of the audit was to determine whether USAID/Afghanistan’s program was achieving its main
goals of strengthening the Government of the Islamic Republic of Afghanistan’s (GIRoA’s) ability to provide
health services to its citizens and train competent teachers by constructing provincial hospitals, midwife
training centers, and provincial teacher training colleges.

While the mission has realized some successes—for example, in strengthening the capacity of local
construction companies and adhering to the international building code—the program was not on schedule
to achieve its main goals. Construction fell significantly behind schedule. The program was approximately
18 months behind schedule and was making slow progress toward achieving its goals. Cost and security
issues reduced the scope of new construction. Achievement of the original goals of the agreement was
hindered by funding limitations. Federal requirements also were violated when the mission approved the
building of religious structures. IOM’s technical proposal clearly indicated that these religious structures
would be incorporated into the designs of the provincial teacher training colleges, but USAID staff failed to
recognize these structures as being ineligible for USAID funding.

The audit disclosed several instances of noncompliance with IOM’s quality control manual, which is
incorporated into the cooperative agreement and approved by the mission. The manual required specific
tests of construction materials to be performed at specified intervals, but we noted instances where there
was no evidence that required tests were performed. For example, of 49 cases we reviewed in which 7-day



70                                                  USAID OIG Afghanistan and Pakistan Oversight Report
concrete compression strength tests were required, IOM could only provide evidence that 35 were
performed.

Additionally, facility sustainability was questionable. The ability of the Ministries of Education and Public
Health to maintain completed structures was questionable because of competing priorities for ministry
funds, which could further hinder achievement of the program’s main goals.

Review of USAID/Afghanistan’s Bank Supervision Assistance Activities and the Kabul Bank Crisis
(Report No. F-306-11-003-S, March 16, 2011)

Since 2003, USAID/Afghanistan has supported a number of capacity-building activities at the Afghanistan
Central Bank (DAB) to help DAB regulate the banking sector. Deloitte provided DAB technical assistance in
bank supervision and examination through a $92 million task order for the Economic Growth and
Governance Initiative, which includes many activities in addition to bank supervision and examination. The
purpose of the task order was to increase Afghanistan's ability to develop and implement sound economic
and regulatory policies that provide the foundation for private sector growth in a market economy.
According to Deloitte's work plan, one of the main goals of the assistance Deloitte provided to DAB was to
assist DAB in fulfilling its statutory responsibilities―to promote the stability and contribution to economic
growth of the financial sector and to prevent avoidable losses. Deloitte provided onsite technical advisors at
DAB’s Directorate for Financial Supervision.

After depositors’ run on Kabul Bank, senior officials in the U.S. Embassy raised concerns about Deloitte’s
performance. Specifically, they were concerned that Deloitte staff did not warn the U.S. Government about
looming problems at Kabul Bank before the first news reports broke in February 2010. They also
questioned Deloitte’s effectiveness and performance because Deloitte staff had provided bank supervision
assistance to DAB for 7 years, yet DAB supervisors were unable to prevent the near collapse of Afghanistan's
largest bank. In January 2011, USAID/Afghanistan requested OIG assistance in determining whether USAID
or Deloitte staff members were negligent in failing to report Kabul Bank fraud.

In response to USAID/Afghanistan’s request, OIG conducted this review to determine what opportunities
USAID and contractor staff had to learn of fraudulent activities at Kabul Bank through USAID’s Economic
Growth and Governance Initiative and its predecessor, the Economic Growth and Private Sector
Strengthening Activity. The review also sought to determine how staff learned of the fraud and what actions
they took once they became aware of the fraud.

The audit found that BearingPoint and Deloitte advisers who were embedded at DAB encountered fraud
indications at Kabul Bank on a number of occasions over a span of 2 years before the run on Kabul Bank in
early September 2010. However, they did not aggressively follow up on indications of serious problems at
Kabul Bank. Also, Deloitte advisers did not report fraud indicators at Kabul Bank to USAID, and the mission
did not have a policy requiring contractors and grantees to report indications of fraud in host government
institutions or possible problems that could reasonably be considered to be of foreign policy interest to
USAID and the U.S. Government. OIG auditors also concluded that USAID/Afghanistan’s management of its
task order with Deloitte was weak. If senior program managers and technical experts had been on staff at
the mission, USAID would have had greater capacity to detect deficiencies in Deloitte's technical assistance




USAID OIG Afghanistan and Pakistan Oversight Report                                                        71
activities, to question Deloitte advisers' written and oral reports, and to delve more deeply into those
reports, rather than accepting them at face value.

In hindsight, Deloitte’s lead adviser acknowledged that Deloitte should have taken more aggressive actions
in November 2009, such as resuming participation by Deloitte’s advisers in onsite bank examinations
alongside the DAB examiners. This practice was suspended in November 2008 because an adviser received
death threats. The lead adviser said that if Deloitte’s onsite assistance had restarted in November 2009, the
fraud could have been detected earlier, and the magnitude of losses would have been smaller.

Review of Cash Disbursement Practices Employed by Selected USAID/Afghanistan Contractors and
Grantees (Report No. F-306-11-002-S, March 7, 2011)

In late 2001, following decades of conflict, the financial and banking systems of Afghanistan were
devastated. Afghanistan had six licensed, state-owned commercial banks that were almost entirely based in
Kabul and, to a large extent, inactive. Besides lacking connectivity and reliable information on assets and
liabilities, the banks did not follow generally accepted accounting standards. Vital functions of the central
bank were not defined or carried out, and Afghanistan lacked a credible, formal payment system. The lack of
confidence in the banking system and uncertainties and difficulties faced by the population and the business
sector led them to rely almost exclusively on the hawala money transfer system, an informal network of cash
brokers who operate based on trust and reputation.

OIG examined the cash disbursement practices of ten USAID contractors and grantees. Selected contractors
and grantees represented about 42 percent of USAID/Afghanistan’s total active awards ($3.4 billion) and
included six of the mission’s program areas: infrastructure, democracy and governance, education, health,
economic growth, and stabilization in support of the U.S. Government’s counterinsurgency strategy. Using
an OIG risk assessment of USAID/Afghanistan’s contractors and grantees, we evaluated internal controls
over cash disbursements, performed a walk-through of the cash voucher payment process, reviewed a
judgmental sample of cash vouchers and supporting documents, identified areas for improvement, and
noted best practices employed.

According to information provided by the selected implementing partners, they made $13.5 million in cash
payments in 2010, representing 7 percent of the $181.1 million in total costs they incurred in Afghanistan.
For individual implementing partners, cash payments as a percentage of total costs incurred in Afghanistan
ranged from 2 percent to 69 percent. The types of costs paid in cash included office supplies, local travel,
prepaid phone cards, utilities, and maintenance. The implementing partners that had a higher percentage of
costs paid in cash also used cash for programmatic activities such as small grants, cash-for-work programs,
and microfinance loans.

Overall, OIG auditors determined that audited cash expenditures were reasonable, allocable, and allowable.
However, no controls can completely eliminate the risk of fraud, loss, and personal harm to staff associated
with handling and transporting cash in a war zone. And, following the review, five of the ten selected
implementing partners took steps to reduce their cash exposure risk by proactively seeking ways to make
payments through electronic funds transfers, check, or hawala transfers. The selected implementing
partners also implemented a number of best practices for managing cash disbursements that other
USAID/Afghanistan implementing partners should consider adopting.



72                                                  USAID OIG Afghanistan and Pakistan Oversight Report
Audit of USAID/Afghanistan’s Agriculture, Water, and Technology Transfer Program (Report No. F-
306-11-001-P, February 13, 2011)

According to USAID/Afghanistan, nearly 80 percent of Afghans earn their living from agriculture.
USAID/Afghanistan’s active agriculture and alternative livelihoods programs, with reported obligations of
$701 million and disbursements of $494 million as of September 30, 2010, are intended to create jobs and
increase incomes in the agricultural sector and increase Afghans’ confidence in their government,
particularly in the Ministry of Agriculture, Irrigation and Livestock. One such program, the Afghanistan
Agriculture, Water, and Technology Transfer Program, is implemented through a $20 million cooperative
agreement with New Mexico State University (NMSU).

The objective of this audit was to determine whether the program was achieving its main goals, which dealt
with irrigation water management, agricultural technology transfer, and institution building. Two-and-a-
half years into the 3-year program, NMSU had achieved a number of successes in introducing new
agricultural and water technologies, and many farmers were participating in on-farm demonstrations of
these technologies. Auditors found some evidence of demand for these new technologies—laser land
leveling being the clearest example—but adoption of the technologies remained in the future.

Financial records for the program showed that about 61 percent of spending was in Afghanistan, while the
other 39 percent was in the United States. Officials connected with the program raised concerns that the
high proportion of expenditures in the United States left fewer resources available for activities in
Afghanistan and raised other questions about the financial management of the program. To address these
issues, OIG contracted with an audit firm to conduct financial audits of NMSU and its partner universities in
the United States and issued a separate report with audit results.

USAID’s cooperative agreement with NMSU also established the development of an institutional framework
for effective supply and demand management of the country’s limited water resources as a key objective.
NMSU demonstrated a number of water-conserving technologies and successfully stimulated demand for
some of them. However, farmers had not adopted these technologies for wider use, and NMSU placed
relatively little emphasis on improving distribution of irrigation water resources.

NMSU’s efforts had not yet resulted in a more equitable, community-based system for managing irrigation
water. NMSU officials noted that the water-conserving technologies that they introduced could make more
water available for farmers at the tail of irrigation canals. For this to occur, however, the technologies must
be widely adopted, and evidence of adoption of these technologies was lacking.

Review of USAID/Afghanistan’s Ministerial Assessment Process (Report No. F-306-11-001-S,
November 6, 2010)

The U.S. Government planned to deliver 50 percent of its development aid to Afghanistan through GIRoA’s
core budget by the end of calendar year 2011. With this expectation, USAID/Afghanistan conducted a series
of preaward assessments of GIRoA ministries to see whether the ministries could responsibly manage U.S.
Government resources. A preaward assessment (sometimes called a preaward survey or preaward audit)
involves inquiries, observations, and tests to see whether the assessed entity has the requisite procedures,




USAID OIG Afghanistan and Pakistan Oversight Report                                                         73
internal controls, experienced personnel, and other resources needed to manage U.S. Government funds
responsibly.

OIG’s review—which focused on assessments already performed by USAID/Afghanistan, as well as draft
scopes of work for future assessments—found that those conducted did not provide reasonable assurance of
detecting significant vulnerabilities. The scope of the assessments varied from one ministry to another, but
some significant limitations existed. For example, reviewers did not know what programs the ministries
would be asked to manage and could not therefore address the ministries’ capacity in these areas. In
addition, none of the assessments explicitly considered the control environment in Afghanistan or in
individual ministries (e.g., the existence of widespread impunity or the ability of high-level officials to
interfere with law enforcement institutions and processes).

OIG found a need for more testing to see whether internal control procedures were followed. In addition,
more coverage of controls over fixed assets and payroll and attendance was required. Reviewers needed
more guidance on how to assess compliance with applicable laws and regulations, and more extensive
USAID supervisory review of assessment reports was also required.

Audit of USAID/Afghanistan’s Support to the American University of Afghanistan (Report No. 5-306-
11-002-P, November 5, 2010)

The Afghan Constitution and Civil Code, which took effect in July 2004, chartered the American University of
Afghanistan to provide a high-quality education that meets international standards and emphasizes a liberal
arts curriculum and higher education for the professions (e.g., offering courses in business English,
information technology, leadership, and business management).              The university began offering
undergraduate courses and professional programs in September 2006.

To assist in the university’s development, USAID/Afghanistan entered into a $42 million cooperative
agreement with the university in August 2008, effective through July 2013.

OIG’s audit found that the university, with USAID/Afghanistan’s support, had increased student enrollment
and improved school infrastructure, although the development of a new campus was behind schedule. The
university had increased the number of qualified staff, one of the program goals. However, the university
had not made progress in becoming self-sustaining. Despite increasing revenue from student tuition, it was
struggling with fund-raising, which is essential for sustainability. As of May 2010, AUAf had raised only
$4.5 million of the $14 million required and only $2.2 million had been collected, the remainder consisting
only of pledges. Additionally, although the university planned to raise $23 million in capital for the
construction of the new campus, as of May 2010, AUAf had identified only two donors; therefore, OIG
questioned whether AUAf will become self-sustaining after U.S. Government funding ceases.

The audit found that the university was also behind schedule in reforming its undergraduate program,
which is making it less competitive with other private universities in Afghanistan. Furthermore, the
University’s Professional Development Institute had poor attendance because students lacked interest, and
most of the reviewed course syllabi contained no written completion requirements. Because the university
had not submitted required planning documents, including its second-year budget, the mission was
withholding additional funding. Further, the university was unlikely to meet its goal of increasing



74                                                 USAID OIG Afghanistan and Pakistan Oversight Report
enrollment of women to 30 percent; Afghan cultural norms make families unwilling to send girls to an
American higher education facility because of the stigma against associating with people from other
countries.

In addition to documenting funding and curriculum problems, OIG found that the university did not follow
environmental procedures in construction of the new campus or in renovations of existing facilities.

Audit of USAID/Afghanistan’s Partnership for Advancing Community-Based Education in Afghanistan
(PACE-A) (Report No. 5-306-11-001-P, October 28, 2010)

PACE-A is a 5-year program to expand quality learning and life opportunities for marginalized communities
and their children in Afghanistan. The program’s core objectives are to expand access to community-based
schools, strengthen community structures and processes that support basic education, and improve the
quality of community-based education. Under this agreement, the program’s activities were expected to
directly benefit a total of 93,240 students—of whom at least 60 percent were to be girls or women—in over
1,000 communities in 90 districts and 20 provinces.

Although the majority of program activities involved primary education classes covering grades 1 through 6,
the program also offered other types of classes, including early childhood development and adult literacy,
for learners younger or older than primary school age (7 to 12 years old).

The audit determined that while the program was partially achieving its goals but was not offering its
teachers basic training to ensure that their students received a quality education. Results data reported on
this and other program areas also were not adequately supported. In addition, efforts to integrate the
program’s primary classes into the Ministry of Education system were not always implemented effectively.

According to PACE-A’s progress report for the quarter ending March 31, 2010, program activities to date
had resulted in the establishment of 3,695 classes attended by 98,212 students—the majority of whom were
girls—in a total of 1,672 communities located in 97 districts and 19 provinces, meeting or exceeding at least
some of the program’s targets. The program has also made progress in facilitating the integration of many of
its classes into the Ministry of Education system, with 51 percent of the program’s primary classes
integrated into the school system to date.

PACE-A has not been fully achieving all of its core objectives, however. One area in which program efforts
have fallen short has been teacher training, which is the primary means of ensuring that PACE-A supported
students receive a quality education.

An examination of the records for four tested provinces also disclosed that data reported under several
performance measures relating to teacher training and other activities were not adequately supported,
partly because of recordkeeping deficiencies.




USAID OIG Afghanistan and Pakistan Oversight Report                                                       75
Review of Security Costs Charged to USAID Projects in Afghanistan (Report No. 5-306-10-002-S,
September 29, 2010)

USAID/Afghanistan relies on private security contractors (PSCs) to supply an array of security services for
contractors and grantees that implement USAID-funded projects in Afghanistan. PSCs free up military forces
for their core missions and provide protection to USAID’s implementing partners in hostile environments.
USAID/Afghanistan’s practice has been to delegate responsibility and oversight for security to its
implementing partners and factor the cost of security into their program budgets. These implementing
partners typically subcontract their security services to PSCs. USAID indirectly pays for PSCs when the
implementing partners submit their invoices, which include the cost of security services, for payment.

In the past year, news reports have said that U.S. Government funds paid to contractors for reconstruction
projects were being siphoned off to Taliban insurgents in exchange for “protection” to prevent attacks. For
example, one news article reported that USAID funds were ending up in the hands of the Taliban through a
protection racket for contractors. Another article said that in southern Afghanistan, no contract can be
implemented without the Taliban taking a cut, sometimes at various steps along the way. Other news
reports said that PSCs were involved in the negotiations with insurgents. OIG staff met with one of the
reporters involved to obtain additional details.

OIG conducted a review of Edinburgh International’s security costs charged to the following three USAID-
funded projects in Afghanistan implemented by Development Alternatives Inc.:
    Afghanistan Small and Medium Enterprises Development
    Incentives Driving Economic Alternatives for the North, East, and West
    Local Governance and Community Development (LGCD)

The review found no indication that Edinburgh International had misused USAID funds to pay the Taliban or
others in exchange for protection. However, there were indications that Afghan subcontractors working on
the LGCD project had paid insurgents for protection in remote and insecure areas of Afghanistan. The
payments were allegedly made as part of a security arrangement with local communities that very likely
included the Taliban or groups that support them.

OIG also found indications of pervasive fraud in DAI’s LGCD office in Jalalabad and indications of endemic
corruption in Nangarhar Province, where Jalalabad is located. It is conducting an investigation with
members of the International Contract Corruption Task Force, including the Special Inspector General for
Afghanistan Reconstruction and the Federal Bureau of Investigation, as well as the local Afghanistan
prosecutor’s office and the Afghanistan Major Crimes Task Force. In June 2010, DAI terminated ten LGCD
employees who were involved in the fraud scheme.

Audit of USAID/Afghanistan's Alternative Development Program Expansion, South West (Report No.
5-306-10-011-P, July 29, 2010)

The production and trafficking of illicit narcotics in Afghanistan breeds corruption and provides resources
to the Taliban, drug lords, and other terrorist groups. The U.S. Government has supported the Afghan
Government’s counternarcotics strategy of providing incentives to stop growing opium poppy through




76                                                 USAID OIG Afghanistan and Pakistan Oversight Report
alternative development projects, supporting strong disincentives in the form of provincial governor-led
eradication, interdiction, and law enforcement, and spreading the antinarcotics message.

USAID is implementing a 3-year, $75 million program (through Associates in Rural Development) to counter
illicit poppy cultivation by providing alternative development programs, improved economic opportunities,
and diverse regional economic growth.

The program has made progress. A 32 percent decrease in poppy production between 2008 and 2009 was
attributed to strong antipoppy messages from provincial governors, increased interdiction activities, an
overproduction of poppy in prior years that suppressed market prices, and provision of alternative
economic opportunities in targeted districts within each province. The implementer put in place 45 cash-
for-work projects that included road, canal, and market rehabilitations. One project provided employment
to 220 workers, while another project targeted 30 disadvantaged women, mainly widows. The program also
assisted local farmers with sales of produce totaling nearly $3.8 million. Further, it helped the Farah
Farmer’s Union, a cooperative of 8,700 growers, identify business opportunities and develop the Farah
Agricultural Center, which will provide an all-inclusive hub for market expansion and business development.

Despite the program’s progress, issues need to be addressed. First, continued reductions in poppy
cultivation may not be sustainable because no follow-on alternative development program has been
approved beyond March 2011, and a critical southern province is not included in the current
program. Second, the program experienced delays in implementation, partly because of security
issues. Also, a new embassy-led annual program review process, the restructuring of the regional
commands, and the mission’s plan to implement regional platforms presented challenges that could hamper
program implementation if not properly managed.

Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction
and Refurbishment Program (Report No. 5-306-10-009-P, June 24, 2010)

In September 2002, USAID/Afghanistan began to build and reconstruct schools and health clinics
throughout Afghanistan under the Schools and Clinics Construction and Refurbishment Program. During the
following 4 years, the mission increased the number of structures subject to the program from fewer than
100 to 776. Similarly, the number of implementing partners grew to more than a half dozen, and
disbursements under the program amounted to more than $105 million.

In October 2004, OIG audited school and health clinic reconstruction activities.3 The audit found that the
program was behind schedule, and it recommended that the mission develop a new implementation plan.

OIG contracted with KPMG Afghanistan—whose staff could travel more easily within Afghanistan—to
conduct site visits for this review. OIG provided KPMG a statistical sample of 50 buildings—30 schools and
20 clinics—from the 776 schools and clinics completed across Afghanistan under the program. The review
had two objectives: (1) to determine whether schools and clinics constructed under the program were being


3Audit of USAID/Afghanistan’s School and Clinic Reconstruction Program, Report No. 5-306-05-003-P, March 14,
2005.



USAID OIG Afghanistan and Pakistan Oversight Report                                                        77
used for their intended purposes and (2) to measure the impact of the program on the provision of
education and health services to the people of Afghanistan.

KPMG visited and inspected 50 buildings to verify their physical existence and observe how they were being
used. Overall, KPMG found that 48 of the 50 facilities were being used for their intended purposes. The two
exceptions were due to security concerns in the surrounding area and one building’s inability to
accommodate area students.

KPMG noted numerous physical deficiencies in the condition of the school and health clinic buildings. These
deficiencies included structural problems, poor hardware, lack of electrical supply (because buildings were
located in areas where electrical service is unavailable), deficient water service and plumbing (or none), and
toilet problems. However, KPMG could not determine whether the deficiencies were attributable to work
performed under the program or to a subsequent lack of maintenance.

KPMG noted that the deficiencies created an environment that was not conducive to quality education and
health services and might expose the students, patients, and staff working in those buildings to unhealthy
and even dangerous conditions. In addition, the report noted operational problems in the schools and
clinics. These problems included poor maintenance, inadequate personnel, and lack of furniture and
equipment. These conditions, however, were the responsibility of GIRoA.

To measure the impact of the program on providing educational and health services to the people of
Afghanistan, KPMG scheduled its field visits when the schools and clinics would be in use and reviewed
records and documentation maintained at each location. KPMG found that the 30 schools visited were
staffed with 1,385 teachers providing instruction to 57,744 students. The 20 health clinics visited employed
109 clinical staff and provided medical treatment to approximately 39,500 patients a month. KPMG
concluded, however, that these figures did not provide a meaningful indication of the completed buildings’
impact on the provision of education and health services in Afghanistan because baseline information was
not available for comparison.

Audit of USAID/Afghanistan’s Oversight of Private Security Contractors in Afghanistan (Report No. 5-
306-10-009-P, May 21, 2010)

USAID program implementers rely on PSCs to protect their operations in hostile environments. However,
the murder of 4 PSCs in Iraq in 2004 and the killing of 17 Iraqi civilians by PSCs in 2007 raised concerns
about failures to supervise PSCs adequately and to properly investigate alleged killings by security
contractors. In January 2008, Congress enacted detailed oversight requirements for PSCs in combat
operation areas, to be implemented by Department of Defense (DOD) regulation and the Federal Acquisition
Regulation.

OIG examined the reporting of serious security incidents, whether USAID implementing partners had
subcontracted with responsible firms, the costs of these services, and the oversight of those costs. We found
that detailed statutory oversight requirements intended to cover both non-DOD and DOD PSCs in
Afghanistan had not been implemented by USAID because the Chief of Mission had not issued mission-wide
instructions in accordance with DOD implementing regulation. As a result, USAID PSCs did not report
certain serious security incidents (e.g., persons killed or injured as a result of PSC conduct) that they



78                                                  USAID OIG Afghanistan and Pakistan Oversight Report
otherwise would have been required to report had mission-wide instructions implementing the statutory
requirements been issued. The mission-wide instructions would have also incorporated statutorily-
mandated procedures to ensure PSCs in Afghanistan are qualified and responsible. The report found such
procedures were not in place.

USAID/Afghanistan has provided only limited oversight and direction relative to standards and
requirements for security and cannot ensure that responsible security firms are employed. The audit found
that two PSCs were not licensed with the Afghan Government and that USAID/Afghanistan did not provide
subcontracting consent for 17 private security firms or include in its contracts a clause to require various
security measures. Moreover, USAID/Afghanistan has no standard grant award provision related to
security, so about one-third of its awards with subcontracted PSCs have no standard security requirements.
With respect to security costs, prime implementing partners reported that they had charged about
$167 million for subcontracted PSC services during the review period. On average, these services accounted
for 8.3 percent of award disbursements. The audit found no specific requirements applicable to this
category of costs and few requirements relative to the audit of subcontractor costs.

Audit of USAID/Afghanistan's Afghanistan Vouchers for Increased Productive Agriculture (AVIPA)
Program (Report No. 5-306-10-008-P, April 20, 2010)

The AVIPA Program was initially designed to provide wheat seed and fertilizer to drought-affected
subsistence farmers to help them increase wheat production in targeted areas of the country.

The audit found that the program had contributed to the country’s increase in wheat production; however,
the extent of the program’s role in this increase was unclear, since the audit determined that some of the
reported results were not reliable. In addition, the program’s stabilization activities in the country’s
southern region were not being implemented as widely as originally planned.

The audit identified several other problems: In addition to the lack of reliable data to measure program
results, the program suffered from insufficient oversight. The implementer could not retain staff, in part
because of death threats, and project staff members were overburdened by requests for information and
briefings from officials outside of USAID. In some cases, materials did not reach beneficiaries (a finding that
has been referred to OIG’s Office of Investigations). Moreover, the audit noted that up to $50 million in
unspent program funds could be reprogrammed for other activities.

Audit of USAID/Afghanistan’s Human Resources and Logistical Support Program (Report No. 5-306-
10-007-P, March 31, 2010)

USAID/Afghanistan launched its Human Resources and Logistical Support Program in February 2007 to help
design, monitor, and support the activities of USAID-funded contractors. The program intended to (1)
enhance capacity at selected ministries, (2) identify USAID-constructed buildings that do not meet seismic
standards, and (3) provide quality assurance and engineering oversight for mission construction projects.
USAID awarded a 5-year, $72 million contract to International Relief and Development Inc. to implement the
program.




USAID OIG Afghanistan and Pakistan Oversight Report                                                         79
The audit found that the program had made progress in capacity building within selected Afghan ministries,
identified defective USAID-built structures, and provided engineering oversight for mission construction
projects.

In support of its first goal, the program provided the Afghan Government with additional capacity. Technical
consultants hired under the program assisted Ministry of Mines personnel in preparing a proposal for the
rehabilitation of gas fields to generate electrical power for the country. Meanwhile, at the Ministry of Public
Works, program advisers initiated the development of a pilot program to teach ministry staff how to
implement and monitor road construction projects and provide them with a more efficient means of
managing and maintaining roads in the future. At the Ministry of Energy and Water, the program contractor
provided a transboundary water-rights adviser to help the ministry develop water policies for negotiations
with neighbors in other countries.

With regard to the second goal—evaluating and identifying USAID-built structures that did not meet seismic
standards—the program was successful in establishing a process for identifying structures that are not
earthquake resistant. The mission had a database of 1,474 USAID-built structures, but the database was not
complete. As of October 2009, the program had completed preliminary assessments of 468 of these
structures and detailed structural seismic evaluations of 35. At that point, the program had found 15
structures to be unsafe for occupancy.

With regard to the third goal, of providing quality assurance and engineering oversight on USAID
construction projects, the program had succeeded in providing these services for projects initiated by the
mission’s Office of Infrastructure, Engineering and Energy. However, the mission had not been so successful
in providing quality-assurance services for construction projects initiated by other program offices within
the mission.

Despite the program’s progress in addressing its three main goals, it has serious issues that need to be
addressed. The most critical issue is to identify the many defective structures that likely remain among the
estimated 1,474 mission-built structures. The total number of defective structures will be determined when
the remainder of the preliminary assessments and any subsequent detailed seismic evaluations are
completed. The mission anticipates that the contractor will complete 200 seismic evaluations by the end of
the contract. In addition, significant defects in five buildings reported in a prior Office of Inspector General
audit report (“Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program,” Report No. 5-
306-08-009-P, August 8, 2008) had yet to be corrected.

If all defective structures are not identified, and if those already identified are not repaired or rebuilt, a
catastrophic earthquake could cause many injuries and deaths.

Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers Project (Report No. 5-
306-10-006-P, January 29, 2010)

Almost 4 years into a $94 million, 5-year contract with Creative Associates International Inc. to implement
USAID’s Building Education Support Systems for Teachers project, OIG’s audit concluded that the project
was making progress in helping to improve the quality of education in Afghanistan but had not achieved its




80                                                   USAID OIG Afghanistan and Pakistan Oversight Report
two main goals: improving teaching through teacher training, and institutionalizing ministry structures and
systems that support high-quality teaching.

Afghanistan has one of the highest illiteracy rates in the world. More than 11 million Afghans over the age of
15 cannot read or write. In rural areas, where three-fourths of all Afghans live, 90 percent of the women and
over 60 percent of the men are illiterate. Under the Taliban, girls were not allowed to go to school, fewer
than 900,000 boys were enrolled, and many received religious education in lieu of academics. The
implications of this lack of education can be felt in all domains of life. Afghans have little access to
information about good health practices, and most of the country’s judges and civil servants do not have
more than a high school diploma. Today more than 5.7 million students attend school. However, the Afghan
Government is striving to improve education for its people, and the Ministry of Education worked with
USAID and other donors to implement a 5-year National Education Strategic Plan (2006–2010).

The audit found that much of the training of teachers had been completed. For example, 50,600 of the target
of 54,000 teachers in the 11 provinces had received in-service training for teachers already working for the
Ministry of Education. Although the project had not attempted to measure the extent to which teaching had
actually been improved, teachers we spoke with expressed satisfaction with the training they had
received. And much of the technical assistance to the Ministry of Education had been completed. For
example, Creative Associates had assisted in recruiting and selecting most of the 444 candidates who were
expected to help the Ministry of Education develop its capacity to improve the quality of teaching.

In addition, the audit found that district teacher training teams had been established to help conduct
training in all 11 provinces. This approach used a cascading process of training existing teachers as
instructors who in turn would train other teachers. The project teamed with subcontractors to select and
hire 181 team leaders, 1,361 team members, and 8 provincial project monitoring officers, all by December
2007. Moreover, the project developed (1) an action plan for the Ministry of Education’s 5-year strategic
plan, (2) a human resources policy manual, (3) a training curriculum for management skills, and (4) an
action plan for the integration of the Human Resources Department and the Reform Implementation and
Management Unit at the Ministry of Education.

Notwithstanding these accomplishments, the audit found that some significant tasks and activities included
in the project’s contract and work plan had not been completed. For example, the project had not completed
the curriculum development and related in-service teacher training or the accelerated program for teachers
who did not meet Ministry of Education teaching qualifications for their specific subject/grade level, as
planned under component 1 of the project. The project also did not complete some activities planned under
component 2—for example, technical assistance intended for the Ministry of Education’s Human Resources
Department, such as development of a curriculum and staff training on a human resource database; creation
of a training manual for the payroll database for budget staff; and preparation of at least one workshop on
pedagogical methods for faculty at each provincial teacher training college. The contractor hoped to
complete these efforts by the contract’s end.




USAID OIG Afghanistan and Pakistan Oversight Report                                                        81
Audit of USAID/Afghanistan’s Civilian Assistance Program (Report No. 5-306-10-004-P, December 15,
2009)

The Civilian Assistance Program is being implemented through a $27 million, 3-year cooperative agreement
(April 2007 to April 2010) with the International Organization for Migration. OIG’s audit found that the
program—which is intended to provide help to Afghan families and communities that have suffered losses
because of military operations—was not on target to assist eligible program beneficiaries.

Assistance under the program was generally provided in the form of goods and services to those who have
suffered losses—a farmer might receive a tractor or livestock and a grocer might receive merchandise to
restock his store. At the midpoint of the program, just over 800 of the more than 6,000 eligible families in
the program were receiving assistance, about 13 percent. As of January 22, 2009, the implementer reported
that it had assisted only about 40 percent of families included in its revised recovery plan, which had been
submitted just after the implementation midpoint.

In addition, until the program was halfway through, USAID officials had very limited involvement in the
program and little information about its progress. Officials had not followed up regularly on the status of
the implementer’s implementation plan, monitoring and evaluation plan, or quarterly program reports. The
mission also had not made sufficient site visits to evaluate the program’s progress and had not properly
monitored the staffing of positions for the implementing organization.

Security concerns contributed to the program’s understaffing, which continued to be a challenge at the time
of the audit. As of January 2009, a subcontractor for the implementer had hired only 56 of the 86 employees
that it believed necessary to meet program targets. At the time of the audit, the implementer’s documents
indicated that its subcontractor was still in the process of hiring 30 staff members for the 6 regional offices
where the program was being implemented. In addition, the implementer had not taken advantage of
opportunities to improve the effectiveness and efficiency of the program, such as limiting the program’s
eligibility period and requiring beneficiaries to present Afghan national identification cards.

Audit of USAID/Afghanistan’s Power Sector Activities Under Its Afghanistan Infrastructure
Rehabilitation Program (Report No. 5-306-10-002-P, November 10, 2009)

Providing electrical power to the Afghan population is crucial to Afghanistan’s development. As a key to
political stability, sufficient, reliable electrical power is especially important for both the capital city of Kabul
and the southern agricultural provinces of Helmand and Kandahar. To improve the availability of electricity
in these areas, USAID/Afghanistan awarded two major task orders under its Afghanistan Infrastructure
Rehabilitation Program to the Louis Berger Inc./Black and Veatch Special Projects Corp. Joint Venture.

OIG’s audit report highlighted problems faced by two power projects in Afghanistan—building a 105-
megawatt plant in Kabul and making improvements in the Kajakai Dam—which were intended to supply
power to key cities and provinces.

The audit concluded that, because of construction delays, USAID had not increased reliable power supplies
to these two areas within the planned timeframes. For the Kabul Power Plant, the delays were caused by an
initial inability to obtain adequate title to land for the power plant, an ambiguous statement of work



82                                                      USAID OIG Afghanistan and Pakistan Oversight Report
resulting in poor planning and implementation, subcontractor performance problems, a lack of onsite
quality assurance, and problems clearing equipment and material through customs. For the Kajakai Dam
project, deteriorating security in southern Afghanistan and inconsistent contractor performance contributed
to the delay.

By May 2009, the USAID-funded projects had completed construction of generators with the ability to
produce only 12 megawatts of power out of the original goal of 140 megawatts—and this increase in power
had not actually been delivered to the Afghan population. As a result, the economic benefits anticipated for
Kabul and the southern provinces of Helmand and Kandahar were not being realized. Additionally, the
contractor estimated that cost overruns attributable to the delays would amount to $39 million to complete
the Kabul Power Plant by December.

The audit also found that the host government might not be able to afford to operate the Kabul Power Plant
because of the rising cost of diesel fuel and the government’s inability to collect revenue for the generated
electricity. Further complicating operation of the power plant is the configuration of the Kabul transmission
system, which does not allow for the use of other power sources at times of year when those power sources
are more competitive.

With regard to subcontractor performance on the Kabul power plant, the audit found that the contractor had
charged USAID for subcontractor costs that the contractor had not paid. The contractor had not paid these
costs because of disputes and questionable claims in subcontractor invoices. The total amount the
contractor received from USAID for these questionable costs (including contractor overhead, fixed fees, and
imputed interest) amounted to an overbilling of USAID by $2.1 million.

As for the Kajakai Dam project, the original subcontractor left after its personnel received kidnapping
threats, and the project could not be completed until a new subcontractor is selected. USAID had to continue
paying the fixed costs of securing and maintaining the facility until work on the plant can be resumed. These
fixed costs amount to an estimated $1 million per month, even though none of the 35 extra megawatts of
power had been delivered.

Pakistan

Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program (Report No. G-391-12-002-P,
November 23, 2011)

To help address power blackouts and other severe supply shortages, USAID/Pakistan awarded a 3-year,
$23.5 million contract in March 2009 to the International Resources Group to focus on training in the energy
sector and on a variety of conservation activities throughout Pakistan. In April 2010, in response to a shift in
U.S. Government strategy, the mission modified the program’s goal to focus on reducing energy demand
through an activity to improve the efficiency of tube wells. This activity was designed to replace irrigation
pumps used by farmers with more energy-efficient models.

In the first year of the program, OIG found that the mission had not achieved the majority of its targets. It
had not helped any distribution companies implementing conservation strategies or any energy companies
evaluating energy efficiency, upgrading equipment, or with energy conservation plans.



USAID OIG Afghanistan and Pakistan Oversight Report                                                          83
It also had trained less than half the energy sector individuals intended.

After the shift in strategy, the mission planned to install 11,000 energy efficient irrigation pumps. Although
a pilot phase determined that the activity was unlikely to succeed, the mission proceeded with the program.
By September of 2011, less than 1,000 pumps, or 9 percent, had been installed. This was the result of
multiple problems, including the mission setting unrealistic goals and budgets. For instance, the mission
budgeted almost $1,500 per pump, but in actuality paid almost $9,000. In addition, partners and
beneficiaries often did not participate as intended. The regional energy distribution company, a key partner,
did not fully support the program and farmers would not pay the additional cost of installing the pumps,
including the costs of masonry and electrical work.

Audit of USAID/Pakistan’s Firms Project (Report No. G-391-12-001-P, November 3, 2011)

To help improve Pakistan’s economic stability, USAID/Pakistan awarded a 4-year, $89.8 million contract to
Chemonics International to implement the Firms Project. In 2010, 14 months after the project began, USAID
modified the project goal to promote economic development in vulnerable areas as an alternative to
extremism.

Despite the mission’s attempt to increase sales and employment in a number of sectors—leather, livestock,
textile, dates, and mangoes—project activities did not increase sales or employment. Efforts to boost sales
and jobs were stalled, and activities to improve competitiveness through economic policy reform were
behind schedule. This is in part because of shifts in the mission’s strategy that resulted in the cancellation of
these activities. In addition, the mission did not set realistic targets. For example, though Chemonics was
tasked with working with the Government of Pakistan to enact regulatory reform, they are not expected to
achieve this by 2013. According to Chemonics, long term reform is a 10- to 12-year process because of all of
the stakeholders involved.

The mission also focused activities around increasing sales and production of mangoes, but these activities
were a year behind schedule. Further, the implementer intended to supply processing equipment to the
mango farmers, but did not deliver them on schedule. One farmer did receive all of the equipment promised,
but was unable to operate it because a design flaw prevented its assembly.

Although a performance management plan was approved by the mission, it did not comply with Agency
standards. As a result, sales and employment figures were overstated and methods for collecting data were
inconsistent and unreliable. In addition, the contracting officer’s technical representative did not provide
sufficient monitoring and oversight, in particular for the procurement process.

For instance, the contracting officer’s technical representative did not conduct any site visits to the project
and approved over 20 invoices without knowing whether the material ordered had been received.
Consequently, the mission did not discover multiple problems in the process.




84                                                    USAID OIG Afghanistan and Pakistan Oversight Report
Audit of USAID/Pakistan’s Community Rehabilitation Infrastructure (Report No. G-391-11-006-P,
August 29, 2011)

One of the many problems facing Pakistan is poor infrastructure for delivering basic human services such as
education, health care, water supply, sanitation, electricity, and transportation. To address these issues,
USAID/Pakistan signed a 5-year, $150 million cooperative agreement with Winrock International to
implement the Community Rehabilitation Infrastructure Support Program.

OIG found that the program had made very little progress toward achieving any of the main goals of the
project. Although tasked with rebuilding or renovating up to 2,000 schools and constructing up to
350 small- to medium-sized infrastructure projects, the program was far behind schedule. Specifically, more
than 2 years after signing the agreement, the mission had completed only four minor renovations of
universities, six career centers, two design projects, and conducted two feasibility studies and the
procurement of furniture and equipment for a children’s health institute.

Part of the program’s lack of progress was due to poor program design. Although Winrock is the main
implementer, 70 percent of the award’s budget was implemented by subcontractors, who in turn also
employed subcontractors. Employing multiple subcontractors led to duplicate layers of construction
oversight. According to the mission, Winrock did not have the staff or technical expertise to monitor
subcontractors’ management of the projects effectively. In the few cases where projects were completed,
the mission often did not consider whether the project could be sustained. For instance, $900,000 worth of
furniture and equipment was delivered to the Khyber Institute of Child Health in Peshawar, but a year after
its delivery, most of the material remained in storage unused. The institute’s director said that the institute
did not have the funding to support the operations of the facility, adding that he could not even pay the
monthly electric bill. By not ensuring that the institute was viable, the mission spent more than $900,000
that could have been put to better use.

Moreover, an internal control was often bypassed to approve projects above $500,000, which according to
the project’s activity approval document, required written consent. When the new mission director did not
want to authorize the projects, the mission established an unwritten policy to bypass this step and approved
nearly $13 million in projects that did not follow the program’s objectives. Furthermore, the mission
approved cost-sharing contributions from the project that cannot be supported.

Audit of USAID/Pakistan’s Road Rehabilitation and Reconstruction Activities Under the Quick Impact
Projects in South Waziristan (Report No. G-391-11-005-P, June 20, 2011)

In 2009, the Governments of Pakistan and the United States signed a strategic agreement that provided a
commitment to help generate broad-based economic growth through infrastructure development.
According to the agreement, USAID is providing $55 million directly to the FATA Secretariat to implement
Quick Impact Projects (i.e., rebuild roads, develop water infrastructure, and improve power systems).

OIG conducted an audit of these activities in South Waziristan, part of FATA. Despite some difficulties OIG
noted with mission operations, auditors determined that the road rebuilding efforts were on track. Two
sections of road totaling 215 kilometers were completed to specifications and had met all requirements for
reimbursement by USAID. Although security issues caused some delays, work progressed on schedule.



USAID OIG Afghanistan and Pakistan Oversight Report                                                         85
Multiple site visits by officials from the local satellite office in Peshawar strengthened the management of
the road activities, and the use of fixed-amount reimbursement agreements reduced financial risk to the
program.

The FATA Secretariat hired the Frontier Works Organization (Frontier Works) of Pakistan to carry out road
activities. For additional support, Frontier Works subcontracted with the Pakistani engineering firm
National Engineering Services Pakistan Limited (NESPAK). Both Frontier Works and NESPAK have
extensive experience building roads and other infrastructure projects, and both will work on all of the Quick
Impact Projects in South Waziristan, including the water infrastructure and power systems. OIG found that
these two entities contributed to the initial success of the road activities.

Despite early successes, however, OIG found room for improvement: The scope of work for the contractor to
build the capacity of the FATA secretariat was too broad, and subsequent changes caused deliverables to be
far behind schedule. Contract files were missing critical documentation such as branding and marking
plans, site visit reports, meeting notes, and correspondence with contractors, including documentation
related to extensions and justifications. Environmental assessments did not meet regulations and caused
delays of up to 5 months. In addition, although no ethical problems arose; neither the mission nor the
contractor had ethics procedures or policies in place, as required, to ensure that employees working on
projects were aware of the USAID’s ethical standards and its position on conflicts of interest.

Audit of USAID/Pakistan’s Management of Preaward Assessments (Report No. G-391-11-004-P, May 6,
2011)

The Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73) authorized $7.5 billion in U.S.
government assistance over 5 years to promote an enhanced strategic partnership with Pakistan and its
people. In authorizing these funds, the act encourages the use of Pakistani firms and nongovernmental
organizations to work with local leaders to build local capacity. To facilitate this strategy, USAID estimated
that approximately 50 percent of fiscal year 2010 funding, or $750 million, would go through Pakistani
federal and provincial agencies and local organizations.

With the implementation of the strategy to build Pakistani capacity, concerns have been raised in the media
and the U.S. Government that providing too much money to Pakistani recipients too quickly could jeopardize
U.S. funds. USAID/Pakistan recognized the challenges and took proactive steps to address the risks. A key
step taken by the mission was to contract with international and local accounting firms to conduct preaward
assessments of potential first-time recipients. The intent of these assessments is to determine whether the
recipients can effectively manage and account for these funds.

OIG’s audit on USAID/Pakistan’s management of preaward assessments found that mission’s preaward
process provided a reasonable basis for identifying significant financial management vulnerabilities;
however, the audit noted weaknesses in the mission’s management of the preaward process. The mission
did not prioritize or follow up on significant vulnerabilities identified in assessments. Of the 28 assessment
reports completed during fiscal year 2010, the 8 selected for testing noted over 250 weaknesses in the
potential recipients’ ability to manage funds properly. The mission included 55 of the reported weaknesses
in the recipients’ agreements and stipulated that the weaknesses should be adequately addressed before or



86                                                  USAID OIG Afghanistan and Pakistan Oversight Report
after the initial disbursement of funds. The mission did not include or otherwise address the remaining 195
weaknesses because it did not have a comprehensive plan for prioritizing and determining which of the 250
weaknesses should or should not be prioritized.

Many weaknesses resulted from the mission not including in the recipients’ agreements information on the
recipients’ payment mechanisms and systems for procurement, accounting and overall monitoring and
assessment.

Audit of USAID/Pakistan’s Flood Relief Efforts as Administered by Local Nongovernmental
Organizations (Report No. G-391-11-003-P, January 24, 2011)

Heavy rainfall in multiple regions of Pakistan led to devastating flooding in July 2010. The flooding affected
82 of Pakistan’s 122 districts and displaced 12 million people, half of whom required humanitarian
assistance.

USAID/Pakistan committed $10 million for emergency flood relief efforts through cooperative agreements.
Five million dollars was awarded to two Pakistani NGOs: the Pakistan Poverty Alleviation Fund (PPAF) and
Rural Support Programmes Network.

The two NGOs were to provide immediate relief in the provinces of Balochistan, Punjab, Sindh, and Khyber
Pakhtunkhwa in the form of food hampers and hygiene kits, and medical supplies to an affected population
of 190,058 people.

OIG conducted this audit to determine whether USAID/Pakistan’s flood relief efforts were meeting the
immediate needs of the flood victims. To answer the audit objective, we reviewed mission documentation
related to managing and monitoring the program, including implementation plans, implementing partner
agreements, performance measures, and performance results.

Auditors found that USAID/Pakistan’s implementing partners delivered food hampers, hygiene kits, and
medical supplies to meet the immediate needs of the flood victims. As of November 15, 2010, the two
implementers reported distributing food and hygiene kits to 80,098 households and administering medical
supplies and treatment to an affected population of 159,620 people and 307,116 livestock.

Auditors observed that PPAF issued food hampers and hygiene kit tokens to each household. PPAF
established separate teams for token registration, token distribution, and distribution of the relief items. In
establishing a distribution policy, PPAF gave priority to households that had not received any aid from other
donors.

Auditors observed that PPAF teams followed the organization’s distribution policy. First, the team
responsible for distribution of the relief items matched recipients’ tokens and Pakistani national identity
cards to recipients’ names on the master token distribution list. Second, the team directed recipients to a
counter where they exchanged their tokens for food hampers and hygiene kits. Lastly, the team collected
recipients’ signatures or thumb impressions to record the transaction.




USAID OIG Afghanistan and Pakistan Oversight Report                                                         87
Audit of USAID/Pakistan’s Livelihood Development Program for the Upper Region of the Federally
Administered Tribal Areas (Report No. G-391-11-002-P, December 10, 2010)

FATA has high unemployment, widespread poverty, and separate legal structures. Located in northwestern
Pakistan, FATA shares its rugged and mountainous border with Afghanistan. Extremist and terrorist groups
take advantage of the geographic and social isolation and lack of governing systems to exert their influence
on the people of this region. Development in FATA has become vital to Pakistan’s progress in fighting
insurgents.

The main goal of the Livelihood Development Program is to provide social and economic stabilization in
FATA to counter the growing influence of extremist groups. The program has three components: 1) creating
jobs, increasing incomes, and teaching employable skills with a focus on unemployed youth, 2) revitalizing
community infrastructure and essential services, and 3) supporting established businesses and developing
new sustainable businesses.

After a review of the first 2 years of activities, OIG found that the program has not achieved its main goal of
social and economic stabilization to counter the growing influence of extremist and terrorist groups in
upper FATA. The mission had no baseline data to determine progress toward countering the influence of
these groups. In addition, the program had executed only 53 percent of planned activities, and program
outcomes were weak.

Security issues were the main cause of the delays and poor performance. Specific incidents included the
assassination of the chief of party for the implementer working in lower FATA, the kidnapping of an aid
worker, and threats to monitoring teams. Allegations of wrongdoing also impeded progress. The
implementer stated that program activities were delayed because the implementer had to counter these
allegations and because of additional tiers of oversight put in place to ensure greater accountability.
Moreover, program activities stopped for 6 months until security measures were improved and a new chief
of party was appointed.

Two additional factors contributed to program delays. First, USAID/Pakistan used program resources to
provide humanitarian and disaster assistance to flood victims and internally displaced persons fleeing
conflict areas of FATA. The assistance began in August 2008, only months after the upper FATA program
started, and continued until the implementer’s termination. Mission officials acknowledged that the work
diverted time and resources from Livelihood Development Program activities. Second, in September 2009
the U.S. Department of State (State Department) initiated a shift in strategy toward using more Pakistani
institutions to implement USAID programs. During this time, all USAID/Pakistan incremental funding
requests went through the State Department for approval. The delays in incremental funding created more
budgetary problems for the program.

Despite some successes, overall progress for program activities was slow, largely because of the intervening
factors already mentioned. Although some factors were beyond the mission’s control, USAID/Pakistan
needed to address the following problems that were within its control. USAID/Pakistan staff did not follow
management controls. Technical staff in the mission addressed contractual matters that should be handled
only by the agreement officer or took action without proper approvals. Additionally, USAID/Pakistan relied
on contractors to perform services closely related to inherently governmental functions. A third-party



88                                                   USAID OIG Afghanistan and Pakistan Oversight Report
contractor’s conflict of interest in overseeing another contractor’s work created risks when the mission did
not address the gap in services created by the conflict.

The audit showed that performance deteriorated when USAID/Pakistan staff overrode management
controls and bypassed organizational structures. Much time and funding went toward disaster response
and emergency relief efforts, draining resources from the planned Livelihood Development Program
activities. In addition, allowing outside pressures to take precedence over important management controls
contributed to poor program results.

Audit of USAID/Pakistan’s Livelihood Development Program for the Lower Region of the Federally
Administered Tribal Areas (Report No. G-391-11-001-P, December 10, 2010)

Pakistan’s mountains FATA is located on the border with Afghanistan. FATA is one of the most
underdeveloped regions in Pakistan, where only 17 percent of the overall population is literate. FATA’s
weak economy, widespread unemployment, lack of social services, and ineffective government make it
susceptible to the spread of extremism. According to USAID/Pakistan, countering extremist influences in
FATA will require a robust economic development program. In response to this need, USAID/Pakistan
established the FATA Livelihood Development Program.

The main goal of the program is to provide social and economic stabilization in FATA to counter the growing
influence of extremist groups. To measure progress in attaining this goal, the mission established outcome
measures and targets for each measure. Targets for the program include creating 29,375 long-term jobs and
reaching a goal of 55 percent of FATA citizens expressing satisfaction with the basic public services by
March 2013.

OIG audited the program to determine whether it was achieving its main goal of social and economic
stabilization in the lower FATA region.

The audit found that USAID/Pakistan had made little progress in reaching annual targets. The main cause
for the program achieving so little was the hostile environment in FATA. The implementing partner
experienced kidnappings, harassments, and the tragic assassination of its chief of party in November 2008;
consequently, program activities stopped for 6 months until security measures were improved and a new
chief of party took office. During this time, the implementing partner relocated its country office from
Peshawar to Islamabad.

Although the hostile situation contributed to the program’s limited results, the mission did not ensure
adequate monitoring and oversight to achieve program goals. In addition, the program’s ability to achieve
planned results was hindered by a strategic shift in U.S. Government strategy and the mission’s request to
provide humanitarian assistance activities. In September 2009, the U.S. Government’s strategy shifted
toward greater involvement of Pakistani organizations in implementing U.S. assistance programs. As a
result, the mission began to rethink its strategy of providing the bulk of its program assistance through U.S.-
based implementers.

As a result of the setbacks and shifts in implementation, program funds were not used efficiently. For
example, according to the implementing partner, it expended $29.2 million in the first 2 years of the



USAID OIG Afghanistan and Pakistan Oversight Report                                                         89
program; however, only $7.6 million was spent on direct program activities, $2.7 million of that going to
humanitarian assistance activities.

Audit of USAID/Pakistan’s Family Advancement for Life and Health Program (Report No. 5-391-10-
012-P, August 31, 2010)

In 2007, USAID/Pakistan signed a cooperative agreement with the Population Council, a U.S.-based
nongovernmental organization, to implement Family Advancement for Life and Health (FALAH). FALAH is a
5-year, $60.4 million program intended to increase demand for and use of birth spacing and family planning
services in 26 districts in Pakistan. The country has a relatively high rate of population growth, and in 2009
the estimated Pakistani population was about 181 million—the sixth largest in the world.

OIG’s audit found that FALAH was achieving its main goals. Among its accomplishments were:

     An increased demand for family planning services. Program implementers provided family planning
     information to more than 2 million men and women. In addition, program messages on birth spacing
     and family planning services blanketed the media. Almost 28,000 commercials were aired during
     November and December 2009 alone.

     Improved family planning services in the public sector. Program implementers placed a team of master
     trainers in each of the 26 program districts. The trainers were expected to support group meetings in
     the community and help public health-care providers better serve their clients. Fifty-nine percent of all
     public service delivery points in the FALAH districts had trained providers for family planning
     counseling and services in their facilities. Furthermore, FALAH planned to equip 80 percent of public
     service delivery points in program districts to provide appropriate family planning services by the end
     of the program.

     Improved family planning services in the private sector. Improved family planning services in the private
     sector were being led by Greenstar Social Marketing, a Pakistani nongovernmental organization. The
     program hoped to expand the number of Greenstar health-care providers to 1,000 in the program’s
     rural areas. As of December 31, 2009, Greenstar had established 557 new providers and completed
     training for more than 4,000 health-care providers overall. Greenstar also conducted meetings at
     factories and other workplaces to discuss the benefits of birth spacing and was operating a national
     hotline serviced by its physicians.

Audit of USAID/Pakistan’s Primary Healthcare Revitalization, Integration and Decentralization in
Earthquake-Affected Areas Project (Report No. 5-391-10-010-P, June 28, 2010)

On October 8, 2005, a magnitude 7.6 earthquake in northern Pakistan claimed more than 74,000 lives and
left 3.5 million people homeless. More than half of the deaths occurred in the Mansehra District in the
North-West Frontier Province and the Bagh Districts of Azad Jammu and Kashmir. Thousands of teachers,
health-care providers, and civil servants were among those killed or badly injured. Public systems that had
supported essential services, including logistics and administration for health care, no longer existed. In
response to this disaster, USAID/Pakistan designed the Primary Healthcare Revitalization, Integration, and
Decentralization in Earthquake-Affected Areas Project and awarded a $28.5 million cooperative agreement



90                                                   USAID OIG Afghanistan and Pakistan Oversight Report
to the International Rescue Committee, a U.S.-based nongovernmental organization, to provide technical
support to the public sector health system in the earthquake-affected districts of Mansehra and Bagh
through a consortium of implementers including Management Sciences for Health, Jhpiego, and the
Population Council. The project’s three main goals were to (1) improve public health service and
management system performance, (2) increase access to primary health-care services, and (3) promote
healthier behaviors and community participation in health services.

The audit found that the project had contributed to improving the quality of primary health-care services,
but much work needed to be done to improve access to these services—particularly with regard to referring
patients to facilities that offer a higher level of health care when patients’ conditions could not be treated at
primary health-care facilities.

To promote wider access to such services, the project had planned to strengthen the patient referral system.
However, the preliminary planning for improving the referral system was completed a year later than
anticipated, and—at the time of the audit—an improved system had not yet been implemented. Delays were
attributed to the lack of availability of Government of Pakistan staff scheduled to work with the project
implementer. Moreover, other project activities took precedence over revamping the patient referral
system.

Review of USAID’s Internally Displaced Persons Programs in Pakistan (Report No. 5-391-10-001-S,
June 28, 2010)

Between August 2008 and September 2009, conflict between the Government of Pakistan and militant
groups in the North-West Frontier Province (NWFP, subsequently renamed Khyber Pakhtunkhwa) and the
FATA displaced over 400,000 Pakistani households. While many displaced persons took shelter with host
families, the remaining families took shelter in official Pakistani Government-run camps. As the internally
displaced persons (IDPs) crisis escalated in May 2009, USAID and other U.S. Government agencies
responded quickly by providing humanitarian assistance to Pakistani IDPs. USAID obligated more than
$285 million in humanitarian assistance for the crisis, of which more than half was for food aid.

Despite the deteriorating security situation in Pakistan, USAID responded immediately to provide rapid
assistance through 21 nongovernmental organizations, 5 U.N. organizations, a contractor, and the
Government of Pakistan. USAID’s programs consisted of support for the immediate needs of people who
were displaced and for people returning to their areas of origin after the conflict in their home areas had
diminished.

Although USAID carried out numerous displaced persons programs in Pakistan, OIG found that monitoring
and evaluation methods needed improvement. Specifically, USAID’s “alternative monitoring” methods—
used to monitor activities in dangerous and insecure areas, such as NWFP and FATA—needed to be
strengthened. In addition, USAID had not implemented monitoring controls that were meant to provide
reasonable assurance that $44 million in cash-transfer funds had actually reached 140,000 IDP families as
intended.




USAID OIG Afghanistan and Pakistan Oversight Report                                                           91
USAID/Pakistan’s Capacity Building Program for the Federally Administered Tribal Areas
Development Program (Report No. 5-391-10-005-P, January 28, 2010)

This audit pointed to several implementation difficulties in USAID’s capacity building programs in the FATA
of Pakistan. The FATA region, which is the most economically depressed area of the country, has a
population with a literacy rate estimated at only 17 percent, and 66 percent of people live below the national
poverty line.

Local Pakistani institutions responsible for overall governance, health care, education, and public works
projects lack the capacity to manage services and development resources effectively. In an attempt to
remedy this problem, in 2008 USAID awarded a 3-year, $46 million contract to Development Alternatives
Inc. to increase the capacity of these institutions.

OIG’s audit found that, although the program had provided training, taken initial steps to automate FATA
institutions, and completed some media activities, little had yet been achieved to build the capacity of FATA
governmental institutions and NGOs responsible for providing services. The program had been in place for
nearly 2 years of its 3-year planned lifespan, and it had not made significant progress with two of the
program’s main goals: improving institutions’ capacity to govern, and improving the capacity of NGOs to
promote good governance.

Some of the problems could be attributed to the fact that the program had gotten off to a slow start. During
the first year, the contractor focused its resources on working out best approaches to designing and
implementing activities, building up relationships with FATA institutions, and developing work plans. Also,
the deteriorating security situation in Peshawar and the November 2008 assassination of the chief of party
of another USAID program delayed progress in the FATA capacity building program.

Moreover, although the program had implemented a few activities to address FATA NGO weaknesses, the
few FATA-based NGOs that existed lacked the human and financial resources to promote good governance
effectively. In most instances, FATA NGOs needed to strengthen their proposal preparation skills, financial
management practices, and monitoring and evaluation capabilities before they could start to promote good
governance.

Because of a high-level change of emphasis in U.S. Government strategy toward greater involvement of
Pakistani organizations in implementing assistance programs, the mission began to rethink its strategy of
providing the bulk of its program assistance through U.S.-based implementers such as DAI. As a result, in
June 2009 the mission refrained from fully funding a DAI incremental funding request of $15.3 million and, 4
months later, approved only $4.7 million in additional funds. In October 2009, the mission asked DAI to
consider preparing a 90-day demobilization plan. However, as of mid-November 2009, no final decision had
been made as to whether the DAI contract would undertake early demobilization and termination or, if
terminated, what program implementation mechanisms would replace the U.S.-based contractor.

In addition to the difficulties associated with the transition to a new implementation strategy, the audit
found that overall capacity building in automation had achieved little success, and most of the computer
hardware purchased for the program remained boxed up and unused. Furthermore, monitoring and
reporting systems for managing development projects—such as a geographic information system that



92                                                  USAID OIG Afghanistan and Pakistan Oversight Report
enables project information to be represented on maps and a database system to document the life cycle of
development projects—have not been completed, and they may not be completed until June 2010.




USAID OIG Afghanistan and Pakistan Oversight Report                                                   93
Abbreviations
AED      Academy for Educational Development

ASI-SR   Afghanistan Stabilization Initiative for the Southern Region

ATVI     Afghanistan Technical Vocational Institute

AUAf     American University of Afghanistan

AVIPA    Afghanistan Vouchers for Increased Productive Agriculture Program

BISP     Benazir Income Support Program

CERP     Commander's Emergency Response Program

COPP     Compliance and Oversight of Partner Performance Division, Office of Acquisitions
         and Assistance, U.S. Agency for International Development

DAB      Afghanistan Central Bank

DAI      Development Alternatives Inc.

DCAA     Defense Contract Audit Agency

DOD      Department of Defense

EDC      Education Development Center Inc.

FALAH    Family Advancement for Life and Health Program

FATA     Federally Administered Tribal Areas

FY       fiscal year

GAO      Government Accountability Office

GIRoA    Government of the Islamic Republic of Afghanistan

IDP      internally displaced person



94                                        USAID OIG Afghanistan and Pakistan Oversight Report
IEP           Increased Electoral Participation in Afghanistan Program

IOM           International Organization for Migration

KVO           Kunar Vocational Organization

LBGI/B&V      Joint Venture Louis Berger Group Inc./Black & Veatch Special Projects Corp.

LGCD          Local Governance and Community Development Program

MoPH          Ministry of Public Health, Government of the Islamic Republic of Afghanistan

NAB           National Accountability Bureau, Government of Pakistan

NESPAK        National Engineering Services Pakistan Limited

NGO           nongovernmental organization

NMSU          New Mexico State University

NWFP          North-West Frontier Province (now Khyber Pakhtunkhwa)

OAA           Office of Acquisitions and Assistance, U.S. Agency for International Development

OIG           Office of Inspector General, U.S. Agency for International Development

OMB           Office of Management and Budget, Executive Office of the President

OTI           Office of Transition Initiatives, U.S. Agency for International Development

PACE-A        Partnership for Advancing Community-Based Education in Afghanistan

PPAF          Pakistan Poverty Alleviation Fund

PPR           Pakistan Public Procurement Rules

Pre-STEP      Pre-Service Teacher Education Program

PSC           private security contractor

STAY          Skills Training for Afghan Youth Project



USAID OIG Afghanistan and Pakistan Oversight Report                                              95
STEP    Support to the Electoral Process

USAID   U.S. Agency for International Development




96                                         USAID OIG Afghanistan and Pakistan Oversight Report
USAID Office of Inspector General
  1300 Pennsylvania Ave, NW
    Washington, DC 20235
      www.usaid.gov/oig
         202.712.1150
